<html>
<title> - RECENT DEVELOPMENTS IN SRI LANKA</title>
<body><pre>[Senate Hearing 111-390]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-390
 
                    RECENT DEVELOPMENTS IN SRI LANKA

=======================================================================


                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON NEAR EASTERN AND 
                    SOUTH AND CENTRAL ASIAN AFFAIRS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 24, 2009

                               __________

       Printed for the use of the Committee on Foreign Relations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html




                  U.S. GOVERNMENT PRINTING OFFICE
56-129                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                COMMITTEE ON FOREIGN RELATIONS         

             JOHN F. KERRY, Massachusetts, Chairman        
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
RUSSELL D. FEINGOLD, Wisconsin       Republican Leader designee
BARBARA BOXER, California            BOB CORKER, Tennessee
ROBERT MENENDEZ, New Jersey          JOHNNY ISAKSON, Georgia
BENJAMIN L. CARDIN, Maryland         JAMES E. RISCH, Idaho
ROBERT P. CASEY, Jr., Pennsylvania   JIM DeMINT, South Carolina
JIM WEBB, Virginia                   JOHN BARRASSO, Wyoming
JEANNE SHAHEEN, New Hampshire        ROGER F. WICKER, Mississippi
EDWARD E. KAUFMAN, Delaware
KIRSTEN E. GILLIBRAND, New York
                  David McKean, Staff Director        
        Kenneth A. Myers, Jr., Republican Staff Director        

                         ------------          

                SUBCOMMITTEE ON NEAR EASTERN AND        
                SOUTH AND CENTRAL ASIAN AFFAIRS        

          ROBERT P. CASEY, Jr., Pennsylvania, Chairman        

CHRISTOPHER J. DODD, Connecticut     JAMES E. RISCH, Idaho
RUSSELL D. FEINGOLD, Wisconsin       BOB CORKER, Tennessee
BARBARA BOXER, California            JOHN BARRASSO, Wyoming
BENJAMIN L. CARDIN, Maryland         JOHNNY ISAKSON, Georgia
EDWARD E. KAUFMAN, Delaware

                              (ii)        

  
?

                            C O N T E N T S

                              ----------                              
                                                                   Page

Casey, Hon. Robert P., Jr., U.S. Senator from Pennsylvania, 
  opening statement..............................................     1
Dietz, Robert, coordinator, Asia Program, Committee to Protect 
  Journalists, New York, NY......................................    22
    Prepared statement...........................................    25
    Response to question submitted by Senator Richard G. Lugar...    51
    Response to question submitted by Senator Robert Menendez....    52
Lugar, Hon. Richard G., U.S. Senator from Indiana, opening 
  statement......................................................     4
    Prepared statement...........................................     4
Lunstead, Hon. Jeffrey J., former U.S. Ambassador to Sri Lanka, 
  Middlebury, VT.................................................     5
    Prepared statement...........................................     8
Neistat, Dr. Anna, senior researcher, Human Rights Watch, 
  Washington, DC.................................................    11
    Prepared statement...........................................    14
    Response to question submitted by Senator Richard G. Lugar...    51
    Responses to questions submitted by Senator Robert Menendez..    53
Risch, Hon. James E., U.S. Senator from Idaho, opening statement.     4

              Additional Material Submitted for the Record

Fein, Bruce, attorney, Tamils Against Genocide, prepared 
  statement......................................................    65
Leahy, Hon. Patrick J., U.S. Senator from Vermont, prepared 
  statement......................................................    49
Parker, Karen, attorney, prepared statement......................    59
Sangam, Ilankai Tamil, USA, Inc., Associatiion of Tamils of Sri 
  Lanka in the USA, Chesterfield, NJ, prepared statement.........    55
Young, Miriam A., coordinator, U.S. NGO Forum on Sri Lanka, 
  prepared statement.............................................    56

                                 (iii)




                    RECENT DEVELOPMENTS IN SRI LANKA

                              ----------                              


                       TUESDAY, FEBRUARY 24, 2009

                           U.S. Senate,    
           Subcommittee on Near Eastern and
                   South and Central Asian Affairs,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:33 p.m. in 
room SD-419, Dirksen Senate Office Building, Hon. Robert P. 
Casey, Jr. (chairman of the subcommittee) presiding.
    Present: Senators Casey, Lugar, and Risch.

        OPENING STATEMENT OF HON. ROBERT P. CASEY, JR.,
                 U.S. SENATOR FROM PENNSYLVANIA

    Senator Casey. This hearing of the Foreign Relations 
Subcommittee on Near Eastern and South and Central Asian 
Affairs will now come to order.
    Today, the subcommittee meets to examine the ongoing 
violence and humanitarian crisis in the island nation of Sri 
Lanka, a tragedy overlooked for far too long. The people of Sri 
Lanka have suffered for years as a result of the violent 
conflict between the Government of Sri Lanka and the separatist 
Liberation Tigers of Tamil Eelam, also known as LTTE, or the 
Tamil Tigers.
    This hearing will serve a dual purpose. It will assess the 
humanitarian crisis exacerbating a conflict that has killed and 
displaced countless Sri Lankans and, according to the United 
Nations, trapped 215,000 civilians in the north Vanni region of 
the country.
    In addition, the hearing will examine the prospects for a 
political settlement that will both end the war and implement 
reforms to end systematic discrimination against the Tamil 
population and ensure they are treated as full and equal 
citizens of Sri Lanka.
    For the thousands of civilians trapped in the Vanni region, 
the situation has turned increasingly dire as LTTE leaders find 
themselves encircled by the Sri Lankan military. Fighting now 
occurs in an increasingly small, densely populated area, even 
spilling over into the government-declared safety zone for 
Tamil citizens.
    The LTTE, a ruthless group, designated as a terrorist 
organization by the United States, Sri Lanka, and others, 
carries out suicide bombings and hides among the civilian 
population, inviting military attacks on these densely 
populated areas. Compounding the problem, the LTTE forbids many 
civilians, including some local staff working for international 
humanitarian organizations, from leaving the region.
    I am particularly appalled by the reports of children--
children--being conscripted by the LTTE. The United Nations 
Children's Fund, known as UNICEF, their representative in Sri 
Lanka recently stated, ``We have clear indications that the 
LTTE has intensified forcible recruitment of civilians and that 
children as young as 14 years old are now being targeted. These 
children are facing immediate danger, and their lives are at 
great risk.''
    After two decades of fighting the LTTE, the Sri Lankan 
military has achieved substantial progress and has made it 
clear that it plans to eradicate all remaining remnants of the 
Tigers. Indeed, the Sri Lankan Government has rejected recent 
calls for an immediate cease-fire, including a plea by 
Secretary of State Clinton and U.K. Foreign Secretary Miliband 
to institute a temporary no-fire period.
    Unfortunately, in its attempt to secure a total victory, 
the Sri Lankan military has at times exhibited an appalling 
disregard for the lives of noncombatants. I am particularly 
concerned by the allegations of Sri Lankan soldiers firing 
indiscriminately upon civilian areas as well as inside the safe 
zone.
    Heavy artillery fire and air strikes are killing innocents 
and causing serious damage to hospitals. In a disturbing 
admission, Defense Secretary Rajapaksa told the BBC that 
hospitals outside the safe zone were legitimate targets. The 
few remaining hospitals are undermanned and full of victims.
    Almost all access to the region for international 
humanitarian aid workers has been cut off, and as a result, 
entrapped civilians in the north of the country are being 
deprived of basic necessities, such as food and medical care. 
Many Tamil youth are at risk of malnutrition, susceptible to 
disease, and deprived of education. Humanitarian relief must be 
allowed to reach these innocent civilians suffering in the 
conflict zone.
    Civilians in the north have few good options--stay and face 
deprivation of basic needs for survival, try to flee and risk 
being shot at by the LTTE, reach a safe zone and come under 
assault by government artillery, or leave for a government-
controlled refugee camp, only to find themselves living in 
dismal conditions under suspicion of being affiliated with the 
LTTE. This is truly an unacceptable situation that must be 
remedied as quickly as possible.
    Elsewhere in Sri Lanka, we are witnessing the erosion of 
basic civil liberties and human rights. Journalists are being 
murdered and imprisoned, placing freedom of speech in severe 
jeopardy.
    In particular, the murder of renowned journalist Lasantha 
Wickramatunga in January sent alarms throughout the 
International Community. He was Sinhalese, and he dared to 
publish articles critical of the government's handling of the 
conflict. According to the International Crisis Group, the 
professional nature of his murder and the subsequent commando 
attack on MTV studios point to the involvement of senior Sri 
Lankan Government and military figures.
    It is disheartening to hear the Defense Secretary tell the 
BBC that, ``Dissent in a time of war is treason.'' The 
implications of that statement for Sri Lankan democracy are 
chilling.
    An end to the violence is necessary, but that alone will 
not bring an end to the conflict, nor will it alleviate the 
human suffering taking place in the north and throughout Sri 
Lanka. While the government frames its war against the LTTE as 
a war against terror, there exists a broader ethnic conflict 
between the minority Tamils and the majority Sinhalese that has 
spanned decades.
    Should the war end and the broader Tamil population 
continue to face systemic discrimination by, and inadequate 
representation in, the Sri Lankan Government, the Tamil Tigers 
could once again be driven underground to carry out acts of 
terrorism, perpetuating another go-around in this vicious cycle 
of violence.
    So far there are few indications that a political deal is 
imminent. The Government of Sri Lanka will not negotiate 
directly with the LTTE, but it does not appear as though the 
government has much interest in finding alternative Tamil 
interlocutors, nor have the Tamils presented a credible 
alternative to the LTTE.
    In recent weeks, Members in both Houses of Congress, 
including the distinguished chairman and ranking member of the 
Senate Foreign Relations Committee, that is Senator Kerry and 
Senator Lugar, who is with us here today, have voiced their 
growing concern about the deteriorating situation in Sri Lanka.
    And our witnesses' testimony and questioning that will 
follow will undoubtedly highlight the abuses taking place. But 
I hope they will also offer thoughtful approaches for the 
United States and the International Community to facilitate an 
end to the conflict and the beginning of a lasting peace.
    We are today honored to be joined by a respected panel of 
witnesses, and I will go through each of them very briefly here 
today.
    Ambassador Jeffrey Lunstead served as the United States 
Ambassador to Sri Lanka from 2003 to 2006, his final post in a 
distinguished career in Foreign Service. Ambassador Lunstead's 
deep affection for Sri Lanka and its people were apparent as he 
oversaw the United States relief and reconstruction efforts in 
Sri Lanka following the devastating tsunami of December 2004.
    Since retirement from the Foreign Service, Ambassador 
Lunstead has been vocal in raising awareness about the crisis 
in Sri Lanka. In January, he brought five former United States 
Ambassadors of Sri Lanka together to write a candid letter to 
President Rajapaksa that supported his government's fight 
against the LTTE, but also expressed concern about the erosion 
of the rule of law and democracy in Sri Lanka.
    I also note that Ambassador Lunstead holds a Ph.D. from the 
esteemed University of Pennsylvania.
    Second, Dr. Anna Neistat is a senior researcher at Human 
Rights Watch and a specialist in humanitarian crises who has 
reported extensively on the tragedy in Sri Lanka. She recently 
returned from the island and contributed to an HRW study on 
abuses against civilians in the conflict zone. In 2008, she 
authored a poignant study on the disappearance and abduction of 
people in Sri Lanka, entitled ``Recurring Nightmare.''
    In addition to her involvement in Sri Lankan issues, Dr. 
Neistat has served as the director of the Human Rights Watch 
office in Moscow, where she examined the conflict in Chechnya 
and other human rights problems in the former Soviet Union.
    Our final witness, Bob Dietz, the Asia Program coordinator 
for the Committee to Protect Journalists. Mr. Dietz has 
traveled extensively across South Asia, often into hostile and 
dangerous environments. He recently returned from Sri Lanka, 
where he documented violence and abuses committed against 
journalists.
    Prior to joining the Committee to Protect Journalists, Mr. 
Dietz was an editor for Asia Week magazine and served in the 
World Health Organization. We appreciate his presence here to 
elaborate on the increasingly dangerous environment in which 
Sri Lankan journalists are working.
    I would like now to turn to both the ranking member of our 
Foreign Relations Committee as well as the ranking member of 
our subcommittee, Senators Lugar and Risch, for any opening 
statement they might have.

          OPENING STATEMENT OF HON. RICHARD G. LUGAR,
                   U.S. SENATOR FROM INDIANA

    Senator Lugar. Thank you very much, Mr. Chairman, for 
calling and chairing this committee today.
    I will ask that my statement be placed in the record 
because you have covered in a very comprehensive and very 
thoughtful way each of the points that I would have made if I 
had read it in full, namely the humanitarian considerations, 
the problems of freedom of the press, the problems of the 
country's governance.
    I thank you for recognizing the concerns that Senator Kerry 
and I have expressed publicly. They were sincere, and we are 
pleased at least some recognition has come of this in Sri 
Lanka, as well as in the United States.
    So I thank you once again for the hearing.
    [The prepared statement of Senator Lugar follows:]

 Prepared Statement of Hon. Richard G. Lugar, U.S. Senator From Indiana

    I thank Senator Casey for chairing this hearing on recent 
developments in Sri Lanka. After more than 25 years of conflict and 
tens of thousands of lives lost, the fight between the Liberation 
Tigers of Tamil Eelam (the LTTE) and the government has intensified to 
a new level of violence. Earlier this month, Senator Kerry and I 
jointly expressed concerns about the deteriorating humanitarian 
situation in Sri Lanka. Some Sri Lankans trapped by the fighting in the 
northern part of the island are being denied freedom of movement, 
access to international food aid, and medical assistance.
    Another casualty of the fighting has been press freedom. The 
Economist magazine reports: ``Journalists have no access to the 
battlefront or to the displaced and must depend on information released 
by the government or the Tigers.'' Media personnel are being threatened 
and physically attacked. Press freedoms are an essential element of 
democracy. It is in every nation's best interest to have an independent 
press that is free to investigate issues and stories.
    Senator Kerry and I urged the Government of Sri Lanka to protect 
all of its citizens, facilitate humanitarian access, and conduct swift 
and credible investigations into attacks on journalists and other 
civilians. The United States has repeatedly asserted that a lasting, 
sustainable peace can best be achieved if the Sri Lankan Government 
works now to reach a political solution that addresses the aspirations 
of all Sri Lankans, including Sinhalese, Tamils, and Muslims.
    I look forward to the insights of our witnesses.

           OPENING STATEMENT OF HON. JAMES E. RISCH,
                    U.S. SENATOR FROM IDAHO

    Senator Risch. Mr. Chairman, very briefly, I also want to 
thank you for the hearing.
    I think that it is important that the world knows about the 
issues here and that the American people, the American 
Government, and the U.S. Senate take these issues seriously. 
You have articulated them well, and we are all anxious to hear 
from the witnesses.
    Thank you very much.
    Senator Casey. Thank you very much to both of my colleagues 
for being here and for their work on this issue.
    Before we turn to our witnesses, I would also like to enter 
into the formal hearing record a series of statements submitted 
to the committee by outside experts and advocacy groups 
providing their perspective on recent events in Sri Lanka.
    These statements are provided by the following: Bruce Fein, 
a former senior Justice Department official; Karen Parker, an 
attorney and human rights activist; Miriam Young of the U.S. 
NGO Forum on Sri Lanka, and finally, a statement signed by 
several Tamil-American communities.
    We will now turn to the opening statements from our 
witnesses. I would encourage all of our witnesses to keep their 
remarks brief and succinct so that we can move to questions. 
Accordingly, please limit your oral statement to no more than 
10 minutes, if you can do that. I know that is difficult.
    But if that requires you to summarize your statement, the 
text of your full statement will be included in the hearing 
record.
    So why don't we start with Ambassador Lunstead? Thank you 
very much. The floor is yours, sir.

 STATEMENT OF HON. JEFFREY J. LUNSTEAD, FORMER U.S. AMBASSADOR 
                  TO SRI LANKA, MIDDLEBURY, VT

    Ambassador Lunstead. Thank you, Mr. Chairman, for inviting 
me to speak on Sri Lanka today.
    Sri Lanka is at a turning point in its history. Decisions 
taken now could determine whether the country will be able to 
put its troubled past behind and begin a new era of peace and 
prosperity. If Sri Lanka's leaders and people fail to take 
advantage of this opportunity, they risk a continuation of the 
violence that has long plagued the island.
    When I served as the U.S. Ambassador to Sri Lanka from 2003 
to 2006, a cease-fire was in effect between the government and 
the Liberation Tigers of Tamil Eelam, the LTTE. Sri Lankans and 
their friends hoped for a political solution to the ethnic 
conflict. The United States and much of the International 
Community strongly supported that peace process.
    Unfortunately, the process collapsed, for a variety of 
reasons. The LTTE withdrew from the political negotiations at 
an early point and consistently violated the cease-fire. Sri 
Lanka's political leaders were divided and seemed to spend more 
time tearing each other down than seeking a way forward on 
peace.
    It appears that the LTTE decided to return to war, perhaps 
hoping to gain ground and return to the negotiations in a 
stronger position. That was a fatal miscalculation. The LTTE 
manipulated the 2005 Sri Lankan Presidential election to ensure 
the victory of President Rajapaksa, then immediately after his 
victory began serious violations of the cease-fire agreement.
    After a period of restraint, the government responded and 
ended the cease-fire. Much to the surprise of most observers, 
including myself, the government forces made significant 
progress and now appear about to eliminate the LTTE as a 
conventional fighting force, though the LTTE will certainly 
retain a capability to conduct guerrilla operations.
    It is this situation which presents both an opportunity and 
a challenge. One short-term and two long-term issues must be 
addressed. In the short term, as the fighting intensified and 
the area held by the LTTE diminished, the toll on civilians has 
increased. Both the LTTE and the government have shown a 
callous disregard for civilians.
    There is a desperate need for food and medical care. Both 
sides have fired into civilian areas. The LTTE has forced 
children as young as 14 into its ranks and fired upon civilians 
trying to cross into government-controlled territory. Tamil 
civilians who manage to flee the conflict area have been forced 
into camps by the government.
    This situation must be dealt with on an emergency basis. 
The government has an obligation to protect its own citizens. 
It must do better at preventing collateral damage to civilians 
in its military campaign and ensure that food and medical care 
reach them. Conditions in the camps are abysmal and must be 
improved.
    After initial resistance, the government is now allowing 
U.N. and other international and local agencies into the camps. 
This is an important step. The government must also allow a 
competent outside agency, such as the ICRC, to be present when 
it screens those entering the camps and to establish a record 
of those who are detained. Tamils have a real and legitimate 
fear that those taken off by government forces will be abused 
and may never be seen again.
    The first long-term issue is dealing with the need for 
political change. Sri Lanka's Tamils have legitimate 
grievances, which need to be addressed. Sri Lanka's political 
system, which centralizes power in Colombo, needs to be changed 
to devolve power to local areas. This will allow Tamils and, 
indeed, all Sri Lankans to have a greater say in how they are 
governed and how they lead their lives.
    President Rajapaksa now enjoys great political support. He 
is expected to gain even greater power if he calls an election. 
He will have an opportunity to use the support to make the 
necessary constitutional changes.
    The second long-term issue is wider than the ethnic 
conflict. It is the growing assault on dissent, which takes 
place in a culture of complete impunity. Sri Lanka has 
maintained its democracy, despite some rough patches, for over 
60 years since independence. The recent murder of prominent 
newspaper editor Lasantha Wickramatunga was but the latest in a 
series of incidents.
    Tamils and Sinhalese suffer alike from these attacks on 
basic freedoms. Many Tamils have been abducted and have simply 
disappeared. It is sad to say, but it is almost a certainty 
that these attacks have been carried out by elements of the 
government.
    Impunity seems total. No one has been prosecuted for any of 
these incidents. No member of the security forces has been 
prosecuted for any abuses. Past efforts to break the culture of 
impunity have failed.
    In 2007, the government invited the International Community 
to set up an International Independent Group of Eminent Persons 
to observe the work of a government commission of inquiry into 
a number of human rights abuses, including the murder of aid 
workers. The IIGEP terminated its mission in 2008, reporting 
that it had encountered ``an atmosphere of confrontation'' and 
``an absence of will on the part of the Government of Sri Lanka 
to investigate cases with vigor where the conduct of its own 
forces has been called into question.''
    In January, my five predecessors as U.S. Ambassador to Sri 
Lanka and I sent a joint letter to President Rajapaksa, 
expressing our dismay about the attack on Wickramatunga and 
other incidents. I have attached a copy of that letter to this 
statement.
    I have focused on the role of the government in this 
statement, but not because the abuses by the LTTE are less. The 
LTTE has shown a remarkable brutality and willingness to murder 
anyone, Tamil or Sinhalese, who dares to disagree with it. If 
the LTTE had seriously pursued the peace process from 2001 
onward, the situation might be vastly different and better 
today.
    But the government should be held to a higher standard. It 
is, after all, a government. It claims membership in the 
International Community and, therefore, must meet international 
norms.
    The government now faces a choice. It can fail to treat its 
Tamil citizens properly, fail to engage seriously in political 
reform, and continue to allow human rights to be violated and 
dissent to be threatened. If so, unrest will continue, violence 
will certainly recur, and the promising future for Sri Lanka, 
which has always seemed just out of reach, will recede even 
further.
    Or it can act immediately to show its Tamil citizens that 
they are valued as highly as every other Sri Lankan. It can 
make the dramatic changes that will give better governance to 
all Sri Lankans and set a standard for responsibility and 
accountability, which will diminish human rights violations and 
strengthen democracy.
    The decisions made now will affect the island for better or 
worse for decades to come. What can the United States and 
others do? The United States military relationship with Sri 
Lanka is almost nil, with military assistance terminated. U.S. 
development assistance is relatively small.
    However, Sri Lanka will require massive assistance to 
rebuild war-devastated areas to meet Sri Lanka's other 
developmental needs. The United States could join with other 
donors, both bilateral--Japan, the EU, and others--and 
multilateral, including the World Bank and the Asian 
Development Bank.
    A powerful and united donors group could insist that 
development assistance will flow only if strict conditions are 
met. These could include genuine devolution of power, quick 
resettlement of displaced persons, and a clear improvement in 
the human rights situation.
    The United States should also seek close coordination with 
India, Sri Lanka's close and large neighbor. With its own large 
Tamil population, India has a significant stake in the outcome 
in Sri Lanka.
    With long experience in these matters, I will not pretend 
that meaningful donor coordination and aid conditionality are 
easy to accomplish. They are easy to propose, but fiendishly 
difficult to do.
    But if the United States and other donors made World Bank 
and ADB loans conditional on these changes, and if Japan, Sri 
Lanka's largest bilateral donor, conditioned its own 
assistance, Sri Lanka's friends could have a major impact. 
Without such changes, the prospect is for an inevitable 
recurrence of the ethnic conflict.
    I would like to add one point to that written statement. 
Since my participation in this hearing was posted, I have 
received about 40 to 50 e-mails an hour from various persons.
    Most of these seek to reduce a complex situation to simple 
slogans, such as ``the Sri Lankan Government is committing 
genocide against Tamils'' on one side, or ``the Sri Lankan 
Government must wipe out the terrorist LTTE'' on the other 
side. Such simplistic slogans offer little promise to solve 
this difficult and important and complex issue.
    Thank you.
    [The prepared statement of Ambassador Lunstead follows:]

Prepared Statement of Hon. Jeffrey J. Lunstead, Former U.S. Ambassador 
                      to Sri Lanka, Middlebury, VT

    Thank you for inviting me to speak on Sri Lanka today. Sri Lanka is 
at a turning point in its history, and decisions taken now could 
determine whether the country will be able to put its troubled past 
behind and begin a new era of peace and prosperity. If Sri Lanka's 
leaders and people fail to take advantage of this opportunity, they 
risk a continuation of the violence that has long plagued the island.
    I served as the United States Ambassador to Sri Lanka from mid-2003 
until mid-2006, a time when a cease-fire was in effect between the 
Government and the Liberation Tigers of Tamil Eelam (the LTTE), and Sri 
Lankans and their friends hoped for a political solution to the ethnic 
conflict. The United States and much of the international community 
strongly supported that peace process. Unfortunately, the process 
collapsed, for a variety of reasons. The LTTE withdrew from the 
political negotiations at an early point and consistently violated the 
cease-fire. Sri Lanka's political leaders were divided and seemed to 
spend more time tearing each other down than seeking a way forward on 
peace.
    It appears that the LTTE decided to return to war, perhaps hoping 
to gain ground and return to the negotiations in a stronger position. 
That was a fatal miscalculation. The LTTE manipulated the 2005 Sri 
Lankan Presidential election to ensure the victory of President 
Rajapakse, then immediately after his victory began serious violations 
of the cease-fire agreement. After a period of restraint, the 
Government responded and ended the cease-fire. Much to the surprise of 
most observers, the Government forces made significant progress and now 
appear about to eliminate the LTTE as a conventional fighting force--
although the LTTE will certainly retain a capability to conduct 
guerrilla operations.
    It is this situation which presents both an opportunity and a 
challenge. One short-term and two long-term issues must be addressed.
    In the short-term, as the fighting intensified and the area held by 
the LTTE diminished, the toll on civilians trapped between the two 
forces increased. Both the LTTE and the Government have shown a callous 
disregard for civilians. There is a desperate need for food and medical 
care. Both sides have fired into civilian areas. The LTTE has forced 
children as young as 14 into its ranks, and fired upon civilians trying 
to cross into Government-controlled territory. Tamil civilians who 
managed to flee the conflict area have been forced into camps by the 
Government.
    This situation must be dealt with on an emergency basis. The 
Government has an obligation to protect its own citizens. It must do 
better at preventing collateral damage to civilians in its military 
campaign, and ensure that food and medical care reach them. Conditions 
in the camps are abysmal, and must be improved. After initial 
resistance, the Government is now allowing U.N. and other international 
and local agencies into the camps. This is an important step. The 
Government must also allow a competent outside agency, such as the 
ICRC, to be present when it screens those entering the camps, and to 
establish a record of those who are detained. Tamils have a real, and 
legitimate, fear that those taken off by Government forces will be 
abused and may never be seen again.
    The first long-term issue is dealing with the need for political 
change. Sri Lanka's Tamils have legitimate grievances which need to be 
addressed. Sri Lanka's political system, which centralizes power in 
Colombo, needs to be changed to devolve power to local areas. This will 
allow Tamils--and indeed all Sri Lankans--to have a greater say in how 
they are governed and how they lead their lives. President Rajapakse 
now enjoys great political support, and is expected to gain even 
greater power if he calls an election. He will have an opportunity to 
use this support to make the necessary constitutional changes.
    The second long-term issue is wider than the ethnic conflict. It is 
the growing assault on dissent, which takes place in a culture of 
complete impunity. Sri Lanka
has maintained its democracy, despite some rough patches, for over 60 
years since independence. The recent murder of prominent newspaper 
editor Lasantha Wickramatunga was but the latest in a series of 
incidents. Tamils and Sinhalese suffer alike from these attacks on 
basic freedoms. Many Tamils have been abducted and have simply 
disappeared, as documented in the State Department's Human Rights 
Report. It is sad to say, but it is almost a certainty that these 
attacks have been carried out by elements of the Government. Impunity 
seems total. No one has been prosecuted for any of these incidents, and 
no member of the security forces has been prosecuted for any abuses. 
Past efforts to break the culture of impunity have failed. For 
instance, the Government in 2007 invited the international community to 
set up an ``International Independent Group of Eminent Persons'' (the 
IIGEP) to observe the work of a Government Commission of Inquiry into a 
number of human rights abuses, including the murder of aid workers. The 
IIGEP terminated its mission in 2008, reporting that it had encountered 
an ``atmosphere of confrontation'' and an ``absence of will on the part 
of the Government of Sri Lanka . . . to investigate cases with vigor, 
where the conduct of its own forces has been called into question.'' In 
January my five predecessors as U.S. Ambassador to Sri Lanka and I sent 
a joint letter to President Rajapakse expressing our dismay at the 
attack on Wickramatunga and other incidents. A copy of our letter is 
attached.
    I have focused on the role of the Government in this statement, but 
not because the abuses by the LTTE are less. The LTTE has shown a 
remarkable brutality and willingness to murder anyone, Tamil or 
Sinhalese, who dares to disagree with it. If the LTTE had seriously 
pursued the peace process from 2001 onward, the situation might be 
vastly different, and better, today. But the Government should be held 
to a higher standard. It claims membership in the international 
community, and therefore must meet international norms.
    The Government now faces a choice. It can fail to treat its Tamil 
citizens properly, fail to engage seriously in political reform, and 
continue to allow human rights to be violated and dissent to be 
threatened. If so, unrest will continue, violence will certainly recur, 
and the promising future which has always seemed just out of reach will 
recede even further. Or it can act immediately to show its Tamil 
citizens that they are valued as highly as every other Sri Lankan. It 
can make the dramatic changes that will give better governance to all 
Sri Lankans, and set a standard for responsibility and accountability 
which will diminish human rights violations and strengthen democracy. 
The decisions made now will affect the island, for better or worse, for 
decades to come.
    What can the United States and others do? The U.S. military 
relationship with Sri Lanka is almost nil, with military assistance 
terminated. U.S. development assistance is relatively small. However, 
Sri Lanka will require massive assistance to rebuild war-devastated 
areas and to meet Sri Lanka's other development needs. The United 
States could join with other donors, both bilateral--Japan, the EU, and 
others--and multilateral, including the World Bank and the Asian 
Development Bank. A powerful and united donors group could insist that 
development assistance will flow only if strict conditions are met. 
These could include genuine devolution of power, quick resettlement of 
displaced persons, and a clear improvement in the human rights 
situation. The United States should also seek close coordination with 
India, Sri Lanka's close and large neighbor. With its own large Tamil 
population, India has a significant stake in the outcome in Sri Lanka.
    With long experience in these matters, I will not pretend that 
meaningful donor coordination and aid conditionality are easy to 
accomplish. They are easy to propose but fiendishly difficult to do. If 
the United States and other donors made World Bank and ADB loans 
conditional on these changes, and if Japan, Sri Lanka's largest 
bilateral donor, conditioned its own assistance, Sri Lanka's friends 
could have a major impact. Without such changes, the prospect is for an 
inevitable recurrence of the ethnic conflict.
                                 ______
                                 
                                                  January 19, 2009.
His Excellency Mahinda Rajapakse,
President,
Democratic Socialist Republic of Sri Lanka.
    Dear Mister President: We are all former United States Ambassadors 
to Sri Lanka, but we are writing in our personal capacities. Our 
service in Sri Lanka stretches for over 15 years, and we have seen good 
times and hard times in the country. We all have great respect and 
affection for Sri Lanka and its people. We have known you at different 
points in your career, and we all acknowledge your love for your 
country and your desire to see it at peace. We have all, at different 
times and in different ways, made it clear that we believed the goals 
and tactics of the Liberation Tigers of Tamil Eelam were unacceptable, 
and that the Government of Sri Lanka was engaged in a difficult but 
necessary fight against terrorism. We have all supported and argued for 
United States assistance to Sri Lanka in that struggle.
    It is for all of these reasons that we are now so upset by 
developments in Sri Lanka, the most recent of which was the murder of 
Sunday Leader editor Lasantha Wickramatunga. We fear that, even as Sri 
Lanka is enjoying military progress against the LTTE, the foundations 
of democracy in the country are under assault. The killing of Mr. 
Wickramatunga has prompted this letter, but there have been many 
previous incidents in which the rights of individuals and the media 
have been violated.
    Mr. President, we speak frankly because in our dealings with you we 
have always found you to have an open mind and to respect the truth. 
Some have suggested that these events have been carried out not by 
elements of the Government, but by other forces hoping to embarrass the 
Government. We do not find such arguments credible. We are familiar 
with your history as a defender of those whose rights were threatened 
by the Government. We assume, therefore, that if Government forces are 
carrying out these acts, they are acting without your permission and 
knowledge. We believe it is imperative that these actions stop, and 
that those who have carried them out be prosecuted.
    Fighting an unconventional war against a terrorist enemy is a 
difficult task, and the sad truth is that it almost always results in 
some brutal and illegal acts. This is as true of our country as it is 
of Sri Lanka. The important thing is that the country's leadership not 
condone these acts, and that an atmosphere is set from the top that 
they will not be accepted, and that those who commit them will be held 
to account.
    We urge you to take steps to reestablish accountability and the 
rule of law in Sri Lanka. Investigations have been promised before but 
have been futile. At times Government officials have not appeared 
diligent, as happened in the investigation of the killing of NGO 
workers assisted by the International Eminent Persons Group. It is 
crucial that an investigation now not follow that same fruitless path. 
It must also be made clear to members of the security forces that 
discipline will be enforced and violators will be brought to justice. 
Only you can provide the leadership and clear direction that will make 
this happen. We have seen before the positive results that such 
leadership can have, for example, when the decision to issue receipts 
for all detained persons dramatically reduced the number of 
disappearances.
    Sri Lanka has gone through difficult times, but its democratic 
system has always persevered. Neither the LTTE nor assaults by other 
radical forces have been able to destroy it. It would be a tragedy if 
it were destroyed now, not from without, but from within.
    We intend to make this letter public after you have received it.
    With our personal best wishes, we remain,
            Yours sincerely,
                                   Marion Creekmore,
                                   United States Ambassador
                                             to Sri Lanka, 1989-92.
                                   Teresita Schaffer,
                                   United States Ambassador
                                             to Sri Lanka, 1992-95.
                                   A. Peter Burleigh,
                                   United States Ambassador
                                             to Sri Lanka, 1995-97.
                                   Shaun Donnelly,
                                   United States Ambassador
                                           to Sri Lanka, 1997-2000.
                                   Ashley Wills,
                                   United States Ambassador
                                             to Sri Lanka, 2000-03.
                                   Jeffrey Lunstead,
                                   United States Ambassador
                                             to Sri Lanka, 2003-06.

    Senator Casey. Thank you, Mr. Ambassador.
    Ms. Neistat.

STATEMENT OF DR. ANNA NEISTAT, SENIOR RESEARCHER, HUMAN RIGHTS 
                     WATCH, WASHINGTON, DC

    Dr. Neistat. Thank you, Mr. Chairman, for inviting me to 
testify today on behalf of Human Rights Watch.
    Just over a week ago, I returned from Sri Lanka. I would 
like to begin this testimony by sharing with you an account of 
one of the witnesses that we interviewed there.
    ``One mortar shell came in close. I heard the whirling 
sound. It was dark, so we didn't know where it landed. When I 
stuck my head out of the bunker, I saw the mangled body of a 
young woman by the entrance. I had never seen that before. I 
couldn't believe that it was a person.
    ``Nothing had been touched when we got out of the bunker in 
the morning. There were lots of people in bits and pieces lying 
around. My gut reaction was that I don't want to see this, but 
I felt that I had to.
    ``One woman was lying on her back with two infants, one of 
whom survived, as I later heard. One baby was hanging from a 
nearby tree. Another baby, decapitated, was hanging on the 
barbed wire surrounding the playground. Next to the woman lay 
her husband, face down.
    ``Next to the family lay other people. One was severed in 
half. I think the other one was as well, but I couldn't look 
anymore.''
    It seems that the two warring parties in Sri Lanka now are 
involved in a perverse competition to demonstrate the greatest 
disregard for civilian population. And as a result, civilians 
are dying by hundreds. The latest figures we have suggest that 
the number of civilian casualties in the northern Vanni region 
has now reached 7,000 people, including up to 2,000 deaths.
    And as outrageous as those numbers are, they might be just 
the beginning. As according to U.N. estimates, there are over 
200,000 people now trapped in the northern Vanni region between 
the two warring parties.
    Having worked in many conflict areas around the world, I 
have rarely seen a humanitarian disaster of such scale where 
both sides seem to demonstrate such blatant disregard to the 
safety and well-being of civilians and which, at the same time, 
receive so little international attention.
    Two key issues I would like to bring to your attention 
today are the abuses against civilians trapped in the Vanni in 
the conflict areas and the dire situation of the displaced 
persons who manage to cross to the government-controlled areas.
    For more details on our findings, I encourage you to look 
at our report that we just released and submitted for your 
review along with this testimony. Our research established that 
during the ongoing fighting in the Vanni, both the Sri Lankan 
Armed Forces and the LTTE committed serious violations of 
international humanitarian law and are responsible for hundreds 
of civilian casualties.
    The LTTE has deliberately prevented civilians under its 
control from fleeing into the government-controlled areas. We 
documented several incidents where LTTE forces fired at fleeing 
civilians, killing and injuring dozens. We also documented 
cases where LTTE effectively used civilians as human shields to 
protect their positions from attack. This is a war crime.
    The LTTE has also continued its practice of forcible 
recruitment of civilians for untrained combat and labor at the 
front lines. That was extremely dangerous for civilians. One of 
the witnesses we interviewed said that just recently 25 of her 
neighbors died after they were recruited by LTTE to perform 
such duties at the front line, such as digging bunkers or 
collecting weapons from killed combatants.
    The government, in turn, has been exploiting LTTE's grim 
practices to justify its own atrocities. Sri Lankan forces have 
repeatedly and indiscriminately shelled areas crowded with 
displaced persons, causing numerous civilian casualties.
    Many of civilian deaths, including the ones described in 
the testimony--the witness account that I shared with you at 
the very beginning--occurred in the so-called ``safe zone'' 
declared by the government. It was a 14-square-mile area in 
Mullaitivu district. We received several detailed accounts from 
people who stayed within the safe zone, and these accounts 
suggest that the shelling by Sri Lankan forces killed dozens, 
if not hundreds, of people inside there.
    There were apparently some LTTE positions, either within or 
right outside of the safety zone, that could be legitimately 
targeted by the armed forces. However, it does not relieve the 
Sri Lankan forces from responsibility to take all physical 
precautions to protect civilians, especially in the area where 
the government itself encouraged people to move.
    Some of the attacks were particularly deadly because the 
government used multibarrel rocket launchers, weapons that are 
indiscriminate when used in populated areas because they cannot 
be targeted with sufficient precision. Particularly outrageous 
were numerous attacks on the hospitals. Our report documents 
about two dozen of such attacks; hospitals attacked by 
artillery shelling and aerial bombardments.
    The plight of civilians in Vanni was exacerbated by the 
lack of humanitarian access to the region. At this point, there 
are very few supplies of food and medical necessities in the 
region, and that is largely because the government barred any 
international humanitarian agencies--most international 
humanitarian agencies from delivering assistance to the region. 
And food convoys had to stop because both parties tried to use 
them to advance their military positions.
    Meanwhile, the situation of more than 30,000 civilians who 
managed to cross to the government-controlled areas is also 
dire. One of the concerns is the screening procedures. At this 
point, no international agency has access to the screening 
points, and there are growing reports of people who have gone 
missing after being detained at these checkpoints. This is 
particularly worrisome, given Sri Lanka's sad record on 
enforced disappearances and summary executions.
    Upon arrival in the provincial capital, Vavuniya, all 
displaced persons without exception are being confined to de 
facto internment camps that the government calls ``welfare 
centers.'' I have to say that one look at these camps makes it 
very clear that the welfare of the inhabitants is the last of 
the authorities' concerns.
They are surrounded by barbed wire and machine gun nests and 
sandbags, and the civilians inside do not enjoy any freedom of 
movement.
    They are not allowed out, and their relatives do not have 
access to them. There are heart-breaking scenes happening 
outside of the camps as relatives are trying to approach their 
family members inside the camps.
    The hospital in Vavuniya, where hundreds of civilians have 
been brought from the fighting area, mirrors the town's 
internment camps. When I visited the hospital on February 11, 
it was still overcrowded with patients. Patients were lying on 
the floors in the hospital corridors, and the hospital clearly 
lacked even the most basic supplies, such as bed sheets, 
blankets, and change of clothing for the patients.
    The hospital was run by the military. There were uniformed 
men, uniformed servicemen in all of the hospital wards, 
corridors, and the hospital yard. Their main job was to make 
sure that nobody has access to the patients from outside and 
that the patients have nobody to tell their story to.
    Despite the obvious lack of capacity of the hospital, the 
hospital personnel was specifically instructed by the 
authorities not to approach any international agencies for 
help. As a result of this lack of capacity, many of the 
patients are being discharged to the camps long before their 
wounds have healed. And we documented at least two cases where 
this practice led to the deaths of the patients.
    I visited all of the hospital wards, and most of the 
patients there were in a state of despair, often crying 
incessantly, and they were saying that they were simply 
unfortunate to have survived.
    As one of the patients told me, ``They promised they would 
allow us to go back after we get treatment. Now our families 
are back there in Vanni, and we have no information about them. 
And we are not much better off. People are dying in the 
hospital as well. There are no relatives to help us, and there 
won't be anybody once we go to camps.
    ``Why did they bring us here? We could have just as well 
died there because there is nobody here to take care of us, to 
feed us, and we are likely to die anyway just through more 
suffering.''
    I would like to conclude by saying that collecting 
information about the conflict in Sri Lanka was extremely 
difficult because Sri Lankan Government has conducted a cynical 
campaign to prevent all independent public coverage of the 
conflict, barring human rights organizations and journalists 
from the conflict areas in a clear effort to cover its abuses.
    Human Rights Watch tried its best to uncover the truth so 
that neither the Sri Lankan Government nor the LTTE nor the 
International Community could say that they have not known what 
happened there. Now we urge concerned governments, including 
the Government of the United States, to do all it can to end 
the suffering of the civilian population in Sri Lanka.
    First, both sides should be pressed to immediately 
establish humanitarian corridors to allow the civilian 
population to escape the battle zone and to stop committing 
violations of international humanitarian law.
    Second, the government should be told to end its ban on 
humanitarian workers, journalists, and human rights activists 
in the Vanni.
    And last, the Security Council should hold a special 
session to address the humanitarian catastrophe now taking 
place and send a message to the government that development 
assistance will not be provided to create permanent internment 
camps for Sri Lankans, long suffering, displaced.
    Thank you.
    [The prepared statement of Dr. Neistat follows:]

Prepared Statement of Dr. Anna Neistat, Senior Researcher, Emergencies 
              Division, Human Rights Watch, Washington, DC

    Mr. Chairman, members of the committee, thank you for inviting 
Human Rights Watch to testify at this hearing. I will address the most 
recent developments on the ground in Sri Lanka and, in particular, the 
desperate plight of civilians caught between the two warring parties--
the Government of Sri Lanka and the separatist Liberation Tigers of 
Tamil Eelam (LTTE).
    Just over a week ago I returned from Sri Lanka. I have to mention, 
first of all, that collecting information about the conflict and the 
situation of the internally displaced persons is extremely difficult. 
The Sri Lankan Government is conducting a cynical campaign to prevent 
all independent public coverage of its military operations and the 
plight of civilians caught up in the war. While decrying LTTE abuses, 
it has kept out the media and human rights organizations that could 
report on them--and on government abuses. It has kept displaced persons 
locked up in camps and hospitals. It has traded the well-being of tens 
of thousands of Sri Lankan citizens for evading international scrutiny. 
It has been trying its best to bury the abuses.
    While in the country, however, we managed to collect credible 
information about egregious violations by the parties to the conflict, 
both of which appear to be engaged in a perverse competition to 
demonstrate the greatest disregard for the civilian population. Our 
findings are summarized in a 45-page report, ``War on the Displaced: 
Sri Lankan Army and LTTE Abuses Against Civilians in the Vanni,'' that 
we have just released and submitted for your review along with this 
testimony.
    As you know, after 25 years, the armed conflict between the Sri 
Lankan Government and the LTTE may be nearing its conclusion. This 
conflict has over the years claimed some 70 thousand civilian lives, 
and has left hundreds of thousands displaced for years and even 
decades.
    Since the fall of the LTTE's administrative center, Kilinochchi, in 
early January 2009, civilian casualties in the northern Vanni region 
have skyrocketed. The latest figures received by Human Rights Watch 
from independent monitors on the ground suggest that the total number 
of civilian casualties has now reached 7,000, including up to 2,000 
deaths. Added to this are the dire hardships faced by the displaced--
insufficient food, medical care, and shelter, whether in the combat 
zone or government-run internment camps.
    Having worked in many conflict areas across the world, I have 
rarely seen a humanitarian disaster of such scale, where both sides 
demonstrate such shameless disregard to the safety and well-being of 
civilians, and which, at the same time, receives so little 
international attention. Civilians caught in Sri Lanka's conflict 
continue to die as we speak, and immediate action is necessary to stop 
this egregious loss of civilian life.
      violations of the laws of war by both sides of the conflict
    During the ongoing fighting in the Vanni, both the Sri Lankan Armed 
Forces and the LTTE have committed serious violations of international 
humanitarian law with respect to the conduct of hostilities. The high 
civilian casualties of the past months can be directly attributable to 
these violations.
    The LTTE has been responsible for deploying their forces within 
densely populated areas and deliberately firing on civilians to prevent 
them from fleeing to safety. There is also evidence that the LTTE has 
used civilians as ``human shields.''
    The Sri Lankan forces have committed numerous indiscriminate and 
perhaps disproportionate attacks consisting of artillery bombardment 
and aerial bombing. These include attacks on the government-proclaimed 
``safe zones'' and on clearly marked hospitals. Statements by senior 
officials indicating that civilians who do not leave LTTE-controlled 
areas are subject to attack are indicative of an intent to commit war 
crimes.
Violations by the LTTE
    The LTTE has deliberately prevented civilians under its effective 
control from fleeing to areas away from the fighting, unnecessarily and 
unlawfully placing their lives at grave risk. As the LTTE has retreated 
in the face of SLA offensive operations, it has forced civilians to 
retreat with it, not only prolonging the danger they face, but moving 
them further and further away from desperately needed humanitarian 
assistance. And as the area that the LTTE controls shrinks, the trapped 
civilian population has become concentrated, increasing the risk of 
high casualties in the event of attack and placing greater strains on 
their living conditions.
    Human Rights Watch documented a number of incidents when the LTTE 
forces fired at civilians who tried to cross to the government-
controlled areas, killing and injuring dozens. In an illustrative case, 
a 35-year-old father of three described how LTTE cadres had shot at 
civilians attempting to flee:

          When we came to Suthanthirapuram, it was full of dead bodies. 
        Bodies were lying along the road. Nobody cared about them. They 
        smelled. We didn't have food for 2 days. We slept in the field.
          Some 150 people started out together, but when we tried to 
        leave, at Suthanthirapuruam, the LTTE tried to stop us. There 
        was only a narrow path to leave by. The LTTE caught us. There 
        was fighting, arguments. They were shooting at us. Many people 
        were injured and killed. It was shocking to see. Only 65 were 
        in my group when we came out. We were separated from the rest 
        along the way.
          One father was carrying his child on his back. As they were 
        running from the LTTE, he was holding him by the arms so hard--
        in order not to lose him--that he broke both of the child's 
        arms.

    The LTTE practice of forcing civilians to retreat with its forces, 
rather than allowing them to flee to safer areas, has meant that LTTE 
forces have been increasingly deployed near civilians in violation of 
the laws of war. Several cases were reported to Human Rights Watch in 
which LTTE forces appeared to be making deliberate use of civilians to 
protect their positions from attack--which is considered to be ``human 
shielding,'' and constitutes a war crime.
    The LTTE has continued to place civilians at serious risk by 
forcibly recruiting civilians for untrained military duty and for labor 
in combat zones. The LTTE also has a long history of using children 
under 18 in their forces, including in armed combat, and the U.N. has 
reported that it continues to do so. Since September 2008, the LTTE has 
increasingly forced people with no prior military experience to fight 
or perform supportive function on the front lines, which has led to 
many casualties. One Vanni resident described this practice to Human 
Rights Watch: ``The workers were taken to the front line to dig 
bunkers, collect weapons from killed cadres and SLA soldiers, and so 
on. It was very dangerous for civilians--about 25 of my neighbors were 
killed while doing this work. They did not receive any training--the 
LTTE cadres fetched them from their homes and the next day brought 
their dead bodies back. Every day, many people were crying in my 
neighborhood because they lost young children; some even beat up LTTE 
cadres when they brought the bodies back.''
Violations by the Sri Lankan Armed Forces
    The LTTE's grim practices are being exploited by the government to 
justify its own atrocities. High-level officials assert that the ethnic 
Tamil population trapped in the war zone can be presumed to be siding 
with the LTTE and treated as combatants, effectively sanctioning 
violations. Sri Lankan forces have repeatedly and indiscriminately 
shelled areas packed with displaced persons, causing numerous civilian 
casualties. This includes numerous reported bombardments of a 
government declared ``safe zone'' and of the remaining hospitals in the 
region.
    Concerns of indiscriminate attacks by SLA forces are heightened by 
reports that they are using multibarrel rocket launchers. Rockets fired 
from multibarrel launchers cannot be targeted with sufficient precision 
to be accurate against military targets, and their broad area effect 
makes their use incompatible with the laws of war in areas where 
civilians or civilian objects (such as schools or hospitals) are 
located. The use of such weapons in populated areas is indiscriminate 
in violation of international humanitarian law.
    Many of the civilian deaths reported in the past month have 
occurred in an area that the Sri Lankan Government has declared to be a 
``safe zone.'' On January 21, the Sri Lankan Armed Forces unilaterally 
declared a 35-square-kilometer ``safe zone'' for civilians north of the 
A35 road between the Udayarkattu junction and the Manjal Palam (Yellow 
Bridge) in Mullaitivu district. The Sri Lankan Air Force dropped 
leaflets appealing to civilians to move into the safe zone as soon as 
possible.
    During the next days, several thousand people gathered in a large 
playground located just north of the A35 in the safe zone. The 
playground also functioned as a food distribution center for the local 
government agent (GA) and international organizations. Several people 
located in or around the GA food distribution center told Human Rights 
Watch that, despite the army declaration of a safe zone in the area, 
the area was subjected to heavy shelling from SLA positions in the 
period January 22-29, which killed and injured hundreds of people.
    One shell that struck inside the playground early in the morning on 
January 24 killed 7 civilians and injured 15. An eyewitness told Human 
Rights Watch:

          One mortar shell came in, close. I heard the whirling sound. 
        It was
        dark so we didn't know where it landed. When I stuck my head 
        out of the bunker, I saw the mangled body of a young woman by 
        the entrance. I had never seen that before. I couldn't believe 
        that it was a person.
          There was a huge amount of screaming immediately after the 
        impact. More mortar shells started coming in.
          Nothing had been touched when we got out of the bunker in the 
        morning. There were lots of people in bits and pieces lying 
        around. My gut reaction was that I don't want to see this, but 
        I felt that I had to.
          One woman was lying on her back with two infants, one of whom 
        survived, as I later heard. One baby was hanging from a nearby 
        tree. Another baby, decapitated, was hanging on the barbed wire 
        surrounding the playground. Next to the woman lay her husband, 
        face down.
          Next to the family lay other people. One was severed in half. 
        I think the other one was as well, but I couldn't look anymore. 
        One woman sustained shrapnel injuries to her head. Her brain 
        was lying on the ground. The LTTE and police that came to take 
        away the body did not remove the brain from the ground. It was 
        still lying there when they left.

    Several sources told Human Rights Watch that LTTE forces maintained 
positions in the safe zone (although about two to four kilometers north 
of the playground), from which they fired on SLA positions. And as LTTE 
forces retreated, they moved heavy artillery eastward through the 
northern part of the safe zone. This by itself cannot be considered a 
violation of international humanitarian law, as the safe zones were 
declared unilaterally by the Sri Lankan Government and not in agreement 
with the LTTE. The SLA was also not prohibited from attacking LTTE 
forces inside a safe zone.
    At the same time, having declared the area a safe zone for 
civilians, the SLA encouraged civilians to go to the area, increasing 
the vulnerability of civilians in the event of an attack. By creating 
the zone, government forces took on a greater obligation to ensure that 
they spared civilians from the effects of attacks. Given this civilian 
presence, attacks on valid military targets in the safe zone should 
only have been carried out after issuing an effective advance warning 
that the area was no longer a zone protected from attack.
    Human Rights Watch also documented several SLA attacks outside of 
the safe zone which seemed to have been indiscriminate and led to 
civilian casualties. For example, one of the witnesses from Vallipunam, 
a town just outside the government-declared safe zone, recounted to 
Human Rights Watch the SLA shelling of the town on January 19: ``There 
were about 40-50 people traveling along the road when the shelling 
started. The shelling lasted for about 15 minutes. About 10 shells 
landed in the immediate area, but we could hear shells landing further 
away as well. I was staying in the bunker during this time and for 
another 30 minutes. When I came out of the bunker, people were crying 
and shouting. A vehicle had already taken the injured to Vallipunam 
school [an IDP center]. One shell had landed in the middle of the road, 
however, killing three people who were still lying there when I came 
out. The shells were coming from SLA positions, from the southwest. We 
could hear them when they came in.''
    According to the witness, there were no known LTTE positions in the 
vicinity at the time of the attack.
    The witness also told Human Rights Watch that seven of his wife's 
relatives, including two children--8 and 6 years old--were killed on 
February 5 by shelling in Mathalan, an area controlled by the LTTE that 
he believes had come under SLA attack. He was concerned that three 
other bodies had been found, mangled beyond recognition, and could be 
those of relatives he had not heard from.
    During the fighting in 2009, the few hospitals that exist in LTTE-
controlled areas have repeatedly come under artillery attack. This has 
added immeasurably to the suffering of individuals who have sought help 
in medical facilities, already horribly overcrowded and dangerously 
short of medical personnel, equipment, and supplies before the attacks.
    We gathered information from aid agencies and eyewitnesses on more 
than two dozen incidents of artillery shelling or aerial bombardments 
on or near hospitals. Hospitals are specially protected under 
international humanitarian law. Like other civilian objects, they may 
not be targeted. But under the Geneva Conventions, hospitals remain 
protected unless they are ``used to commit hostile acts'' that is 
outside their humanitarian function. Even then, they are only subject 
to attack after a warning has been given setting a reasonable time 
limit, and after such warning has gone unheeded. Deliberately attacking 
a hospital is a war crime.
Attacks on hospitals in the Vanni (December 15, 2008-February 15, 2009)
    Information compiled by Human Rights Watch from interviews with aid 
agencies and eyewitnesses.

------------------------------------------------------------------------
              Date                     Hospital           Description
------------------------------------------------------------------------
15/12/08........................  Mullaitivu General  Shelling: 2
                                   Hospital.           patients injured,
                                                       damage to ward
                                                       and medical
                                                       equipment.
17/12/08........................  Vaddakachchi        10 a.m. Aerial
                                   Hospital.           bombing hit
                                                       refugee
                                                       settlement 250-
                                                       300 m from the
                                                       hospital.
19/12/08........................  Mullaitivu General  11:30 a.m. Five
                                   Hospital.           shells hit
                                                       hospital causing
                                                       damage to wards,
                                                       operating
                                                       theater, and the
                                                       Medical
                                                       Superintendent's
                                                       HQ: 2 staff
                                                       wounded.
20/12/08........................  Mullaitivu General  Shells hit inside
                                   Hospital.           hospital grounds.
22/12/08........................  Kilinochchi         6:20 a.m. Aerial
                                   General Hospital.   bombing hit near
                                                       hospital, causing
                                                       shrapnel damage.
                                                       No injuries
                                                       reported.
25/12/08........................  Kilinochchi         Shells hit
                                   General Hospital.   hospital grounds,
                                                       narrowly missing
                                                       staff. Damage to
                                                       newborn nursing
                                                       section,
                                                       outpatient
                                                       department, and
                                                       reception.
30/12/08........................  Kilinochchi         4 p.m. Shells hit
                                   General Hospital.   hospital causing
                                                       damage to the
                                                       building. No
                                                       injuries
                                                       reported.
08/01/09........................  Tharmapuram         1:20 p.m. Shells
                                   Hospital.           hit Tharmapuran
                                                       Junction 75 m
                                                       from the
                                                       hospital, killing
                                                       7.
10/01/09........................  PTK Hospital......  11 p.m. Shells hit
                                                       IDP settlement
                                                       located behind
                                                       PTK hospital.
13/01/09........................  PTK Hospital......  10 a.m. Hospital
                                                       hit by shells: 1
                                                       killed, 6
                                                       wounded. Patients
                                                       fled to the wards
                                                       to seek shelter
                                                       from the
                                                       shelling.
19/01/09........................  Vallipunam          Shell landed in
                                   Hospital.           hospital yard: 6
                                                       people in
                                                       outpatient ward
                                                       injured.
21/01/09........................  Vallipunam          7 p.m. One shell
                                   Hospital.           hit hospital.
22/01/09........................  Vallipunam          Morning. Shells
                                   Hospital.           hit hospital
                                                       compound: killing
                                                       5 and injuring
                                                       22.
26/01/09........................  UDK Hospital......  Shells hit
                                                       hospital: 12
                                                       killed, 40
                                                       injured.
31/01/09........................  PTK Hospital......  Shrapnel from
                                                       shells hit
                                                       hospital.
01/02/09........................  PTK Hospital......  Three attacks.
                                                       First attack: 1
                                                       person injured by
                                                       shrapnel inside
                                                       the hospital.
                                                       Second attack:
                                                       one shell hit the
                                                       hospital: 1
                                                       killed, 4
                                                       injured. Third
                                                       attack: 1 shell
                                                       hit the women and
                                                       children ward (no
                                                       information on
                                                       casualties).
02/02/09........................  PTK Hospital......  One shell hit
                                                       hospital: 1 nurse
                                                       killed, 10
                                                       patients injured.
03/02/09........................  PTK Hospital......  Rocket hit
                                                       surgical theatre:
                                                       no information on
                                                       casualties.
05/02/09........................  Ponnampalam         Shelling: 60
                                   Memorial Hospital.  casualties inside
                                                       and outside the
                                                       hospital.
10/02/09........................  Putumattalan (make- Shelling: 16
                                   shift hospital      people killed.
                                   for PTK).
------------------------------------------------------------------------

    The government has sought to justify attacks that have resulted in 
high civilian casualties on the grounds that the civilians failed to 
heed warnings to flee the areas, and that the LTTE's use of civilians 
as shields rendered the LTTE fully responsible for any civilian loss.
                          humanitarian access
    The plight of civilians in Vanni has been exacerbated by the 
government's decision in September 2008 to order most humanitarian 
agencies out of the region. The government's own efforts to bring in 
assistance with a minimal U.N. role have been insufficient. Fighting, 
lack of oversight, and the manipulation of the delivery of aid by 
government forces and the LITE have all contributed to the continuing 
humanitarian crisis.
    Scarce information that comes out of Vanni through phone calls or 
text messages suggests that the situation gets worse by day, with 
civilians lacking water, food, medical supplies, and other necessities.
    On February 10, an international agency received information from 
its staff, which had relocated to a place along the coast, that the 
only supplies that they had left were rice, flour, and oil. They had 
run out of water and the nearest water was 1.5 kilometers away. Walking 
there was extremely risky as the area was frequently shelled--an 
artillery shell had recently landed just 100 meters from the agency's 
bunker.
    The delivery of humanitarian assistance had been further 
complicated because both sides used humanitarian convoys to advance 
their military positions, in clear violation of international law.
    One individual who joined convoys delivering food supplies on 
December 23 and 29 said that Sri Lankan Government troops used the 
convoys moving northward to advance closer to LTTE positions. He told 
Human Rights Watch that on December 29: ``We got to the last SLA 
checkpoint near Oddusuddan from where the ICRC was supposed to 
accompany us through no-man's land to the LTTE checkpoint 13 kilometers 
south of PTK. As soon as we passed the SLA checkpoint, military 
vehicles joined the convoy and followed the convoy on both sides. LTTE 
saw it and started firing. The army returned fire and the convoy had to 
stop for 1 hour. At this time nobody was injured, but when the same 
thing happened to the GA [government] convoy the next day, their driver 
was injured in crossfire.''
                   plight of the internally displaced
    The situation of civilians who manage to escape from areas of 
active hostilities into government-controlled territory is dire. 
Instead of providing the internally displaced with the assistance and 
protection they are entitled to under international law, the Sri Lankan 
Government continues to violate their fundamental rights.
    The government has arbitrarily detained people during screening 
procedures; subjected all internally displaced persons, including 
entire families, to indefinite confinement in military-controlled 
camps; and failed to provide adequate medical and other assistance to 
displaced persons. The government has directly restricted the efforts 
of relief agencies seeking to meet emergency needs, and has deterred 
agencies from offering greater support through policies that the 
agencies rightly perceive as unlawful.
    The number of newly arrived displaced persons changes daily and is 
hard to verify, especially since the government does not share IDP 
registration lists with any international agencies. As of February 16, 
according to estimates by international agencies working in the area, 
there were about 30,700 internally displaced in 12 sites in Vavuniya.
Screening procedures and unknown fate of the detainees
    Sri Lankan security forces subject people fleeing from LTTE-
controlled areas to several stages of screening, ostensibly to separate 
those affiliated with the LTTE from displaced civilians. While the 
government has legitimate security reasons for screening displaced 
persons to identify and apprehend LTTE cadres, the screening procedures 
need to be transparent and comply with the requirements of 
international humanitarian and human rights law. So far, none of these 
requirements have been met and dozens of individuals, perhaps many 
more, have been detained during the screening process. The fate of such 
detainees remains unknown, raising fears of possible enforced 
disappearances and extrajudicial killings.
    According to several sources, at the Omanthai checkpoint--the main 
screening point for displaced persons on the main A9 roadway before 
their arrival in camps in Vavuniya--the SLA and the police Criminal 
Investigation Department (CID) has separated dozens of men and women 
aged 18 to 35, as well as some teenage children, from their families, 
allegedly for further questioning. Some have been released within days 
and transferred to the IDP camps in Vanunya, but the fate of numerous 
others remains unknown.
    An international relief worker told Human Rights Watch that on 
February 8, 2009, she was approached by about 50 families whose 
relatives had been detained at Omanthai checkpoint in previous days. 
Neither the families nor the international worker had any information 
as to the fate and whereabouts of the detainees. Another relief worker 
said: ``One woman in the camp told me that she was crossing the Omantai 
checkpoint with her husband and child on February 3. The husband was 
detained there, and for a week now she has no information about him. 
People like her call us all night long, trying to get information about 
their missing relatives.''
    At this point, no independent observers are allowed to monitor the 
screening process at the Omanthai checkpoint. Efforts of international 
agencies, including ICRC and UNICEF (some detainees are children), to 
obtain the lists of the detainees and any information about their fate 
and location from the Sri Lankan authorities so far have proved futile.
Confinement in internment camps
    Upon arrival in Vavuniya, all displaced persons, without exception, 
are subjected to indefinite confinement in de facto internment camps, 
which the government calls transit sites, ``welfare centers,'' or 
``welfare villages.'' Those requiring immediate medical attention are 
first taken to the hospital, and then to one of the camps (see below).
    Sri Lankan authorities have ignored calls from the international 
community to ensure the civilian nature of the camps. The perimeters of 
the sites are secured with coils of barbed wire, sandbags, and machine-
gun nests. There is a large military presence inside and around the 
camps.
    Several sources reported to Human Rights Watch the presence of 
plainclothes military intelligence and paramilitaries in the camps. A 
U.N. official in Vavuniya told Human Rights Watch that she and 
colleagues have seen members of paramilitary groups in different camps. 
In particular, local staff members recognized several members of the 
People's Liberation Organization of Tamil Eelam (PLOTE), a 
progovernment Tamil paramilitary organization long implicated in 
abuses, present at one of the camps. Military and CID officers 
regularly conduct nighttime interrogations inside the camps, summoning 
young men and women into their premises.
    Displaced persons confined in the camps enjoy no freedom of 
movement and are not allowed any contact with the outside world. While 
many of the displaced persons have families in Vavuniya, their 
relatives have not been allowed to visit them in the camps. Relatives 
come to the camp sites, trying to find their family members and 
communicate with them through the fence and barbed wire surrounding the 
sites, yet they are often chased away by soldiers. The displaced 
persons in Vavuniya camps are never allowed to leave the sites on their 
own.
    A local relief worker told Human Rights Watch that a woman she 
spoke with in one of the camps was not even allowed to attend the 
funeral of her mother who had succumbed to her wounds at Vavuniya 
Hospital. The relief worker said: ``I spoke to one woman in the camp--
she was crying and screaming. It turned out that her elderly mother, 
who had been injured and admitted to the hospital, died there on 
February 7. The elderly woman's body was given to the son, who lived in 
Vavuniya, but her daughter was not allowed to leave the camp even to 
attend her mother's funeral. She was in agony because she couldn't pay 
respects to her mother.''
    Several relief workers working with displaced persons told Human 
Rights Watch that many are devastated because they have been separated 
from their family members and have no information about their 
relatives--those who stayed in the Vanni, those detained at Omanthai, 
or even those who may be in Vavuniya but confined in a different camp.
    In apparent efforts to demonstrate that they can handle the influx 
of displaced persons without assistance from international agencies, 
and to prevent any communication between displaced persons and the 
outside the world, Sri Lankan authorities have significantly restricted 
the access of international relief agencies and local nongovernmental 
organizations to the camps. Nor have journalists or human rights groups 
been allowed access.
    While in early February, realizing that they would not be able to 
handle the situation on their own, Sri Lankan authorities allowed 
various U.N. agencies and international humanitarian agencies to set up 
necessary facilities and provide emergency assistance in the camps, the 
agencies do not enjoy unimpeded access to the displaced. The decision 
seems to be made on an ad hoc basis by military commanders in charge of 
the camps, and as a result, much-needed aid often does not reach the 
internally displaced. For example, on February 11, 2009, an 
international agency providing assistance and necessary equipment to 
the handicapped was not allowed to enter one of the camps. Given the 
large number of displaced persons disabled as a result of their 
injuries, the access of this agency to the camps is crucial.
    Those working in the camps who spoke with Human Rights Watch said 
that it was virtually impossible for them to talk to displaced persons 
and interview them about their experiences. The military, CID, and 
plainclothes paramilitaries were keeping a close watch on any outsiders 
in the camp, preventing them from talking to the displaced persons. The 
military made it clear to the international organizations that 
violating their rules would result in their losing access to the camps, 
while local relief workers simply feared for their lives should they 
get noticed, especially by the paramilitaries.
    International bodies, including the U.N. Secretary General's 
representative on internally displaced persons and the U.N. High 
Commissioner for Refugees have repeatedly called upon the Sri Lankan 
Government to honor its international legal obligations toward 
displaced persons. These pleas, however, seem to have fallen on deaf 
ears.
    Meanwhile, the Sri Lankan Government is proceeding apace with its 
plan to confine all of the internally displaced from Vanni into so-
called ``welfare villages''--while the army conducts the screening, 
clears areas in Vanni of remaining LTTE cadres, and demines the area. 
The ``welfare villages,'' according to the government's plan, are 
supposed to have schools, banks, playgrounds, shops, and other 
facilities, yet those living there will not enjoy the right to liberty 
or the freedom of movement. Rajiva Wijesinha, the Secretary of the 
Ministry of Disaster Management and Human Rights, told the media, ``Of 
course, it will not be voluntary--we need to check everyone.''
    Originally, the government proposed to keep the displaced persons 
in the ``welfare villages'' for up to 3 years, but following the 
protests from UNHCR, said it intends to resettle most of the displaced 
persons by the end of 2009. The Sri Lankan Government's past record 
with regard to the resettlement of persons displaced by armed conflict 
does not give cause for optimism that resettlement will happen quickly. 
On the contrary, it gives reason to be concerned that the government 
will end up interning those placed there indefinitely.
         inadequate medical assistance at the vavuniya hospital
    The situation of several hundred displaced persons receiving 
medical assistance at the Vavuniya Hospital is desperate.
    The majority of patients were brought to the hospital on January 
28, when ICRC managed to escort 226 wounded civilians requiring urgent 
medical assistance, including 51 children, out of the Vanni. Others 
were either brought to the hospital earlier, by transport organized by 
the Ministry of Health, or sent to the hospital after they managed to 
cross to the government side and went through the screening procedures 
along with other displaced persons.
    While the medical staff in the hospital has been trying to do 
everything possible to assist the wounded, the influx of patients has 
been far beyond the hospital's capacity.
    When Human Rights Watch visited the hospital on February 11, 2009--
after some of the patients had already been discharged to the camps or 
transferred to other hospitals--there were still not enough beds for 
all the patients, and many of the patients, especially in the male 
ward, were lying on the floor in the corridor. The maternity ward was 
also overcrowded with no adequate accommodation provided for newborn 
babies and their mothers, many of whom were also injured.
    Several sources told Human Rights Watch that due to the hospital's 
lack of capacity, patients were being discharged--and sent straight to 
the camps--long before their injuries were healed, which has already 
led to at least two deaths.
    Human Rights Watch interviewed two women in the hospital who just 
gave birth. Both of them were in despair as they were informed that 
they would be discharged and sent to the camp that day. One of the 
women had been injured by shelling in the Vanni and had one of her feet 
amputated. She gave birth through Cesarean section 4 days earlier and 
still could not even independently take care of herself, let alone her 
newborn baby. Another woman gave birth to twins a day earlier and was 
terrified by the prospect of moving into the camp with her two babies 
and no one to help her take care of them.
    It was obvious that the hospital lacked even the most basic 
necessities. Many of the hospital beds had no bed sheets or blankets, 
and a number of patients, including at least two children, told Human 
Rights Watch that they did not have a change of clothes.
    Despite the obvious lack of capacity to handle all of the wounded 
and attend to their needs, the hospital personnel, according to several 
independent sources, were instructed by the authorities not to ask for 
any assistance from the international agencies, and very few agencies 
were allowed access to the hospital.
    An international relief worker told Human Rights Watch that her 
agency tried to provide assistance to the hospital when the convoy with 
226 patients arrived in Vavuniya on January 28, but the hospital did 
not allow them to. She said: ``Authorities in the hospital kept telling 
us, `Go away, all needs are met.' Medical staff are under a lot of 
pressure--they were instructed by the government not to ask for 
anything from relief agencies, not to speak about any of the needs, and 
not to provide any information. They were supposed to demonstrate that 
the government could handle the influx of patients. Now, however, the 
situation is so desperate that despite the government orders, medical 
staff confidentially approach international agencies, asking for 
medical supplies and other assistance.''
    The situation of patients is aggravated by the fact that their 
relatives--even the ones who were allowed to accompany them from the 
Vanni--have not been allowed to stay with them and have been sent to 
the camps instead. That has been true even of small children and 
severely injured patients who require constant attention and 
assistance. No patients were allowed to stay with their families--
rather than in the camp--after their discharge, despite the hospital 
staffs' efforts to make such arrangements.
    Human Rights Watch visited all of the hospital wards and most of 
the patients were in a state of despair, often crying incessantly. One 
of the patients told Human Rights Watch: ``They promised they would 
allow us to go back after we get treatment. Now our families are back 
there, and we have no information about them. And we are not much 
better off. People are dying in the hospital as well; there are no 
relatives to help us, and there won't be anybody once we go to the 
camps. Why did they bring us here? We could have just as well died 
there [in Vanni], because there is nobody here to take care of us, to 
feed us, and we are likely to die anyway, just through more 
suffering.''
    The hospital is essentially run by the military and guarded even 
more closely than the camps. Uniformed servicemen patrol every ward of 
the hospital, the corridors, and the hospital yard. They register all 
visitors and watch closely, especially when international relief 
workers enter the wards. Attempts to communicate with the patients have 
already led to problems for both patients and the people who tried to 
talk to them.
    For example, a local NGO worker told Human Rights Watch that after 
one of his staff members talked to a young woman with a mental disorder 
in the hospital, the patient ``had gone missing'' the next day, and the 
staff member was approached by the CID and questioned about his 
conversations with the patient. Out of fear for his safety, he had to 
discontinue his visits to the hospital.
    The NGO worker added that he was aware of three cases in which 
relatives of the patients ``had gone missing'' after their visits to 
the hospital. He also said that, according to the information he 
received in the hospital, in early February several men arrived in a 
white van to the hospital and abducted the hospital canteen owner 
``because he used to go to the wards and talk to the patients.''
    The situation in the Vavuniya Hospital raises serious concerns 
regarding the safety and well-being of patients not just in this 
hospital, but in other hospitals where injured civilians have been 
evacuated. After some 600 patients were evacuated from the makeshift 
hospital at Putumattalan to Trincomalee by the ICRC on February 10 and 
12, initial reports from Trincomalee Hospital suggest that it too has 
become militarized and access to the patients is similarly restricted.
                            recommendations
    As a cochair of the Tokyo Donors' Conference and one of Sri Lanka's 
key international partners, the United States has the power and the 
responsibility to address the current crisis. The United States has in 
recent years been outspoken on violations of human rights and 
international humanitarian law by both the Sri Lankan Government and 
the LTTE. Given the dire needs of the civilian population in the Vanni, 
Human Rights Watch urges the Obama administration and Congress to bring 
new urgency to its concerns. Specifically, the U.S. Government should 
call upon the Sri Lankan authorities to:

  <bullet> Cease all attacks that violate the laws of war, including 
        artillery bombardment and aerial bombing that does not 
        discriminate between military targets and civilians; attacks on 
        hospitals, and attacks using weapons, such as multibarrel 
        rocket launchers and heavy artillery, that are indiscriminate 
        when used in or near densely populated civilians populations;
  <bullet> Facilitate, along with the LTTE, the immediate creation of 
        humanitarian corridors to allow civilians trapped by the 
        fighting to travel to areas away from the fighting;
  <bullet> Immediately lift the September 2008 order barring 
        humanitarian agencies from the Vanni conflict area in northern 
        Sri Lanka and allow humanitarian agencies to return to assist 
        at-risk individuals and reach all civilians in need; ensure 
        that nongovernmental organizations (NGOs) are able to perform 
        their work without arbitrary government interference;
  <bullet> Allow independent observers, including journalists, access 
        to conflict zones so that accurate and timely information about 
        the situation of civilians in such areas is publicly available;
  <bullet> Immediately end the arbitrary and indefinite detention of 
        civilians displaced by recent fighting at the internment camps 
        in northern Sri Lanka;
  <bullet> Permit international monitoring of the screening procedures 
        to prevent arbitrary arrests and ``disappearances'' of the 
        detained individuals;
  <bullet> Otherwise abide by the United Nations General Principles on 
        Internal Displacement, including by permitting the freedom of 
        movement of displaced persons, respecting the right of 
        displaced persons to return to their homes, and permitting 
        humanitarian agencies access to displaced persons.

    In addition, we call upon the U.S. Government to support a 
discussion of the humanitarian situation in Sri Lanka at the U.N. 
Security Council.

    Senator Casey. Thank you very much.
    And finally, Mr. Dietz.

STATEMENT OF ROBERT DIETZ, ASIA PROGRAM COORDINATOR, COMMITTEE 
              TO PROTECT JOURNALISTS, NEW YORK, NY

    Mr. Dietz. Thank you, Senators, for the opportunity to 
speak here today.
    The comments I will be making are based on CPJ's research 
over the last 12 years, plus a 10-day trip, which I took to 
Colombo from January 21 to February 1 this year. I have also 
submitted to the committee a report, which is now available on-
line on our Web site and more fully develops the points that I 
make today.
    I went to Colombo because Sri Lankan journalists are under 
intensive assault. The government has failed to carry out 
effective and credible investigations into the killings and 
attacks on journalists who question its conduct of war against 
Tamil separatists or who criticize the military establishment 
in any way.
    Three attacks in January targeting the mainstream media 
drew the world's attention to the problem, but top journalists 
have been killed, attacked, threatened, and harassed since the 
government began to pursue its all-out military victory against 
the LTTE. Many local and foreign journalists and members of the 
diplomatic community firmly believe that the government is 
complicit in these attacks.
    The aim of my trip in January was to investigate 
specifically three attacks. On January 6, the main control room 
of Sirasa TV, which is Sri Lanka's largest independent 
broadcaster--not a government broadcaster, but the most 
influential television station--was ruined when an explosive 
device, it was most likely a claymore mine, was detonated at 
2:35 in the morning during a raid by 15 to 20 men with black 
hoods over their heads.
    Two days later, on January 8, Lasantha Wickramatunga, as 
you mentioned--the editor-in-chief of the independent newspaper 
The Sunday Leader--was killed while he was driving to work. He 
was attacked by eight men who were riding four motorcycles. The 
attack came about 200 yards from a large Sri Lanka Air Force 
base. And after the attack, the hooded men rode off in the 
direction of the base, according to witnesses at the scene.
    Wickramatunga was killed in a particularly brutal way. 
According to his brother, who spoke with doctors who treated 
him, his right temple was pierced by what was most likely a 
metal bar with two separate prongs. There were no bullets used 
in the attack or a gun.
    And on January 23, another editor, Upali Tennakoon, who 
works for the Sinhalese newspaper Rivira, and his wife were 
attacked in a similar manner, but not identical to the attack 
on Wickramatunga. That couple survived, and they left Sri Lanka 
soon after the husband was released from the hospital.
    While many consider the government the prime suspect in the 
attacks, officials have vehemently denied any responsibility. 
The lack of credible investigation into these crimes we see as 
in keeping with a long history of impunity for those who attack 
journalists in Sri Lanka.
    The Rajapaksa government and its predecessors must at least 
be held responsible for the impunity that surrounds the attacks 
on the journalists. Most of those killings came while President 
Rajapaksa served as Prime Minister from April 2004 through the 
time he started his 6-year term as President in November 2005 
until now.
    According to CPJ's records, during President Rajapaksa's 
time in high office--as Prime Minister and as President--eight 
journalists have died what CPJ considers to be premeditated 
murder. No one of these has been investigated--no one of these 
cases has been investigated, and no one has been brought to 
trial.
    The number of dead journalists, I point out, does not 
include journalists who were killed in crossfire or accidents 
or other events, which journalists frequently lose their lives. 
These were acts of premeditated murder, people who were 
intentionally killed.
    The failure to investigate and the realistic suspicion that 
government actors are complicit in the violence to silence the 
press points to a pressing need for the International Community 
to act. Typical of the government's response to this sort of 
criticism was in a phone call with the attorney general, Mohan 
Peiris, which I had a few days ago. He dismissed the idea of 
impunity for those attacked journalists.
    ``I can tell you we have a policy of zero tolerance, zero 
tolerance,'' he said. ``There is no question of the government 
or the attorney general's office accommodating or making 
concessions for criminals or criminal activities.'' He did 
admit that some cases may have been delayed for lack of 
sufficient evidence. These cases have been delayed, in some 
cases, for up to 4 or 5 years now.
    The attorney general's response is typical of the hard-line 
of denial from the government. Other government officials have 
said the attacks are part of an anti-government campaign to 
discredit the government and do not come from the government 
itself.
    While I was in Colombo, I spoke with more than 20 
journalists, and I also met with officials from three 
diplomatic missions, all of whom spoke with me with the 
understanding that they would not be sourced or quoted. What 
was surprising to me was that many of the journalists with whom 
I spoke also did not want to be quoted and used the same 
restrictions, and they did so specifically for fear of 
retribution from the government.
    As a journalist, I am accustomed to following sourcing 
restrictions with diplomats, but to have journalists tell me 
they did not want to be named was an indicator of just how 
intimidated Sri Lanka's media has become.
    One aside here before I go to my conclusions. I have spoken 
at length about the attacks on Sri Lankan journalists, but I 
want to address this other issue, which the panelists also 
raised. No reporters have been allowed to travel independently 
to the front lines of the conflict with the LTTE.
    Charges of misconduct against both sides have gone 
uninvestigated by independent journalists. They have had to 
resort to depending on second-hand information and for the few 
aid groups that are able to still operate in and around the 
combat zone.
    CPJ calls on both sides, the Government of Sri Lanka and 
the LTTE, to allow journalists to assess the risks involved and 
to make a personal decision of whether or not they want to 
travel and report freely from the front lines about this war, 
which has taken so many lives.
    As I said at the beginning of my address, the full version 
of my report is available online. But let me close quickly with 
some of the recommendations at the conclusion of that report.
    First, to the International Community, we are calling on 
them to engage fully with the Sri Lankan Government, 
particularly the President's office, to address what has become 
a protracted assault on journalists and media houses.
    We are also calling on the International Community to 
insist that the government rein in its security forces, which 
are believed to be behind not only the spate of attacks in 
January of this year, but the assaults on journalists critical 
to the government that have been going on since late 2006.
    And we want the International Community to point out that 
Sri Lanka's international image has been tarnished and insist 
that the attacks must be fully investigated by police and the 
judiciary, unhindered by government pressure. No matter what 
viewpoint the government holds in its attempts to end the 
fighting with the LTTE, members of Sri Lanka's civil society 
who dare to criticize the government must not be treated as the 
enemy.
    Specifically to the Government of Sri Lanka, we call on 
them to provide adequate protection and security for any 
journalist who is threatened. We want to ensure that those 
journalists who have fled, and there are many of them, we want 
the government to ensure that those journalists who have fled 
in fear of their lives or liberty can return home to Sri Lanka 
in safety. And we want to ensure an independent, thorough, and 
timely investigation of all attacks on journalists.
    One more question. It is a small detail, but I feel it is 
appropriate to raise in this very open forum. We would like the 
government to release the full autopsy report on the death of 
Lasantha Wickramatunga. There is a great conflict about the 
cause of his death, and we are afraid that the government is 
intentionally sitting on the report and holding it back.
    And finally, Senators, one request to the U.S. Government. 
The American Embassy in Colombo is deeply concerned about these 
attacks on journalists and has often acted in their interests. 
They have been at the forefront of speaking out on those 
issues.
    CPJ calls on the State Department to work with the Embassy 
to consider ways to offer temporary refuge to Sri Lankan 
journalists who decide to flee their country, fearing for their 
safety. And we want you to encourage other countries to do the 
same.
    None of these men and women want to abandon their homeland, 
their families, and their careers. But they do deserve some 
sort of temporary support from the democracies around the 
world.
    Thank you for the opportunity.
    [The prepared statement of Mr. Dietz follows:]

Prepared Statement of Robert Dietz, Asia Program Coordinator, Committee 
                  to Protect Journalists, New York, NY

    I wish to thank the chairman, Senator Robert Casey, and other 
members for giving the Committee to Protect Journalists the opportunity 
to testify here today. The Committee to Protect Journalists is a 
nongovernmental organization based in New York. It was founded in 1981 
by U.S. journalists who were concerned about the safety of their 
colleagues overseas. Funded by individuals, private corporations, and 
foundations, the Committee to Protect Journalists accepts no government 
funds as it works to defend press freedom and journalists worldwide.
    My comments here today are based on CPJ's research, including my 
10-day reporting trip to Colombo, Sri Lanka, from January 21 to 
February 1, 2009. I have also submitted a longer version of my 
presentation to the committee. The report is available on CPJ's Web 
site, and I understand the committee will make it available online.
    I will make some strong accusations against the Sri Lankan 
Government today. Time constraints keep me from giving the supporting 
evidence, but the report will fully explain the charges I will make.
    I went to Colombo because Sri Lankan journalists are under 
intensive assault. The government has failed to carry out effective and 
credible investigations into the killings and attacks on journalists 
who question its conduct of a war against Tamils separatists, or 
criticize the military establishment. Three attacks in January 
targeting the mainstream media drew the world's attention to the 
problem, but top journalists have been killed, attacked, threatened, 
and harassed since the government began to pursue an all-out military 
victory over the Liberation Tigers of Tamil Eelam (LTTE) in late 2006. 
Many local and foreign journalists and members of the diplomatic 
community believe the government is complicit in the attacks.
    The aim of my trip was to investigate January's three attacks:

  <bullet> On January 6, the main control room of Sirasa TV, Sri 
        Lanka's largest independent broadcaster, was destroyed when an 
        explosive device, most likely a claymore mine, was detonated at 
        2:35 a.m. during a raid by 15 to 20 men.
  <bullet> On January 8, Lasantha Wickramatunga, the editor-in-chief of 
        the independent newspaper The Sunday Leader was killed while 
        driving to work. He was attacked by eight men riding four 
        motorcycles. The attack came about 200 yards from a large Sri 
        Lanka Air Force Base, and after the attack the hooded men rode 
        off in that direction. Although the report from the judicial 
        medical officer--Sri Lanka's equivalent of a coroner--was to be 
        released on February 6, it has not been made public. The next 
        hearing in Wickramatunga's case is on March 19.
  <bullet> On January 23, Upali Tennakoon, an editor at the Sinhalese 
        newspaper Rivira, and his wife, were attacked in a manner 
        similar to the attack on Wickrematunga. In this case there were 
        four men on motorcycles. The couple left Sri Lanka soon after 
        Tennakoon was released from hospital.

    In all three attacks there have been no credible investigations, 
minus the coroner's inquest into Wickramatunga's death. While many 
consider the government the prime suspect in the attacks, officials 
have vehemently denied any responsibility.
    The lack of reliable investigation into these crimes is in keeping 
with a long history of impunity for those who attack journalists in Sri 
Lanka. CPJ counts 10 journalists killed by premeditated murder since 
1999, with no prosecutions or convictions. The Rajapaksa government and 
its predecessors must at least be held responsible for the impunity 
that surrounds attacks on journalists.
    Most of the killings came while Rajapaksa served as Prime Minister 
from April 2004, through the time he started his 6-year term as 
President in November 2005, until now. According to CPJ's records, 
during his time in high office in Sri Lanka, eight journalists have 
died of what CPJ considers to be premeditated murder. No one has been 
brought to trial in any of these cases. The number of dead does not 
include journalists killed in crossfire or other events. The people we 
are talking about were intentionally killed.
    With a failure to investigate and a realistic suspicion that 
government actors are complicit in the violence against journalists, 
the time has come for the international community to act.
    In a phone call with CPJ, Attorney General Mohan Peiris dismissed 
the idea of impunity for those who attack journalists: On February 20 
he said, ``I can tell you we have a policy of zero tolerance; zero 
tolerance. There is no question of the government or the attorney 
general's office accommodating or making concessions for criminals or 
criminal activities.'' Some cases may have been delayed for lack of 
sufficient evidence, he said.
    The attorney general's response is typical of the hard-line of 
denial from the government. Other officials have said that the attacks 
are part of an antigovernment campaign to discredit the Rajapaksa 
administration.
    While I was in Colombo I spoke with more than 20 journalists. Many 
of them work in what is considered the ``nongovernment'' press, but 
several wrote for newspapers seen as ``progovernment.'' I also met with 
officials from three diplomatic missions, all of whom spoke with me on 
the understanding there would be no attribution of their remarks. 
Surprisingly, many of the journalists I spoke with also did not want to 
be quoted, for fear of retribution from the government. As a 
journalist, I'm accustomed to following sourcing restrictions with 
diplomats, but to have journalists tell me they did not want to be 
named was an indicator of just how intimidated Sri Lanka's media have 
become.
    I have spoken at length about the attacks on Sri Lankan 
journalists, but I must address one other issue: No foreign or Sri 
Lankan reporters have recently been allowed to travel independently to 
the frontlines of the conflict with the LTTE. Charges of misconduct 
against both sides have gone uninvestigated by independent journalists. 
They have had to depend on secondhand information from both sides of 
the conflict and from the few aid groups that are still able to operate 
in and around the combat zone. CPJ calls on both sides to allow all 
journalists to personally assess the risks involved and to travel and 
report freely from the frontlines of this war, which has taken so many 
lives.
    As I said at the beginning of my address, the full version of my 
report is available online, but let me close quickly with some of the 
recommendations at its conclusion:

To the international community:

  <bullet> Engage with the Sri Lankan Government, particularly the 
        President's office, to address what has become a protracted 
        assault on journalists and media houses.
  <bullet> Insist that the government rein in its security forces, 
        which are believed to be behind not only the spate of attacks 
        in January of this year, but the assaults on journalists 
        critical of the government that increased in late 2006.
  <bullet> Point out that Sri Lanka's international image has been 
        tarnished, and insist that attacks must be fully investigated 
        by police and the judiciary, unhindered by government pressure. 
        No matter what viewpoint the government holds in its attempts 
        to end the fighting with the LTTE, members of Sri Lanka's civil 
        society who dare to criticize the government must not be 
        treated as the enemy.

To the Government of Sri Lanka:

  <bullet> Provide adequate protection and security for any journalist 
        who is threatened.
  <bullet> Ensure that those journalists who have fled in fear of their 
        lives or liberty can return home to Sri Lanka in safety.
  <bullet> Ensure an independent, thorough, and timely investigation of 
        all attacks on journalists.
  <bullet> Release the full autopsy report on Lasantha Wickramatunga.

To the U.S. Government:

  <bullet> The American Embassy in Colombo is deeply concerned about 
        these attacks on journalists and has often acted in their 
        interest. CPJ calls on the State Department to work with the 
        Embassy to consider ways to offer temporary refuge to Sri 
        Lankan journalists who decide to flee their country fearing for 
        their safety, and to encourage other countries to do the same. 
        None of these men and women want to abandon their homeland, 
        their families, and their careers, but they deserve some sort 
        of temporary refuge and support.
                                 ______
                                 

     Failure to Investigate: Journalists Under Attack in Sri Lanka

                (By Bob Dietz/Asia Program Coordinator)

                           colombo, sri lanka
    Sri Lanka's journalists are under intensive assault. Authorities 
have failed to carry out effective and credible investigations into the 
killing of journalists who question the government's conduct of a war 
against Tamil separatists or criticize the military establishment. 
Three attacks in January targeting the mainstream media drew the 
world's attention to the problem, but top journalists have been killed, 
attacked, threatened, and harassed since the government began to pursue 
an all-out military victory over the Liberation Tigers of Tamil Eelam 
(LTTE) in late 2006. Many local and foreign journalists and members of 
the diplomatic community believe the government is complicit in the 
attacks.
    The lack of credible investigations into these crimes is in keeping 
with a long history of impunity for those who attack journalists in Sri 
Lanka. With a failure to investigate and a realistic suspicion that 
government actors are complicit in the violence against journalists, 
the time has come for the international community to act.
                             three attacks
    On January 6, on a quiet road on the outskirts of Colombo, the 
country's main independently owned TV station, Sirasa TV, was raided at 
2:05 a.m. by 15 to 20 masked armed men working with military precision. 
At 2:35:31 they detonated an explosion, possibly a claymore mine, a 
military-style antipersonnel mine set off by an electrical charge 
through wires leading to the device. The room's two synchronized clocks 
both stopped at the time of the explosion. The attackers fired the 
weapon after stringing the detonating wire about 200 yards (183 meters) 
from the control room through the station's corridors to the driveway 
outside the station's main front door, according to Sirasa staff.
    Staff shied away from describing the weapon specifically to CPJ 
after one of them had identified it as a claymore in an internationally 
broadcast interview with CNN on the morning of the attack. Defense 
Secretary Gotabhaya Rajapaksa denounced that staffer as a ``terrorist'' 
during a January 7 interview with the government-run Independent 
Television Network (ITN). Other knowledgeable sources with military 
experience who visited the station told CPJ that the damage was 
consistent with that of a claymore. The explosion wiped out the 
recently upgraded main control room that kept the broadcaster's three 
TV channels and four radio stations on the air. At 6 a.m. on the day of 
the full attack, Sirasa was broadcasting live shots of the wreckage to 
early morning viewers--staff had patched together some of the old 
analog broadcasting equipment.
    Claymores are regularly used by both sides in the country's civil 
war, the government and the LTTE, but the government has denied that 
the weapon was a claymore mine and strongly denied involvement in the 
attack; the reaction has been interpreted by critics as indicative of 
the government's connection.
    Defense Secretary Rajapaksa's denial came in the two and a half 
hour television interview with ITN on January 16. In a translation of 
the transcript supplied to CPJ by a human rights organization that 
asked CPJ not to be identified, he accused the owners of Sirasa of 
carrying out the attack as part of an insurance fraud scheme. He also 
said the government is investigating the incident.
    The second January attack came at around 10 a.m. on January 10, 
when the editor-in-chief of The Sunday Leader, Lasantha Wickramatunga, 
was killed in his car on his way to work on a busy street in a mixed 
suburban and semi-industrial suburb of Colombo. According to his 
brother Lal Wickramatunga, chairman of the paper's parent company, 
Leader Publications, the editor had been receiving anonymous death 
threats by phone for months. Lasantha Wickramatunga's wife, Sonali 
Samarasinghe-Wickramatunga, told the CBC that they had been followed 
earlier in the morning by two men on a motorcycle as they ran errands, 
and that threats had been on the rise in recent days. Phone calls and 
text messages came in threatening to kill him if he did not stop 
criticizing the government. Samarasinghe-Wickramatunga eventually left 
Sri Lanka after her husband's death. She has asked that her location 
not be revealed. The couple had married about two weeks before the 
attack.
    Wickramatunga was killed by a hit squad of eight helmeted men on 
four motorcycles, according to local newspaper interviews with 
witnesses at the scene of the crime. He died in the hospital a few 
hours later. The attack happened about 200 yards (183 meters) from a 
checkpoint at the large Ratmalana Air Base, but a bend in the road 
would have kept the attack out of the sight of soldiers maiming that 
post. Nearby shop owners who became aware of the attack after it 
started told CPJ that the motorcycle-riding attackers rode off in the 
direction of the checkpoint, adding to the suspicion of some sort of 
official involvement.
    The shop owners said they did not hear gunfire on the morning of 
the killing, and police told reporters they did not find shell casings. 
On the day of the murder, staffers at Wickramatunga's paper told CPJ by 
phone that the men had used pistols with silencers, which CPJ reported. 
We also reported that the car's windows had been smashed, apparently 
with a heavy object. With no coroner's report, there is no official 
explanation for the cause of death. But reliable sources are emerging 
who say the attackers may have used a different murder weapon.
    Wickramatunga's brother Lal spoke with the doctor who treated him 
before he died in Colombo's Kalubowila Hospital. The same doctor also 
took part in the autopsy, Lal says, though he was not the judicial 
medical officer (JMO) the Sri Lankan equivalent of a coroner. That 
doctor told him there was neither a bullet nor an exit wound in his 
brother's skull. There was only an entry wound on his right temple, 
caused by a weapon that crushed its way through the skull and left two 
closely spaced punctures. Sonali Samarasinghe-Wickramatunga described a 
similar wound to the CBC.
    Lal said he saw the magistrate's order describing the cause of 
death, and it said there had been a gunshot injury to the brain. He 
said he thinks the coroner's report has not been released because of 
the discrepancy in the description of the cause of death. He also said 
a police forensics expert found no chemical traces of a weapon being 
fired in the car, or shell casings at the scene. Two diplomatic sources 
in Colombo told CPJ that Wickramatunga's right temple had been crushed 
and that there was no bullet found inside the victim's brain.
    The coroner's report was scheduled to be released on February 5. 
The local press later reported that the release date had been moved up 
to February 16, but it has yet to appear. Police told the media that 
they are waiting for the government to release the account, which, in 
their words, ``would contain the scientific evidence'' they need to 
proceed. CPJ has received the same formulaic responses as it has 
continued to contact the police. ``The belief here is the JMO's report 
is being tampered with,'' one journalist told CPJ by e-mail when asked 
for an update.
    The next hearing in Wickramatunga's case is scheduled for March 19 
at Colombo's Mount Lavinia Magistrate's Courts. The JMO's report could 
be released then, along with the report of the government analyst who 
determines whether a crime has been committed and how to proceed with 
the case. Until then, all records are closed to the public.
    On January 29, CPJ traced Wickramatunga's route from his home to 
his office at The Leader, and found that there are many quieter spots 
than the main road on a busy morning near a military installation where 
he could have been killed. The route to the paper passes many factories 
with high walls or fences buildings on lightly traveled roads. There is 
little or no pedestrian traffic in much of the area.
    CPJ went to the site of the attack around the same time of day it 
had taken place three weeks earlier. The road was bustling with 
traffic. Shop owners pointed out the spot where the car was left 
standing after the four motorcycles had forced Wickramatunga's car to 
the side of the road, straddling a marked street crossing. When CPJ 
visited the workplaces of the two men who, according to media reports, 
had testified at the coroner's inquest, their employers said they had 
stopped showing up, and they did not know what had happened to them. It 
is hard to tell whether they were telling the truth or protecting the 
witnesses' identities for fear of retribution from the killers.
    The third January attack came at around 6:40 a.m. on January 23, 
according to Upali Tennakoon, editor of the Sinhala-language, pro-
government weekly Rivira and his wife, Dhammika. The couple was driving 
to his office when motorcyclists forced their car to stop and smashed 
its window. One attacker used a metal bar with a single sharp point to 
hit Tennakoon in the face and in his hands when he put them up to 
defend himself, he said. Both hands received puncture wounds. Another 
attacker reached into the car and stabbed at him with a knife, but only 
nicked Tennakoon's stomach. His wife fought back too, and threw her 
body over her husband to protect him, the couple said. The attackers 
fled. On January 27, while Tennakoon was still in Colombo's General 
Hospital, the couple told CPJ they were mystified by the attack.
    Tennakoon said he did not know the men--this time there were four 
on two motorcycles, all wearing helmets. Tennakoon's wife said they 
used one of two wooden poles they were carrying to break the window of 
the car and the pointed metal bar to attack her husband. The pointed 
bar, she said, was somewhere between 2 and 3 feet (60-90 centimeters) 
long. They aimed for his head and neck, she said.
    Tennakoon and his wife said they were aware of no further 
investigation beyond the police questioning them about the incident. To 
date, there have been no arrests or announcements made in Tennakoon's 
case. The government has offered a 1 million rupee reward (US$8,800) 
for information leading to an arrest. Fearing for their safety, 
Tennakoon and his wife went into hiding after leaving the hospital. 
Soon after, they left Sri Lanka and are now living in another country.
                         government's response
    The government has strongly denounced the attacks. Chief government 
spokesman and Minister of Mass Media and Information Anura 
Priyadarshana Yapa and Minister of Mass Media Lakshman Yapa Abeywardena 
told Colombo newspapers there was a ``massive conspiracy'' to discredit 
the government by destabilizing the country with attacks on prominent 
figures and a ``comprehensive inquiry'' would be carried out to find 
the attackers in all three January cases. The comprehensive inquiry has 
not happened and the police report little movement in the cases, a 
pattern that has been seen in past killings, assaults, and attacks on 
media facilities.
    On January 27, President Mahinda Rajapaksa met with the editors of 
mainstream newspapers and promised a thorough investigation of all the 
attacks. He also said a breakthrough was coming in Wickramatunga's 
case. Two days later, police announced the arrest of two drivers of 
three-wheeled motorized cabs. According to newspaper reports, one of 
the drivers was found with Wickramatunga's cell phone, the other was 
accused of selling it to him. The two drivers remain in detention. A 
few days after that, the police told the media that they had found a 
motorcycle ditched in a canal that they suspect might be one that was 
used by Wickramatunga's attackers. They have not released any more 
information.
    When CPJ tried to contact the inspector general of police, Jayantha 
Wickramaratna, his office said they had no comment to make about any of 
the cases. The spokesman's office for the superintendent of police said 
its statements were all a matter of public record and that it had 
nothing more to add. The Ministry of Defense told CPJ that its 
positions on the killings and attacks on journalists are part of the 
public record, and available on the ministry's Web site.
    With the help of the Sri Lankan Embassy in Washington, CPJ spoke by 
telephone from New York to Attorney General Mohan Peiris in Colombo on 
February 20 and with Foreign Minister Rohitha Bogollagama on February 
23. We asked Peiris about the delay in releasing the JMO's report in 
Wickramatunga's case and of any movement in the investigations of the 
Sirasa and Tennakoon attacks. Peiris said that investigations are 
ongoing in all the cases, and said that arrests have been made.
    ``Our position is that the government is very, very keen to ensure 
the perpetrators are brought to book,'' Peiris said. ``There has 
certainly not been an ebb in our enthusiasm to do so.'' He said the 
cases were proceeding slowly because the facts ``have to be verified 
perfectly.''
    Foreign Minister Bogollagama responded in a similar manner. He 
discussed all three cases individually and in depth. Every aspect of 
the attack on Sirasa is under investigation, he said, and given that 
the attack was not a ``novice operation,'' and to avoid bringing 
``half-baked cases before court,'' the government is proceeding very 
deliberately. ``I'm confident very soon that we will have the evidence 
that is warranted in order to sustain a prosecution against the 
perpetrators of this crime,'' he said.
    The Wickramatunga case is also being pursued, Bogollagama said. 
Investigators ``are taking their time because we don't want fingers 
pointed at the government in terms of failing to conduct a fair 
investigation or to conduct a proper trial,'' he said. ``To get to that 
stage we must proceed step by step.''
    In Tennakoon's case, the last attack in January, Minister 
Bogollagama saw the culmination of a string of events designed to 
discredit the government--a ``sinister group'' working to ensure that 
``the finger of accusation is pointed at the government in order to 
sustain accusations that there is no media freedom in Sri Lanka,'' he 
said. ``That is why we are taking the time to go after a proper 
investigation.''
                 historical precedent undercuts denials
    The government's responses and the arrests in Wickramatunga's case 
are dismissed by the non-state press as part of an arrogant, blatant 
cover-up. One senior editor sardonically told CPJ that there was no 
need for a government investigation into the Sirasa bombing, 
Wickramatunga's killing, or the attack on Tennakoon. ``Why should they 
investigate?'' the editor asked. ``They already know who did it.'' The 
editor, a long-time newspaperman, asked that his name not be used for 
fear of retribution from the government.
    In addition to journalists outside the pro-government media, 
diplomats also reject the government's denial of involvement. On 
January 19, six former U.S. ambassadors to Sri Lanka wrote an open 
letter to President Rajapaksa:

          Mr. President, we speak frankly because in our dealings with 
        you we have always found you to have an open mind and to 
        respect the truth. Some have suggested that these events have 
        been carried out not by elements of the Government, but by 
        other forces hoping to embarrass the Government. We do not find 
        such arguments credible . . . We believe it is imperative that 
        these actions stop, and that those who have carried them out be 
        prosecuted.

    CPJ counts 10 journalists killed by premeditated murder since 1999, 
with no prosecutions or convictions. The Rajapaksa government and its 
predecessors must at least be held responsible for the impunity that 
surrounds attacks on journalists. Most of these killings came while 
Rajapaksa served as prime minister from April 2004 until he started his 
six-year term as president in November 2005 until now. According to 
CPJ's records, since Rajapaksa took high office in Sri Lanka, eight 
journalists have died of what CPJ considers to be premeditated murder. 
No one has been brought to trial in any of these cases, according to 
CPJ research.
    Most of those killed were Tamils. And, according to Ananth 
Palakidnar, a former president of a journalists' organization called 
the Sri Lanka Tamil Media Alliance, about 20 to 25 other Tamil 
journalists have fled the country since the killing of Sivaram Nadesan, 
who wrote a defense column under the pen name Taraki for the Sunday 
Times. In April 2005 he was abducted in Colombo; his body was found 
near the Parliament building the next day.
    In his February 20 phone call with CPJ, Attorney General Peiris 
dismissed the idea of impunity for those who attack journalists: ``I 
can tell you we have a policy of zero tolerance, zero tolerance,'' he 
said. ``There is no question of the government or the attorney 
general's office accommodating or making concessions for criminals or 
criminal activities.'' Some cases may have been delayed for lack of 
sufficient evidence, he said.
    January's assaults are part of a broader pattern against critics of 
the government, Tamil, Sinhalese, or Muslim. In a string of online 
postings, the Defense Ministry's Web site has charged specific 
journalists with ``treachery.'' Defense Secretary Rajapaksa uses the 
government-run television and radio stations to denounce journalists by 
name, and dismisses allegations that the government is behind the 
attacks. In June 2008, with the government's campaign of assaults, 
harassment, and arrests of journalists in full swing, a chilling 
statement appeared on the ministry's Web site:

          Whoever attempts to reduce the public support to the military 
        by making false allegations and directing baseless criticism at 
        armed forces personnel is supporting the terrorist organization 
        that continuously murder citizens of Sri Lanka. The Ministry 
        will continue to expose these traitors and their sinister 
        motives and does not consider such exposure as a threat to 
        media freedom. Those who commit such treachery should identify 
        themselves with the LTTE rather than showing themselves as 
        crusaders of Media Freedom.

    The ministry's Web site accused specific media outlets of such 
behavior, and all have since come under violent attack: Sirasa TV; The 
Sunday Leader, The Morning Leader, and Irudina (the Sinhala-language 
Sunday weekly of The Leader group). After The Daily Mirror wrote a 
series of articles on the Tamil refugee situation, the defense 
secretary called the paper's editor, Champika Liyanarachchi, in April 
2007 and told her neither she nor the reporter who wrote the articles 
should expect government protection if they are attacked, which CPJ 
reported. The Sunday Times' defense columnist, Iqbal Athas, has stopped 
writing and fled and returned to Sri Lanka several times after numerous 
threats and harassments, he told CPJ. The Times' Tamil columnist J.S. 
Tissainayagam has been jailed on state security charges since March 
2008--he told the court in his pretrial appearances that other 
prisoners were beaten in front of him and that he had agreed to sign a 
false confession. He was not beaten because he has detached retinas in 
both eyes and his captors feared they would blind him, according to his 
wife. The Web site Lanka Dissent voluntarily stopped publishing on 
January 10, citing fears of retribution; and the owner and chief editor 
of Lanka e-News, Sandaruwan Senadheera told CPJ in January in Colombo 
that he has been frequently called in for questioning by the Criminal 
Investigation Department since a series of articles about the 
activities of military and police intelligence started running in 
February 2008.
    Independent coverage from the front lines with the LTTE has been 
stifled for years. Yet far from the battlefields, critical reporting 
from the capital on the conduct of the war has been quashed, and Sri 
Lanka's once-vocal opposition media is facing more repression than 
under any preceding government. At least seven well-recognized 
journalists, many of them who worked for the media organizations 
targeted by the Defense Ministry, have stopped writing; one prominent 
figure, Tissainayagam, is in jail, and several others have left the 
country, including Tennakoon. Some have fled and returned, and stopped 
reporting. This list is not all-inclusive, but among those affected 
are:

  <bullet> Namal Perera, a freelance defense analyst, was attacked by 
        men wielding wooden poles as he traveled in a car with a senior 
        British High Commission official in June 2008. They had been 
        followed by two men on motorcycle before Perera's attackers 
        jumped out of a white van and smashed in the windows of his car 
        and assaulted him, Perera said.
  <bullet> Iqbal Athas, defense correspondent for The Sunday Times, 
        said he stopped writing his weekly column as a result of 
        threats. Athas also reports from Colombo for CNN and is a 
        correspondent for Jane's Defense Weekly. In mid-2008, a pro-
        government radio station broadcast for weeks, on an almost 
        daily basis, vituperative statements denouncing him, he told 
        CPJ, and the Defense Ministry's Web site published attacks on 
        his character. On June 3, 2008, on both the state-run 
        Rupavahini national television network and the state-owned 
        Independent Television Network, Defense Secretary Rajapaksa 
        faulted Athas by name for his independent reporting.
  <bullet> Keith Noyahr, associate editor of the English-language 
        weekly The Nation, was abducted from his home's garage, held 
        overnight and severely beaten, CPJ reported in May 2008. The 
        assault remains uninvestigated and unprosecuted. Noyahr 
        eventually fled the country. The Nation is owned by Rivira 
        Media Corporation, which also owns the paper for which 
        Tennakoon worked.
  <bullet> Parameswaree Maunasami, a Tamil reporter for the Sinhala-
        language weekly Mawbima, was arrested in November 2006, and 
        held for four months without charge or trial under the 
        Prevention of Terrorism Act, CPJ reported at the time. She was 
        the first reporter to write about white Toyota HiAce vans with 
        tinted glass and no number plates that had been used to pick up 
        Tamils. A similar van was used in the attack on Perera. In his 
        January 16 ITN television interview this year, Defense 
        Secretary Rajapaksa mentioned her by name, again accusing her 
        of being a ``terrorist.'' The enterprising young reporter no 
        longer lives in Sri Lanka.

    When read this list over the phone, Foreign Minister Bogollagama 
said, ``If they were proper journalists, today they would be 
journalists somewhere [else] in the world, if they had just left the 
country for their safety.'' He went on to ask: ``We have so many 
opposition journalists in this country, why is it only them'' who have 
fled?
    ``Their so-called writings have affected our destiny and our 
pursuit of counterterrorism,'' he added.
                         international response
    The international community has responded strongly to January's 
attacks, and those that preceded them. CPJ wrote to President Rajapaksa 
last year, calling for him to address the attacks on the media. This 
year we called for an independent inquiry into the attack on Sirasa TV 
and, after the killing of Wickramatunga, we called for forceful action 
from Colombo's diplomats. Other press freedom and human rights groups 
have spoken out against Sri Lanka's media attacks.
    The government has come under a barrage of criticism from the 
diplomatic community, but diplomatic sources say they have little 
purchase when meeting with the president and his advisors, and at times 
have been treated dismissively. Some said they fear being marginalized 
as the government pursues its military solution in the north, which is 
supported by widespread popular approval in the rest of the country. In 
Colombo, a disturbing analogy is being frequently used by journalists 
and some diplomats: There is concern that Sri Lanka is heading in the 
direction of becoming another Zimbabwe or Burma, countries run by 
governments resistant to pressure to live up to global norms of human 
rights.
                            recommendations
To the international community:

  <bullet> Engage with the Sri Lankan government, particularly the 
        president's office, to address what has become a protracted 
        assault on journalists and media houses.
  <bullet> Insist that the government rein in its security forces, 
        which are believed to be behind not only the spate of attacks 
        in January of this year, but the assaults on journalists 
        critical of the government that increased in late 2006.
  <bullet> Point out that Sri Lanka's international image has been 
        tarnished, and insist that attacks must be fully investigated 
        by police and the judiciary, unhindered by government pressure. 
        No matter what viewpoint the government holds in its attempts 
        to end the fighting with the LTTE, members of Sri Lanka's civil 
        society who dare to criticize the government must not be 
        treated as the enemy.

To the government of Sri Lanka:

  <bullet> Provide adequate protection and security for any journalist 
        who is threatened.
  <bullet> Ensure that those journalists who have fled in fear of their 
        lives or liberty can return home to Sri Lanka in safety.
  <bullet> Ensure an independent, thorough, and timely investigation of 
        all attacks on journalists.
  <bullet> Release the full autopsy report on Lasantha Wickramatunga.

To the U.S. government:

  <bullet> The American Embassy in Colombo is deeply concerned about 
        these attacks on journalists and has often acted in their 
        interest. CPJ calls on the State Department to work with the 
        embassy to consider ways to offer temporary refuge to Sri 
        Lankan journalists who decide to flee their country in fear for 
        their safety, and to encourage other countries to do the same. 
        None of these men and women want to abandon their homeland, 
        their families, and their careers, but they deserve some sort 
        of temporary refuge.

    Senator Casey. Thank you very much.
    And I appreciate the testimony of all three of our 
witnesses and the attention of our audience.
    I wanted to start. We will do 10-minute rounds, and I 
wanted to start with some questions that relate to the camps.
    As we know, the government has established refugee camps 
for Tamils in the north who have fled the conflict zone. The 
Secretary of the Ministry of Disaster Management and Human 
Rights told the London Times that the government hopes to 
resettle 80 percent--80 percent of the refugees by the end of 
the year.
    However, he added that resettlement will not be a voluntary 
process. And for the sake of citizens stuck in these camps, we 
need to determine whether they are receiving proper assistance 
and need to ensure they are not living indefinitely in 
detention centers.
    So I guess my first question--and any of you can answer 
this--would be to, just for us, give us a sense of what is 
happening there. Describe for us the condition of the camps.
    Dr. Neistat. A good illustration is this photo that you can 
see in front of you. As I said, there are currently 12 sites, 
as far as we are aware, where the displaced are coming in 
Vavuniya. There are also displaced in other areas, but Vavuniya 
is where our investigation took place.
    So they are surrounded by barbed wire and run by the 
military. But what is more concerning is the presence of 
plainclothes paramilitaries in the camps. They are, despite all 
of the calls from the International Community, highly 
militarized. There is, obviously, no talk about civilian nature 
of these camps.
    There are reportedly interrogations of the displaced being 
conducted inside the camps. But most importantly, as I said, 
the displaced have no freedom of movement. Nobody can leave the 
camps under any conditions, aside from medical emergencies 
where they are being guarded by the military to and back from 
the hospital.
    But the access of the humanitarian agencies continues to be 
restricted. Indeed, the government, realizing that they cannot 
deal with the influx of the displaced, allowed some agencies 
access to the camps. But it remains restricted. And what is 
worse, the decisions seem to be made on an ad hoc basis by a 
military commander guarding the camp.
    While we were there, for instance, on one of the days, 
Handicapped International, an agency that is crucial right now 
for assistance to the displaced or injured and have amputations 
and who are in the camps, was denied access to the camps with 
no reasons given, obviously.
    And most importantly, all outsiders in the camps are being 
very, very closely watched by the military and the 
paramilitaries. And it is again part of the same campaign to 
ensure that the displaced who just came from the Vanni have 
nobody to talk to.
    Senator Casey. You said that access is restricted. I want 
to ask you if you can describe if there is a total prohibition 
on any humanitarian aid coming in, or is it limited, or is it 
ad hoc depending on what time period you are talking about? Or 
are you talking about a total shutoff of any kind of 
humanitarian aid, or does it vary between locations?
    As best you can, and I know----
    Dr. Neistat. Not in the camps. In the camps, agencies right 
now do have access--U.N. agencies and certain international 
humanitarian agencies, such as DRC, Danish Refugee Council, and 
Norwegian Refugee Council, and some other groups. The problem 
is that I think with the exception of UNHCR, the United Nations 
refugee agency, with all other agencies, the access is somewhat
ad hoc.
    While we were there for about a week, every day we would 
hear a report from one or the other agency that they were 
denied access. And it is not clear--it does look like this 
decision is being made by a particular guard, particular 
military commander in charge of a particular camp.
    But assistance is being delivered. I mean, they do build 
shelter. So there is certain assistance, emergency assistance 
going into those camps.
    Senator Casey. That can be documented, that aid is getting 
through?
    Dr. Neistat. Yes. As we were there, humanitarian agencies 
started putting up shelter and obviously delivering food and 
certain medical supplies to the camps.
    Senator Casey. And just for the record, you said before in 
your answer, you are talking about 12 sites. Is that what you 
said?
    Dr. Neistat. In Vavuniya.
    Senator Casey. Right. OK.
    I wanted to ask you as well what more can the International 
Community be doing or could the International Community be 
charged with? Or what recommendations would you make with 
regard to what the International Community can be doing to 
improve the situation in these camps?
    I know it is kind of a broad question, but if you can 
answer it as best as you can.
    Dr. Neistat. Well, I think it is a very difficult one 
because I think there is a huge dilemma that all humanitarian 
agencies are facing right now. On one hand, as UNHCR and other 
agencies said repeatedly, they do not want to support 
militarized camps where other agencies and journalists and 
nobody else has access to. So--but at the same time, they do 
not want to deprive the displaced from the emergency 
assistance.
    So I think the answer should be that emergency assistance 
definitely should be provided, but at the same time, government 
should be pressed to comply with the conditions that it has 
already agreed to--meaning civilian nature of the camps and 
unimpeded access to the displaced for the International 
Community.
    But what should not be supported is the long-term 
internment plans by the government. As you said, the government 
promised to resettle 80 percent of the displaced by the end of 
the year. But if you look into what has been going on with the 
displaced in Sri Lankan history since the 1990s, this is not 
likely to happen. And this is something the International 
Community should not provide any assistance to.
    Senator Casey. Can you give me a sense of how many people 
we are talking about here?
    Dr. Neistat. We are currently talking about 30,000 people 
in Vavuniya. However, I also have to point out that we do not 
have the exact numbers, and it looks like nobody in the 
International Community has the exact numbers because the 
government refused to share registration lists of the displaced 
with the international agencies.
    And that is true for those who were detained at checkpoints 
and those who arrived to the camps, which is another 
requirement that the government should comply with if it wants 
to get assistance, meaning sharing registration lists and 
obviously especially of those who did not make it to Vavuniya.
    Senator Casey. We may get back to more of these questions 
with regard to the camps. I am going to move to another topic 
with regard to the humanitarian assistance in the north.
    I wanted to ask you because my time is running out on this 
round, but what programs does either the Red Cross or the U.N. 
or other international organizations currently have on the 
ground in the north? Do you have any sense of an itemized list 
of programs, or do you have a sense of that?
    Dr. Neistat. I can tell you what we know. To the best of 
our knowledge, there are no international staff currently 
present in the north in the conflict areas. All of the agencies 
were banned or were discouraged by the government to operate in 
the north in September. And since then----
    Senator Casey. So none on the ground?
    Dr. Neistat. No. They are not on the ground. There are 
about 250 local staff of international agencies, but they 
effectively do not--I mean, officially, they are not--they do 
not work for those agencies at this moment.
    ICRC organized convoys to evacuate patients. One happened 
on January 28, if I am not mistaken, and another one just 
recently while we were there. I think it was February 11 
probably, to evacuate patients to Vavuniya hospital and 
hospital in Trincomalee. And for that, international staff came 
to the area, but then they left.
    And as I said, agencies like World Food Programme that used 
to deliver food convoys to the area do not do that anymore.
    Senator Casey. I want to--before my time is up, I have 
about a minute. But Ambassador, Mr. Dietz, would either of you 
want to add anything to either the camp discussion or the 
discussion about what is happening in the north?
    Ambassador Lunstead. Yes, I would make two points. The 
first is that dealing with the situation, the humanitarian 
situation certainly in the camps is well within the capacity of 
the International Community and the government working 
together.
    After all, after the tsunami, we dealt with a million 
displaced persons and, working together, did it quite well. So 
there is no doubt that this could be dealt with in the proper 
conditions.
    The second is the militarized nature of the camps, and we 
have to be plain about this. People are in the camps because 
they are Tamils, because of their ethnic identity.
    Now, clearly, the government has a responsibility to screen 
people as they come in. But to keep them behind barbed wire, 
essentially under military guard simply because of their ethnic 
identity not only is wrong, it perpetuates the problem--the 
reason for this problem in the first place, the differentiation 
of the citizens of Sri Lanka based on their birth.
    Senator Casey. I will go to my next round, but I wanted to 
turn it over to Senator Lugar.
    Senator Lugar. Thank you very much, Mr. Chairman.
    I would like to seek for your advice on the course for our 
Government. At least a rudimentary reading of the history of 
the country would lead one to believe that for the last 26 
years, essentially, there has been an attempt by the Government 
of Sri Lanka to bring about unity in the country, and 
essentially, some Tamils have not wanted this unity.
    Now you pointed out, Ambassador, that the government maybe 
has not been adept in terms of federalist principles or various 
ways in which the Tamil people could have been fully 
incorporated into the situation. On the other hand, some would 
argue that not all Tamils have not wanted to be incorporated. 
They have wanted a separate state or to have a degree of 
separation that was unacceptable if Sri Lanka was to be one 
country.
    This does not mandate 26 years of conflict. But 
nevertheless, as you have pointed out, from time to time this 
has arisen, and sometimes divisions within the government has 
perhaps brought about conditions in which the Tamil Tigers felt 
this was an opportune time. And although Sri Lanka is sometimes 
described as a relatively sophisticated state, the fact is that 
it has not been able to bring about unity, and therefore, 
conflict has continued.
    So we come to this point in which at least our briefing 
papers indicate that the Tamil Tigers may have been confined to 
something like 150 square kilometers, one description of the 
territory left to them. This is less than half the size of my 
home city of Indianapolis, just to get some perspective, for 
all of them.
    And some would say the war has been relatively successful 
on this occasion, although it may lead to insurgency in the 
future
or people sort of poking out after they are confined to 150 
square kilometers.
    What is the leverage point or should be the leverage point 
of the United States or the International Community in advising 
the people--all sides--of Sri Lanka how they should govern 
themselves, how they should live, how they should draw their 
lines? Specifically, what leverage do we have that would be 
meaningful at this point?
    In this hearing, we are looking into atrocities and the 
problems of the press and all the things that come from a 
conflict in which people are killing each other, but with the 
objective on the part of the government of providing one state, 
unity, despite the resistance of others who don't want this.
    And I ask you, Ambassador, from your experience there on 
the ground during the period that you served, what was the 
policy of the United States with regard to perfection of the 
governance of the country? Or what leverage did we have?
    And if we could have gotten others to join us--India, 
China, others who are in the neighborhood--what leverage would 
they have on peoples that, for a variety of reasons, have 
chosen not to be very compatible and have really waged a 
warfare for a quarter of a century?
    Ambassador Lunstead. Well, Senator, you have summarized 
many of the difficulties of this issue very well. It is 
important to realize that we don't really know what all the 
Tamils of Sri Lanka want.
    There are about 3 million Tamils in Sri Lanka. Although a 
large number of them live in the north and the east, they also 
live in other parts of the island. About a third of the 
population of Colombo, for instance, 700,000 people are Tamils. 
They clearly choose to live in places which are not controlled 
by the LTTE.
    Also, Tamil voices for peaceful solutions have been 
eliminated by the LTTE itself, and there are many instances of 
that. So we don't know really what everybody wants. But I think 
that most Sri Lankans want to live in peace in a land where 
they can pursue their lives without harassment or without 
problems.
    There are ways to do that that the political leaders of Sri 
Lanka can come up with if they want to. This is a time. The 
President will have tremendous opportunity now, President 
Rajapaksa, if he is willing to do that, if he grasps the depth 
of Tamil grievances and the radical changes that will be 
needed.
    But I think that it is important to look at this not as 
something for Sinhalese to give to Tamils, but as changes which 
would improve the governance of the country for all Sri Lankans 
because, in fact, that is the case. It would give them a 
greater say in their own lives and how they are governed.
    With regard to leverage, there isn't much leverage right 
now. Sri Lanka, of course, cares somewhat about the opinion of 
the International Community, but not enough to stop the 
military offensive. They see an opportunity now and seem 
determined to pursue that opportunity.
    The United States and others, we do not provide large 
amounts of assistance. Sri Lanka receives most of its military 
supplies from Pakistan, from China, from commercial purchase in 
Eastern Europe. We have little ability to turn that off.
    As I have suggested, one opportunity will be in provision 
of development assistance for reconstruction. Sri Lanka will 
need significant funds to develop both the north and the east, 
which they intend to do, and the rest of the country. A lot of 
that money will come from the World Bank, from the Asian 
Development Bank. Japan is Sri Lanka's largest bilateral donor. 
Their assistance far surpasses ours, which is really very 
small.
    If the donors--the International Community--came together 
to insist that this money will flow only under certain 
conditions, then there might be an opportunity. That is the 
leverage that I can see. Frankly, I was searching when I wrote 
my testimony to see where the leverage was. That is an 
opportunity I can see. I don't see too many other 
opportunities.
    Senator Lugar. Let us say, ideally, that all these groups 
by country or agencies came together, would they also bring 
along with them political scientists or somebody to write a 
business plan?
    In other words, it is well and good to call upon the 
governments to do the right thing, but there does not seem to 
have been the creativity within the government. Or if it has 
been, those leaders who offered that have been annihilated in 
the process. So we are down to brass tacks again without a 
plan.
    And this is why as I read the testimony today, as well as 
the history, it is not the only situation like this on Earth, 
but it really is brutal in terms of the lack of alternatives 
for the people who are involved.
    Ambassador Lunstead. One of the saddest things here is that 
the solutions are not that difficult. Any political scientist 
or politician could draw up a plan for changing Sri Lankan 
governance and devolving power. It is the politics of doing 
that, which has been the problem consistently in Sri Lanka.
    So it can happen. It is a question really of will and 
political leadership.
    Senator Lugar. I am just curious, given the politics, one 
of the major parties has a Marxist element that is substantial, 
although maybe not dominant. What does the other party look 
like?
    Ambassador Lunstead. Well, traditionally, President 
Rajapaksa's party has been considered more of a leftist party. 
The opposition, the UNP considered more of a rightist party, 
more free market tendencies. In reality, the parties have never 
been that far apart on policies. It is more personal ambition 
and personal rivalry that divides them.
    Senator Lugar. And so, they brought--the personal leaders 
brought together coalitions that gave them, at least, the 
ability to defeat somebody else in an election.
    Ambassador Lunstead. That is right.
    Senator Lugar. But not really an overall planning strategy 
for the future of the country.
    Ambassador Lunstead. That is correct. They have been unable 
to agree on a way to move forward unitedly and usually derailed 
by personal ambition.
    Senator Lugar. What has been the position of the United 
States Government through the Ambassador? What signals or 
messages are coming?
    Ambassador Lunstead. I don't speak anymore for the 
Government. I am in the very new situation for me of being able 
to say anything I feel like, which is a very nice situation.
    Senator Lugar. But you are an observer of what is going on.
    Ambassador Lunstead. Hard to get used to sometimes. But as 
far as I know, the Embassy has been very forthright. Ambassador 
Blake and the Embassy staff and the Department have supported 
the right things and have tried to do it through diplomatic 
means, through discussions with the government but have not had 
a huge impact, not through any personal failings, but simply 
because of the objective nature of the situation.
    Senator Lugar. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Casey. Thank you, Senator Lugar.
    Senator Risch.
    Senator Risch. Briefly, this is kind of depressing to 
listen to this because nobody has really put the finger on who 
is at fault here. Somebody is at fault for this. I mean, 
somebody doesn't want to get along or some groups don't want to 
get along because, as you point out, I mean, the solutions 
really aren't rocket science. They are ones that a pretty 
rudimentary political scientist should be able to resolve.
    Does this go on--what is the endgame here? I see that they 
are nearing an end, at least the government side is, as far as 
military operations are concerned. But what is the endgame? 
Where do they go from here?
    I have heard everyone say what should happen. I haven't 
heard anybody say what will probably happen. Can I get all 
three of you to briefly give me your idea of what the endgame 
is here?
    Ambassador Lunstead. Well, President Rajapaksa has said 
that he is willing to consider changes in the governance 
system, that he will meet shortly with the Tamil politicians 
who are not from the LTTE who have ideas on how to move 
forward. Whether that will be a serious effort and whether they 
will be willing to make substantial changes, we just don't 
know.
    There is also a political process, an all-party conference, 
which has been meeting for several years to come up with 
proposals on ways to change the political system.
    As I mentioned in my testimony, President Rajapaksa is 
extraordinarily popular now. He is riding a wave of great 
popular support because of the military victories. It is 
rumored that he will shortly call a parliamentary election. It 
is expected to come back with a large majority, perhaps large 
enough to amend the Constitution.
    So he has--he will have a tremendous opportunity, if he has 
the foresight and the political will to take it, to change the 
political system in the country in a way which could do away 
with this problem. Whether he personally has the will to do 
that, I couldn't say.
    Dr. Neistat. I would just address another aspect of that, 
namely what is going to happen to hundreds of thousands of 
internally displaced who will eventually--those who survive--
come out of the Vanni? Judging by previous experience, they are 
very likely, unless some action is taken now, to be detained, 
confined in these internment camps indefinitely.
    And then, if some of them are released, and that is a very 
serious concern if you look at what has been happening, for 
instance, in Jaffna and Sri Lanka for quite a number of years 
already, this conflict will turn into a classic dirty war with 
paramilitaries running around the villages detaining people who 
would then disappear or be executed.
    And I think this is also the best illustration of the fact 
that when the government is claiming right now that all of 
these casualties are justified, all of these abuses are 
justified because it is just weeks short of crushing the 
terrorist LTTE, that this argument is not just cynical and 
unlawful, but also very shortsighted.
    Because if you look at how Tamil population is being 
treated right now in the Vanni and as they move to government-
controlled areas, you can see that this is definitely not the 
way to reconciliation and long-term peaceful solutions.
    Senator Risch. I will follow up on that. What are your 
thoughts, I mean, as far as who should do what? You have got a 
clear prediction as to what is going to happen. To avoid that, 
who should do what?
    Dr. Neistat. Well, I am not sure I have the time to go 
through all of our recommendations. They are definitely in our 
report. We have certain calls on the Sri Lankan Government and 
on the LTTE, to the extent that anybody can have influence over 
this.
    But I think there are short-term goals that are very clear. 
First of all, we need concerned governments, including the U.S. 
Government, must do something--should do something--to just 
stop what is happening right now when civilians are being 
killed by both sides of the conflict by hundreds, and that 
means providing, ensuring that there are humanitarian 
corridors, there are ways of people to get out.
    Second of all is what happens when people get out. This is 
why we are pushing so hard to end this policy of internment 
camps. People must resettle into the areas where they were 
displaced from, and this is the fundamental principle of 
international law and a very clear obligation of the Sri Lankan 
Government.
    And then, obviously, in terms of a more political message 
that I think needs to be sent to the Sri Lankan Government is 
that this argument of final victory over LTTE at any cost will 
not be bought by the International Community, that people do 
see what is going to happen unless they change their attitude 
toward the Tamil
population, both in the northern Vanni and in other areas of 
the country.
    Senator Risch. Mr. Dietz.
    Mr. Dietz. Yes, Senator, I approached Sri Lanka as a 
problem of journalists and how they are operating and the 
pressures on them. The journalists with whom I spoke felt that 
what was happening to them from the government was something 
that started with the government's efforts against the LTTE 
when they decided to go and go for this all-out military 
solution, that they were also going to take care of the 
homefront and stifle criticism there.
    And I asked them specifically do you think this will end 
once there is a military--a final military solution? And most 
of them said no. That what they fear at this point is a popular 
government, as the Ambassador pointed out, but one that is 
going to still act repressively and control dissent and 
criticism.
    The fear is that there will be some sort of lower level 
intensity conflict going on after this great military clash 
resolves itself in the north, and the government will be able 
to use that to continue its repressive measures. The 
journalists with whom I am speaking expect more of the same in 
the coming years, even after this situation appears to resolve 
itself in the north.
    The other thing that--I spoke with a real lot of people. I 
did a real journalist's job and just swung through Colombo for 
a week. I spoke with a lot of people on the right and a lot of 
people within the government--or sorry, within progovernment 
papers and antigovernment papers and people in civil society 
and with three diplomatic missions who I won't identify.
    An analogy that I heard several times--not just once but 
five or six times--was that people are beginning to worry that 
the government is moving in such a way and will have such a 
mandate from the population that they will not be responsive to 
international pressure, and they will be able to discard it.
    Somehow they will find a way to survive the economic 
crisis, to survive financially. But the feeling was--and I am 
repeating what other people are saying. The feeling was that 
somehow Sri Lanka is moving in the direction of Zimbabwe or 
Myanmar in terms of a nation, a country, or a government where 
the International Community no longer has that purchase or, as 
Senator Lugar said, the leverage to work things.
    That more and more, this is a government certainly 
meeting--in its own eyes and on its own terms meeting with 
great success in finally solving a 26-year-long problem that 
the country has faced. Whether it is to our liking or not is 
not for them to worry about.
    But somehow this government seemed to be isolating itself 
more and more. There are family ties and there are links within 
the government. The Defense Secretary is a brother. The senior 
adviser to the President is a brother. They are all Rajapaksas, 
and there is a sense of people coming from another region, 
another part of Sri Lanka trying to do some sort of reform or 
change.
    And well, as I said, people are just not finding the 
purchase or the leverage that they have had in the past in the 
Sri Lankan Government, and they are worried that coming off of 
this apparent military success that is going to increase that 
problem.
    Senator Casey. Thank you, Senator.
    I wanted to return to a question that we have covered 
somewhat in the question period, but we all spoke to in one way 
or another, and that is the violence against journalists. 
Plenty of examples to point to.
    Obviously, the most egregious recent example was the death 
of Mr. Wickramatunga, and I guess I wanted to ask the question 
from two vantage points. One is on the mechanics of the 
interplay between journalism and the government, and the other 
is in terms of the governmental power, I guess, is the best way 
to describe it.
    Mr. Dietz, I wanted to start with you. You have done rather 
extensive research, and it is of recent vintage. To what extent 
do you find any kind of identifiable government intrusion in 
the media? Please give us a sense of the examples of that.
    Mr. Dietz. It is pretty obvious and blatant. First of all, 
just let me set, for 30 seconds, a scene of a country that is 
politically riven over the years.
    As the Ambassador pointed out, you are looking at 
contending factions and families and different groups. And not 
that much of an ideological split, rather is whose side are you 
on? It is not really Marxist versus free market or something 
like that.
    Typically, political parties or political families have 
newspapers which are sympathetic to their reporting. Having 
said that, there is a fair amount of legitimate journalism that 
goes on in Sri Lanka, and I think it is fair to say that the 
government has made it clear that people who dare to criticize 
it in any way are considered traitors or are engaging in 
treachery.
    Most of those accusations come from the Secretary of 
Defense, Gotabhaya Rajapaksa, the President's brother. 
Accusations naming specifically journalists--and in my report, 
I have a long list of names--this person is a traitor because 
they publicized this. This journalist is engaged in treachery.
    During the attack on Sirasa TV in which a claymore mine 
was--or there was an explosion, which certainly looks like a 
claymore mine was detonated, a young reporter from Sirasa had 
an interview with CNN. And he said, yes, whoever it was who 
came in here detonated a claymore mine.
    Defense Secretary Rajapaksa within I think a day, less than 
a day, less than 24 hours, responded that this reporter--and I 
won't bother to name him here--this reporter was a traitor, 
that how dare he say such a thing. He better watch out for his 
safety. These sort of responses are regular and current.
    The attacks on journalists, these that go uninvestigated or 
unprosecuted, we have shied away from saying that these are 
military attacks, OK? The bombing, the attack on Sirasa TV took 
place with what we call military precision by 20 men who swept 
into a place, detonated a claymore mine by stringing wires down 
a maze of corridor halls. They carried weapons similar to that 
used by the government.
    But we are not saying that it was the government or the 
military who did this. We are saying this case needs 
investigation.
    The other attacks also bear similarity. Men appear on 
motorcycles, force a car over to the road. More recently, not 
using guns. Using poles or sticks to smash in windows and 
windshields and then attack the target; the journalist that 
they are going after.
    This happened in the case of Lasantha Wickramatunga, Upali 
Tennakoon. It happened in the case of Namal Perera, who is a 
journalist who left about 6, 8 months ago, who was pulled out 
of his car while he was riding with a member of the British 
High Commission.
    White vans have been going around the city. Unmarked, 
unlicensed plates, white Toyota Hiace vans with tinted windows, 
going around picking up people--opponents, Tamils, and people 
the government does not like.
    Is this the government doing it? Hard to believe that 
people can operate in a city where there are so many 
checkpoints because of the Tamil threat, the security threats, 
that people cannot move freely around that city without having 
to stop and identify themselves every 5 or 10 minutes.
    Senator Casey. Give me a sense of--as opposed to print 
journalism--the airwaves. If you can describe that, which in 
this country, as you know, is the predominant way people get 
their news. With no disrespect to newspapers, people get their 
news mostly through television.
    And I realize they are different. It is not in any way 
parallel to the deployment of that kind of technology and that 
kind of television presence that we have here. But just give me 
a sense of what it is like on the ground in terms of what they 
hear or see on the airwaves.
    Mr. Dietz. Sirasa was the one independent, large 
independent station, widely watched, widely received. Sirasa 
also operates four radio stations and three TV channels.
    The rest of the television broadcast media are 
progovernment or owned by the government in a legitimate sense 
of being government-run stations. They are clearly identified 
with the government and make themselves available to government 
members to criticize--or to put forth their viewpoints. There 
is one other small television broadcaster who really doesn't 
play as large a part in this.
    Radio stations tend to be a bit freer--certainly government 
and progovernment stations, but also more independent and some 
antigovernment stations as well, clearly antigovernment. Hard 
to find in that media universe in Sri Lanka that ideal 
broadcaster or newspaper, which is not tied or which isn't 
linked, one way or another, to one side of this argument or 
this discussion in civil society.
    The journalists who operate, frankly, I see them as 
colleagues, as people doing what I used to do for a living as a 
journalist and going out and reporting. I think when you look 
at how media is consumed in Sri Lanka, newspapers continue to 
play a very large part, that they appear in Tamil. They appear 
in Sinhalese. They appear in English as well.
    And that if a citizen of Sri Lanka wants to watch Fox or 
CNN or the equivalent--BBC or another broadcaster--that they 
will be able to find a voice for them. And actually, that is 
the saddest part. Because what has been traditionally a pretty 
vibrant media, if politically tied media, it seems to be coming 
under much, much heavier government pressure.
    And that tradition, so fundamental to a democracy, of 
having all those voices out there and feeding that conversation 
across the population are quietly beginning to be silenced. A 
lot of the journalists I know have simply stopped reporting for 
fear of retribution from the government.
    Senator Casey. Thank you very much.
    I wanted to ask the Ambassador about, in light of what we 
know about the death of Mr. Wickramatunga, writing the 
editorial days before he died and predicting the circumstances 
of his death. What is your sense, having spent time there and 
having to deal with the government and the legal underpinning 
of the government, how much control does the President have 
over the security services in Sri Lanka?
    Ambassador Lunstead. Well, of course, that is a very 
important question, which we can't really answer. It is who 
knew what and when, and I don't know the answer to that.
    I know President Rajapaksa pretty well. I have met him, 
spoken to him at length any number of times. I don't see him as 
someone who is directing the murder of people. That doesn't 
mean that there aren't elements within the government or the 
military who don't do this.
    This has happened before in Sri Lanka. Sri Lanka has had 
very dark periods in its history when murder squads were used 
to suppress dissent and rebellion, and it has come back from 
those periods also.
    So I think that, as I said, that it is simply not credible 
to think that there aren't some elements of the government 
involved in these attempts. How high that goes and who is 
involved, I couldn't say.
    Senator Casey. How about just the legal mechanics of his 
control, absent an event or an allegation?
    Ambassador Lunstead. Well, the President----
    Senator Casey. How does it work, in essence?
    Ambassador Lunstead. Well, the President, it is a very 
powerful Presidency. The President is, for instance, both 
Commander in Chief and Defense Minister. That is why--so he is 
in charge of the military. He has delegated most of the running 
of the military to his brother, the Defense Secretary. I think 
if he wanted these incidents to stop, he could make them stop 
tomorrow. And that would be the key.
    And we know that in a guerrilla war, and I have said this 
to the President personally, in a guerrilla war, incidents 
occur. The important thing is that after they occur that 
someone take responsibility; that there be accountability, that 
there be a prosecution.
    Incidents occur with U.S. forces in guerrilla wars. We know 
that. But we prosecute people who carry them out. That then 
sends a message to everybody else. If you don't take any 
action, if there is no accountability, it sends a totally 
opposite message, which is that you may operate with impunity. 
You don't have to give an order in that case.
    Senator Casey. And with regard to Mr. Wickramatunga, was it 
an escalating series of attacks that culminated in his death, 
or was it that singular incident?
    Ambassador Lunstead. Well, Mr. Wickramatunga has long had a 
reputation as a journalist who attacks everybody in power. He 
has done that to different administrations in Sri Lanka.
    He had had some threats from the current government, 
although they were more on the nature of verbal threats than 
physical attacks. But I think that the actual physical attack 
on him was something, although he in a way predicted it, but 
probably never expected it would happen.
    Senator Casey. Thank you.
    Senator Lugar.
    Senator Lugar. Mr. Chairman, I would just like to observe 
that the committee has chosen to have this hearing because 
there is really a sensitivity and, in fact, a passion for the 
freedom of the press, for the problems of human rights around 
the world. And obviously, the attendance at the hearing 
indicates a large number of citizens are deeply interested in 
Sri Lanka at this particular time.
    And I mention this because in another fora in Washington, 
the Foreign Ministers of Pakistan and Afghanistan, plus the 
heads of their military--in the case of the Pakistanis, the 
ISI, their secret service--are all meeting with Secretary 
Clinton, Richard Holbrooke, others, discussing the problems of 
the Taliban or the
al-Qaeda or security situations in that complex that led to an 
attack upon our country.
    Fear is that they might lead to another attack if we are 
not successful working out the politics and the security of 
those countries. So there is obviously intense interest with 
regard to American security. Now conceivably there are such 
threats in Sri Lanka, but these have not been expressed today.
    What we are really looking into is a country that has 
severe problems, and we are expressing Americans' deep interest 
in that country, what our responsibility ought to be, what our 
options might be to be more successful. And I think that is 
just important to state for the record, that there is deep 
concern.
    What I suppose also I just am curious, from any of the 
three of you--leaving aside the specifics of what we are 
looking at today, the murder of journalists, internment camps, 
human rights violations, seemingly interminable war for 26 
years--what is the importance of Sri Lanka to the United States 
or to India, Pakistan, China, or other countries in the area, 
to the International Community generally?
    In other words, what role does it play now? Potentially, 
what role could it play? What are some of the upside potentials 
of success really in working out the internal problems and 
these difficulties?
    Because this will be important for the International 
Community and really for people in the United States as we 
would approach, say, the authorization or appropriation 
process. And someone would say we ought to be doing more in Sri 
Lanka. More of what? And at what cost?
    And so, we finally identify objectives, and we try to get 
authorization for specific kinds of assistance to the country. 
Our colleagues will ask why? What is the importance of Sri 
Lanka? What role does it play? What are others doing? Who are 
we allied with in all of this?
    I mention this because, otherwise, I suspect we will have 
other hearings like this. I hope not the same grim statistics 
and descriptions, but I am trying to look for a better outcome 
or at least some charge as to how we move along the trail.
    Ambassador, I will pick on you to begin with again as 
somebody who served some time there as an objective observer of 
those who were now serving our country and then working with 
other countries, as our Ambassador does. What is the importance 
of the country? What is the potential importance in the region, 
with us, with anybody?
    Ambassador Lunstead. Well, when I was in Sri Lanka and the 
International Community was quite engaged in supporting the 
peace process, I used to joke to my Sri Lankan friends that Sri 
Lanka got more attention in Washington than it deserved, by 
which I meant not that it wasn't an important issue, but that 
the United States had no strategic interest in Sri Lanka.
    There is no petroleum there. It is not a major trading 
partner. We don't have military bases. It is a nice country 
with which we have good relationships. It is also a country 
which has been successful in many ways and especially in 
contrast to its South Asian neighbors. It has almost a 100-
percent literacy rate. It has very good social and economic 
indicators.
    It has shown that it can succeed. And it seems to me that 
that is where our interest lies. Not in some strategic 
interest, but in showing that this country, which for so long 
has had this terrible ethnic struggle and expressed in military 
conflict and terrorism, could put that behind and find a 
political solution.
    If it could do that, which it can with the right political 
will, that would be a tremendous example for the region and for 
the world that terrorism is not the answer to a political 
issue. And Sri Lanka could move ahead and do that, if it 
desires to do so.
    Senator Lugar. Ms. Neistat, do you have some thoughts on 
this subject?
    Dr. Neistat. Just a very brief one. I guess from the 
perspective of Human Rights Watch, there are certain situations 
that the International Community needs to address regardless of 
a particular country's geopolitical importance. And we do 
believe that the situation in Sri Lanka has reached this level.
    When civilians are being killed by hundreds on a daily 
basis and when thousands of others are on the edge of 
starvation and possible deaths, this is probably a situation 
where concerned governments, including the United States, must 
intervene regardless of the country's importance. And I do 
think that that is why we are so much encouraging the United 
States to use its leverage to make sure that the issue gets 
raised at the Security Council.
    Because it does seem that Sri Lankan Government cares about 
whether or not it comes before the Security Council. And if it 
does, it will send a very strong signal to the government.
    Senator Lugar. So the strategy you would employ would be 
for our Government to move through our Ambassador to the United 
Nations to bring this issue before the Security Council?
    Dr. Neistat. Ideally. I mean, there are two options, 
obviously. One is a proper special session on Sri Lanka at the 
Security Council, which may or may not be realistic because 
there are certain other countries involved that may potentially 
block it.
    Senator Lugar. I see.
    Dr. Neistat. But what is definitely possible is a briefing 
by U.N. humanitarian coordinator who just returned from the 
region, which, if I understand the procedure correctly, cannot 
be so easily blocked. And this can happen in the coming days 
because he did just return. So in terms of immediate to-do 
things, that would be something that could be very helpful.
    Senator Lugar. Just out of curiosity, which countries would 
want to block consideration by Security Council?
    Dr. Neistat. I would think that China and Russia would be 
on the list.
    Senator Lugar. Yes, sir.
    Ambassador Lunstead. Could I just add something? I was not, 
in any way, belittling the humanitarian issue, which needs to 
be addressed. But I do think that Sri Lanka's need for 
assistance to deal with such issues as resettlement is an 
important leverage point.
    Now I have heard, for instance, that the World Bank has 
already conveyed to the Government of Sri Lanka that it is 
ready to consider requests for resettlement moneys. The United 
States and others can be very plain on that, saying that, yes, 
money is needed, but it should only be provided under certain 
conditions. And there has to be transparency and resettlement 
of these people according to acceptable international norms.
    That is very straightforward, and I think we can do that.
    Senator Lugar. International participation, in this case, 
through the World Bank, for example?
    Ambassador Lunstead. Through the World Bank or the ADB or 
other lenders, yes.
    Senator Lugar. Mr. Dietz, do you have any comment on this 
situation?
    Mr. Dietz. I will go beyond my brief as journalist; one 
just concerned about media. But to me, it strikes me that Sri 
Lanka is a perfect place for everyone to try and get it right, 
once and for all.
    Here, you have an ethnic divide that is going on for a 
great historical length, and we see that playing out in so many 
other countries as well. But in a lot of those places, let us 
say, Afghanistan or Pakistan, you have political--it is all 
freighted with political reasons of geopolitics. Sri Lanka, 
that doesn't apply as much.
    It is completely viable as a nation. It has a well-educated 
population. It has a tradition of--it is one of the oldest 
democracies in Asia. And if the Government or if the 
Governments of Sri Lanka can be brought along and developed and 
encouraged like to try and transcend this one problem, which 
they haven't been able to deal with, it could emerge as a 
shining example of everything that our Government and much of 
the Western world holds up as an ideal.
    It has failed consistently to do that, and for many 
reasons. But this is one place in which it could all go right, 
instead of not working out.
    Senator Lugar. Well, I thank you, all three, for your 
testimony and your help to each one of us. Thank you.
    Senator Casey. Thank you very much, Senator Lugar.
    I know we have to conclude shortly. But I wanted to raise 
another general area of inquiry here. I mentioned in my opening 
the possibility that at some point if the Sri Lankan Army is 
able to prevail totally in a sense that you could drive LTTE 
into the underground, I guess that is a possibility.
    But if the Sinhalese majority and the government can 
negotiate an agreement with the Tamil minority, it is possible, 
I guess, that the LTTE might be isolated and lose legitimacy. I 
know that we don't know if that will happen. But I guess one 
area of questioning I wanted to get into was the question of 
what can we expect in terms of credible negotiations leading to 
a political settlement, in this sense?
    And I guess I would start with you, Mr. Ambassador. What is 
your sense, and this is for each of the witnesses. What is your 
sense about the Sri Lankan Government's interest in even 
reaching a political solution at this point? Or do they think 
that they have got momentum, so to speak, militarily and that 
they don't need to consider that or need to closely examine 
that option?
    Ambassador Lunstead. Well, that is the key question is if 
the LTTE is defeated as a conventional military force, will the 
government then seize the opportunity to make political 
changes, which will satisfy the grievances of Tamils and recast 
the political structure of the country? Or will it say, well, 
we don't need to do that anymore?
    I think that could go either way, and we don't know. It 
will depend on the leadership of the President. It could depend 
also on the encouragement of Sri Lanka's friends from outside 
to take this opportunity and to show that if the President does 
that, that Sri Lanka's friends will support the country and 
help it move forward.
    There is a need for a lot of reconstruction, and that is a 
hard thing to do. But we could do that. But the opportunity is 
there. There is no question about that.
    I think the President is not a racist. I think he would 
like to do the right thing. The question is whether he will see 
what the right thing is.
    He has said all along that this is a fight to, as he puts 
it, liberate the Tamils from the LTTE. I think that is a little 
bit rhetorical there. But certainly most Tamils in the country, 
I think, would accept a political solution which dealt with 
their grievances.
    Senator Casey. Ms. Neistat, any sense of what you have seen 
on the ground and----
    Dr. Neistat. I would just add very briefly that from what 
we are seeing so far on the ground, it does not look like the 
Sri Lankan Government is serious about that. Because probably 
before any political process takes place long term, it should, 
first of all, stop dropping rockets and shells on the heads of 
the Tamils, the very Tamils that it is claiming to be 
liberating, and allow them the freedom of movement and stop the 
humiliation that they are encountering after they cross into 
the government-controlled areas.
    I do think that it is very important, and unfortunately, 
from what we heard from many observers on the ground, what the 
government is doing right now could eventually fuel further 
support of the antigovernment forces rather than help 
reconciliation.
    Senator Casey. Mr. Dietz.
    Mr. Dietz. I will step away from my role as a policy 
analyst and put back on my press hat, and now my fedora and my 
press card, and just say that journalists with whom I spoke are 
fearful for the future, that they don't see the pressure on 
them ending when this fighting stops in the north.
    And that they expect there is still a Tamil identity, and 
Tamils will continue to push one way or another for some 
greater autonomy or some sort of freedom or recognition that 
they are not getting now, and that they expect the government 
to be as resistant to covering that as they are during the 
intensely military conflict that is going on now. They don't 
see a bright future ahead.
    Senator Casey. I would ask one concluding question, and 
each of you, I want to give you an opportunity to say anything 
that you might have wanted to say in response to other 
questions. But my last question is, and I don't know if Senator 
Lugar has more? But it is just a basic question, which I 
thought of that I didn't ask before, but for Ms. Neistat.
    What is the most urgent--and be as specific as you can be--
the most urgent humanitarian need right now in the near term, 
in the next, literally the next couple of months? Apart from 
the question of access to aid, what is the most urgent need? Is 
there one thing that is lacking in terms of humanitarian aid 
that the International Community could help with?
    Dr. Neistat. You mean in the Vanni or in Vavuniya, the 
areas where people manage to flee to? I think there are two 
somewhat different issues.
    Senator Casey. Right. Why don't you cover both?
    Dr. Neistat. Yes. I mean, very briefly, in the Vanni, it is 
food and medical supplies.
    Senator Casey. OK.
    Dr. Neistat. And medical supplies in particular because, I 
mean, just I got an e-mail yesterday from a colleague from a 
humanitarian agency. There are no antibiotics. There is just 
nothing to treat patients with. And as shelling continues, 
there are more and more people getting injured on a daily 
basis. And the same is true for food. It is just running out.
    As for the situation with the camps, there, as I said, the 
situation with humanitarian assistance is better. But if the 
government is expecting the influx of another hundreds of 
thousands of people out of the Vanni, then there must be places 
for shelter. There must be arrangements made for the 
International Community to assist people.
    And obviously, as I said, in the hospital it is just a 
question of letting agencies provide whatever the needs of the 
hospitals are. And this can be very specific, such as bed 
sheets and clothing for the patients. But it is just the matter 
of making sure that agencies have access to the patients to 
provide supplies.
    Senator Casey. Great. Thank you.
    Unless any of you have any further commentary. Mr. 
Ambassador.
    Ambassador Lunstead. On that point you raised about 
immediate need, it is a humanitarian need, although it is not 
an issue of a supply. But the other need is to set up a system 
where those who are detained by the government are noted. They 
are not just taken off.
    That a competent agency--and most people think that the 
International Committee of the Red Cross is the right one, and 
they have done this role in Sri Lanka before. That when someone 
is detained by the government on suspicion of being an LTTE 
fighter, that the ICRC is present, that their name is taken 
down, that their relatives are notified. So there is a record 
of who has been taken and where they have gone.
    I understand that the ICRC is in negotiations with the 
government to set up such a system like that now. The 
International Community is supporting it. But that is something 
which is not being done now. Some supplies are getting in now. 
Not enough. But this one, nothing is being done right now, and 
that is an urgent thing because it is people's lives that are 
at stake.
    Senator Casey. Mr. Dietz, you have last the word.
    Mr. Dietz. The last word, and it is a very fine point to 
make. I wish I could end on a broader, sweeping statement. We 
have a request to make of the U.S. Government and other Western 
nations, and I made it when I listed my recommendations.
    We are aware of a lot of journalists who want to leave or 
who have left Sri Lanka. The Committee to Protect Journalists 
and the other media support organizations are stretched very 
thin. We cannot offer them the support they need.
    We would like governments and aid agencies to step forward 
and help us meet that need. Frankly, this problem isn't limited 
to Sri Lanka. I deal with all of Asia, and I am looking at 
Pakistan and Afghan journalists, too, who have to get out 
because people are coming after them.
    We are running out of resources to deal with that, and we 
are looking for as much help as we can get. And this is, 
frankly, the most public and best forum I could think of to 
raise that issue.
    Having said that, I would just like to say thanks very much 
for the opportunity to appear here today.
    Senator Casey. Thank you very much.
    This hearing is adjourned.
    [Whereupon, at 4:17 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


 Prepared Statement of Hon. Patrick J. Leahy, U.S. Senator From Vermont

    The ethnic conflict in Sri Lanka that has waxed and waned for 
decades costing the lives of tens of thousands of people, has exploded 
into a full scale war and it is civilians who are bearing the brunt of 
the carnage.
    The origins of the conflict arise from decades of the Sinhalese 
majority's systematic discrimination against the Tamil minority, and 
its denial of the Tamils' meaningful participation in the political 
process. The Sri Lankan army is almost exclusively Sinhalese. 
Successive Sinhalese-dominated governments have failed to effectively 
address these longstanding injustices.
    Over the years, peaceful demonstrations by Tamils have been met 
with violence by Sinhalese extremists, which has in turn fostered 
violent extremism on the Tamil side.
    In recent weeks, as the Sri Lankan army has seized control of most 
of the northern strongholds of the Tamil Tigers, or LTTE as they are 
otherwise known, the situation has gone from dire to the verge of 
catastrophe for the estimated 250,000 vulnerable civilians who are 
trapped in a so-called ``safe zone.''
    The LTTE has a history of suicide bombings and other indiscriminate 
attacks against civilians, using civilians as shields, and preventing 
civilians under their control from escaping to government areas. 
Several hundred local staff of the United Nations and international 
humanitarian organizations are reportedly trapped because the LTTE 
refuses to allow them to leave. The LTTE has been designated a foreign 
terrorist organization by the United States.
    For its part, the Sri Lankan army insists it is targeting the LTTE, 
not civilians. But the army has also acted in ways that have blurred 
any meaningful distinction between itself and the LTTE. It has 
reportedly shelled areas populated by civilians, including hospitals, 
causing hundreds of casualties, summarily executed suspected LTTE 
sympathizers, and detained those who have fled LTTE areas, including 
women and children, in militarized camps where they are exposed to 
great hardship and danger.
    The United Nations says a compound sheltering U.N. national staff 
inside the safety zone was shelled on January 24 and 25, killing at 
least 9 civilians and wounding more than 20. On January 26, another 
artillery attack reportedly narrowly missed U.N. local staff working in 
the safety zone, but caused dozens of civilian deaths. The 
International Committee of the Red Cross has said that ``[h]undreds of 
patients need emergency treatment and evacuation to [a] hospital in the 
government-controlled area.''
    In the past 2 days, another hospital was reportedly shelled 
multiple times, resulting in more civilian deaths and injuries.
    Human Rights Watch reports that since last September, when the Sri 
Lankan Government ordered the withdrawal of most U.N. and 
nongovernmental humanitarian organizations, as well as journalists, 
from the conflicted area, a grave humanitarian crisis has developed 
with acute shortages of food, shelter, medicine, and other humanitarian 
supplies.
    The Sri Lankan Government has a duty to respect the rights and 
protect the safety of all Sri Lankan citizens, whatever their ethnic 
origin or political views. Instead, the government has embarked on a 
strategy to defeat the LTTE militarily and in doing so has shown 
disregard for the laws of war. Rather than protecting the Tamil people, 
the government has often contributed to their suffering. Its strategy 
has been to cordon off the area and blame everything, including its own 
violations, on the LTTE.
    Since 1984, successive peace talks have failed, as both the LTTE 
and the Sri Lankan Government have reneged on their agreements, and the 
government has failed to provide the vision and leadership necessary to 
build a multiethnic consensus. Both sides' extreme ethnic nationalist 
agendas have caused widespread human suffering. Both sides are 
accountable.
    I have no sympathy for the LTTE, which has brought misery upon the 
Tamil people it professes to represent. But while the LTTE has been 
severely weakened, it is unlikely to disappear, and the cycle of 
violence may continue.
    It is imperative that the government and the LTTE agree to an 
immediate cease-fire to avoid further loss of life, permit access to 
U.N. monitors and humanitarian organizations, and permit civilians to 
leave for areas of safety. The Obama administration, the British, 
Indian, and other concerned governments, should be publicly urging the 
same.
    Over the longer term, if lasting peace is to come to Sri Lanka, the 
government must effectively address, in negotiations which include all 
the main Tamil and Muslim parties, the core issues that have fueled the 
conflict including laws and policies that unfairly discriminate against 
Sri Lanka's minorities.
    There is a related issue that needs to be mentioned, and that is 
the imprisonment for the past 10 months of J.S. Tissainayagam, a 
journalist, and N. Jashiharan, a publisher, and his wife, V. Valamathy. 
They were arrested for articles critical of the government, and are 
being held in violation of their right to freedom of expression. 
Another of Sri Lankan's most respected journalists, Lasantha 
Wickramatunga, was gunned down in broad daylight a few weeks ago. 
According to Navi Pillay, the U.N. High Commissioner for Human Rights, 
``[t]he killing of . . . Wickrematunge . . . was the latest blow to the 
free expression of dissent in Sri Lanka. The searing article he wrote 
prophesying his own murder is an extraordinary indictment of a system 
corrupted by more than two decades of bloody internal conflict.'' The 
High Commissioner noted that there have not been any prosecutions of 
political killings, disappearances and other violations committed in 
recent years. That in itself speaks volumes about the Sri Lankan 
Government's credibility.
    For many years, the United States and Sri Lanka have enjoyed good 
relations. A close friend of mine, James Spain, was our Ambassador 
there years ago. He often told me of his deep affection for the Sri 
Lankan people, and of the country's extraordinary natural beauty.
    When the tsunami crashed ashore in December 2004, a member of my 
staff was on the island. The American people responded generously to 
help Sri Lanka rebuild.
    It has therefore been difficult for me to watch the conflict 
intensify, the LTTE abuse civilians and fail to live up to its 
commitments, and the government threaten to expel foreign diplomats, 
aid agencies and journalists, and refuse appeals to permit independent 
observers and aid workers access to areas where Tamil civilians are 
trapped. And as reputable, courageous journalists have been arrested on 
transparently political charges or assassinated.
    The Sri Lanka Government will one day want the respect and support 
of the United States. The same can be said of the LTTE, if and when it 
renounces violence and becomes a legitimate political party. How they 
respond to today's humanitarian appeals will weigh heavily on how the 
United States responds when that day comes.
                                 ______
                                 

           Response of Robert Dietz to Question Submitted by
                        Senator Richard G. Lugar

    Question. Today, the Sri Lankan Embassy provided this committee 
with a copy of a letter from Sri Lanka's Foreign Minister to our 
Secretary of State. Please find the letter for your reference. The 
letter states that ``freedom of the media and the freedom of expression 
are ensured and the government has taken action to investigate such 
cases whenever these rights and liberties have been curtailed.'' Could 
you please help us understand the differences--and any points of 
agreement--between this assertion and the testimony that you have 
proveded today?

    Answer. The Sri Lankan Constitution does indeed provide for a free 
press and over the years there has been a dynamic media presence in the 
country, though one which has often been under fire. What I tried to 
press home in my testimony before the committee is that since President 
Mahinda Rajapaksa first came to power as Prime Minister in 2004 and 
then when he assumed the Presidency in 2005 and until now, we have see 
an increase in the number of attacks directed against journalists who 
are critical of the government.
    It is a sad list and a long one, so I will just direct you to our 
Web site.
    While we had long become accustomed to seeing openly partisan 
minority Tamil journalists attacked and even killed, and which we 
regularly reported, what we have seen in recent years is an attack on 
more main stream journalists who dare criticize the military's war 
effort or report on corruption within the armed forces. There is a 
fairly clear correlation between the number of deaths and attacks and 
acts harassment, intimidation against people as well as attacks on 
printing presses, or more recently, on the main control room of Sirasa 
TV.
    We see a direct correlation between the government's efforts to win 
an all out military solution against the Liberation Tigers of Tamil 
Eelam and a heightened effort to silence critics of any kind on the 
home front.
    Please understand that we have kept ourselves apart from the debate 
of the value of the government's war effort--what we are concerned 
about is the government's use of death and intimidation to control 
public opinion at home.
                                 ______
                                 

         Response of Dr. Anna Neistat to Question Submitted by
                        Senator Richard G. Lugar

    Question. Your testimony includes specific recommendations 
including:

  <bullet> ``The immediate creation of humanitarian corridors to allow 
        civilians trapped by the fighting to travel to areas away from 
        the fighting'';
  <bullet> Allowing ``humanitarian agencies to . . . reach all 
        civilians in need'' and;
  <bullet> ``Permit international monitoring of the screening 
        procedures to prevent arbitrary arrests and `disappearances' of 
        the detained individuals.''

    Could you please describe why there may be resistance to these 
recommendations and help us understand under what circumstances that 
the LTTE and the government would be open to implementation of your 
recommendations?

    Answer. Although the Liberation Tigers of Tamil Eelam (LTTE) claims 
to be the ``sole representative'' of the Sri Lankan Tamil people, they 
unfortunately have a long history of acting with little regard for the 
well-being of this population. The LTTE has frequently targeted Tamil 
political parties for attack, assassinated Tamil politicians, 
journalists, and human rights advocates, and mistreated the civilian 
population under their control. They have forcibly recruited Tamils 
into their forces, including children, who have been used in combat 
roles. While one would hope that the LTTE would give greater 
consideration to the civilian population during the current fighting, 
they have showed no signs of doing so. They have forced displaced 
persons to retreat along with their forces, deployed their forces near 
civilians thus effectively using them as human shields, and in several 
instances shot at civilians trying to flee to the safety of government-
controlled areas.
    While the LTTE has never paid much heed to the concerns of foreign 
governments or human rights organizations, they have at times responded 
to the entreaties of the large Sri Lankan Tamil diaspora. This has at 
times resulted in the reduced use of child soldiers and in curtailing 
extortion in foreign countries to raise money. It would be extremely 
helpful at this time if the diaspora were to call upon the LTTE to 
demonstrate greater regard for the civilian population still under 
their control.
    We are also concerned with the Sri Lankan Government's response to 
the humanitarian crisis. The creation of humanitarian corridors clearly 
requires cooperation from both sides to the conflict. However, there 
are certain steps that the Sri Lankan Government can and should be 
urged to take even in the absence of an agreement with the LTTE.
    One such step had been the creation of ``safe zones'' in LTTE-
controlled areas where civilians could move to escape the fighting. 
Unfortunately, instead of ensuring that civilians in such zones enjoyed 
greater safety and are protected against attacks, the Sri Lankan Armed 
Forces have repeatedly and indiscriminately shelled such areas. We urge 
that Sri Lankan forces strictly honor such safe zones. Before the 
government attacks LTTE forces that may have entered such zones, the 
government should first make clear that these areas no longer have 
protected status and allow civilians sufficient time to leave them 
before carrying out attacks.
    Additionally, the U.S. Government should work with other cochairs 
of the Tokyo Donors Conference and the Sri Lankan Government to seek 
alternative evacuation routes for civilians, such as by sea, and offer 
logistical support for such evacuations. So far, the government has 
only permitted a very limited evacuation conducted by the International 
Committee of the Red Cross.
    The government's opposition to access to humanitarian agencies and 
international human rights monitors in conflict areas can be traced to 
a broader government effort in the past 2 years to avoid any kind of 
independent scrutiny of its actions, either from civil society in Sri 
Lankan or international efforts. This increasing closure of 
``democratic space'' in Sri Lanka is also evident in the increasing 
repression of the local media and broader restrictions and criticisms 
of humanitarian efforts in the country. Unfortunately these state 
actions have the effect of harming the population that needs the most 
help--displaced persons caught up in the war zones. But it also harms 
democratic society generally in Sri Lanka and undermines hopes that an 
end to the conventional war with the LTTE will result in government 
policies that benefit the entire Sri Lankan population, including the 
very real concerns of the Tamil population throughout the country.
    The Sri Lankan Government has shown some greater recognition in the 
past few weeks that the needs of the displaced population fleeing LTTE-
controlled areas is immense and that the government cannot provide the 
necessary humanitarian relief. As a result it is slowly permitting 
greater access of humanitarian agencies to displaced persons camps near 
Vavuniya. But humanitarian agencies and governments providing 
assistance are rightly concerned that these militarized camps do not 
become long-term detention centers for civilians. Beyond the provision 
of immediate relief, we urge that the United States and other concerned 
states only offer long-term assistance if the government treats 
internally displaced in accordance with the U.N. Guiding Principles on 
Internal Displacement. That means turning the camps into civilian 
facilities, permitting those at the camps full freedom of movement, and 
facilitating the safe and voluntary return of displaced persons at the 
earliest moment possible. More broadly, the U.S. Government should make 
it very clear--and encourage other concerned government and 
international institutions to do so--that future financial aid to the 
government, beyond what is immediately for emergency needs--will be 
contingent on the government's commitment to abiding by international 
human rights standards.
                                 ______
                                 

           Response of Robert Dietz to Question Submitted by
                        Senator Robert Menendez

    Question. Journalists and independent observers do not have access 
to conflict areas to accurately report information about the situation 
of civilians. What can be done to provide greater access for 
journalists and independent observers?

    Answer. Conflict zones are dangerous but reporting from them is 
crucial to our understanding of how a war is being conducted. I have 
been a cameraman, a producer and a reporter in combat situations 
ranging from East Africa to Lebanon during the Israeli invasion of 1982 
to the fall of the Marcos regime in the Philippines in 1986. The work 
comes with great risk, but it was always a risk my colleagues and I 
were willing to take.
    When governments claim they are acting out of concern for the 
safety of reporters, they are actually infringing on one of the basic 
fundamentals of free speech--open access to information. No matter how 
dangerous, no government has the right to restrict access to a battle 
zone--it is up to the journalists to weigh the dangers they are facing 
and judge whether or not to attempt to cover a story. The Committee to 
Protect Journalists rejects efforts by any government or agency to stop 
reporters from doing their job--the answer is as simple as that. 
Governments seldom stop journalists from reporting out of concern for 
their safety. They almost always do it out of the desire to control 
potentially damaging information from a battle zone.
    We base our opinions on firm legal ground. According to the 1949 
Geneva Conventions journalists wearing military uniform and attached to 
regular armed forces are entitled to the same protection as soldiers. 
They have POW status, and cannot be executed as spies. Journalists who 
are not embedded with military forces are entitled to the same 
protection as all civilians; they cannot be targeted, but can be 
subject to laws of the country including espionage. U.N. Security 
Council Resolution 1738, adopted December 23, 2006, affirms the rights 
of journalists in conflict zones.
                                 ______
                                 

        Responses of Dr. Anna Neistat to Questions Submitted by
                        Senator Robert Menendez

    Question. Journalists and independent observers do not have access 
to conflict areas to accurately report information about the situation 
of civilians.

  <bullet> What can be done to provide greater access for journalists 
        and independent observers?

    Answer. Virtually all democratic governments have permitted 
journalists to have access to war zones. This access of course can be 
restricted for specific security concerns. Unfortunately the Sri Lankan 
Government's blanket ban of independent journalists traveling into 
combat areas, as well as overbroad restrictions on places where 
displaced persons have fled, has meant that the public, both in Sri 
Lanka and abroad, has been largely prevented from obtaining independent 
informa-
tion about the conduct of this war, and the effects of the fighting on 
the civilian population.
    The Sri Lankan Government has also limited access to international 
humanitarian and human rights organizations. Not only can such 
organizations play a valuable role in ensuring that accurate 
information about the situation gets public attention, but the presence 
of monitors can have a valuable deterrent role in preventing abuses by 
both sides to the conflict.
    The Sri Lankan Government does itself a disservice by insisting it 
is protecting the rights of all civilians caught up in the war zone, 
and blaming the LTTE for all civilian casualties, but then failing to 
allow independent observers to impartially assess the situation. The 
government can rectify this situation immediately by permitting access, 
with narrowly tailored time and place restrictions for genuine security 
reasons, to the media and humanitarian and human rights organizations.

    Question. There have been reports that the Sri Lankan Government 
plans to hold displaced Tamils in ``welfare villages'' in Vavuniya and 
Mannar. The displaced people will have no choice but to stay in the 
``welfare villages'' for a period of up to 3 years.

  <bullet> What further details do you have concerning these ``welfare 
        villages,'' and what the Sri Lankan Government seeks to 
        accomplish by holding Tamils in such camps?
  <bullet> Is it likely that the camps will push moderates into the 
        arms of the LTTE?
  <bullet> What steps can the United States take to ensure that 
        displaced people in the camps are adequately cared for?

    Answer. The Sri Lankan Government has a long history of detaining 
persons displaced from combat areas--particularly Tamils and Muslims--
in what are effectively internment centers and holding them for years. 
Thousands of Muslims who were displaced in 1990 remain in government 
detention centers today. While the government may have immediate 
security concerns regarding any displaced population, long-term 
restrictions on the right to freedom of movement are a serious 
violation of Sri Lankans' basic rights under international law. The Sri 
Lankan Government has promised a quick return of most of those 
displaced by the current fighting--by the end of the year. Given the 
Sri Lankan Government past practices and the current treatment of these 
persons, it is essential that the U.S. Government keep a close eye on 
developments and speak out as necessary.
    Currently, all displaced persons are subjected to indefinite 
confinement in de facto internment camps, which the government calls 
transit sites, ``welfare centers,'' or ``welfare villages.'' As of 
February 16, 2009, eight sites near Vavuniya alone had been allocated 
for newly arriving displaced persons. Local authorities were not 
prepared for the large influx of displaced persons and did not allow 
international agencies to adequately prepare the sites. Relief agencies 
were struggling to set up additional shelter, water, and sanitation 
facilities at the last moment, as the displaced persons were being 
brought to the sites.
    Sri Lankan authorities have ignored calls from the international 
community to ensure the civilian nature of the camps. The perimeters of 
the sites are secured with coils of barbed wire, sandbags, and machine-
gun nests. There is a large military presence inside and around the 
camps. Several sources reported to Human Rights Watch the presence of 
plainclothes military intelligence and paramilitaries in the camps. A 
U.N. official in Vavuniya told Human Rights Watch that she and 
colleagues have seen members of paramilitary groups in different camps.
    Displaced persons confined in the camps enjoy no freedom of 
movement and are not allowed any contact with the outside world. Unlike 
the internally displaced brought to Mannar district in 2008, some of 
whom were granted passes to leave the camp for a day to go to work, the 
displaced persons in Vavuniya camps have not to date been allowed to 
leave the sites on their own. While many of the displaced persons have 
families in Vavuniya, their relatives have not been allowed to visit 
them in the camps. Relatives come to the camp sites, trying to find 
their family members and communicate with them through the fence and 
barbed wire surrounding the sites, yet they are often chased away by 
soldiers.
    The treatment of the displaced Tamil population--and all Tamils in 
Sri Lanka--is extremely important for the future of the country. There 
are genuine grievances that need to be met and it is essential for the 
government to address them in a serious way. But it is important to 
recognize that all Tamil dissatisfaction does not necessarily play out 
in greater violence--many Tamils do not support the LTTE or their 
tactics and want to play a part in a genuinely democratic Sri Lankan 
society that recognizes and protects the rights of all its citizens. To 
ensure that this population plays as productive role as possible, the 
government needs to send a message that it values all members of Sri 
Lankan society. This includes those most affected, and harmed, by the 
armed conflict.
    The U.S. can do its part by supporting, as it can, state actions 
that will develop a fully multiethnic Sri Lanka and objecting to those 
steps that go contrary to that fundamental goal. This might entail 
providing development assistance that would allow displaced persons to 
return to their old homes, but rejecting long-term aid to ``welfare 
centers.'' It also means providing support to Sri Lankan civil society, 
which has played an essential role in promoting a multiethnic society, 
and criticizing state repression against Tamil journalists and human 
rights defenders.

    Question. Human rights organizations such as Human Rights Watch and 
Amnesty International have advocated for a humanitarian cease-fire to 
allow aid workers and human rights monitors into the region.

  <bullet> Can the U.S. effectively pressure the Sri Lankan Government 
        to accept a cease-fire, and to allow humanitarian aid, 
        journalists, and human rights monitors into the conflict zone 
        and into refugee camps?

    Answer. While Human Rights Watch has urged the creation of 
humanitarian corridors in accordance with international humanitarian 
law, it is beyond the organization's mandate to call for cease-fires of 
any kind. Certainly the U.S. Government should make it clear to Colombo 
that continued good relations with the United States depends in part on 
Sri Lanka's compliance with international humanitarian law and taking 
necessary steps to uphold its tradition of being an open and democratic 
society.

    Question. Over 2,000 Tamil civilians have been killed since the 
military onslaught began. The Sri Lankan Government has ordered all 
medical personnel in the Vanni region to evacuate, and its military has 
repeatedly attacked hospitals. Doctors Without Borders has teams of 
doctors and equipment standing by to provide life-saving assistance, 
but the government continues to refuse to allow them into the region. 
Civilians trapped in the fighting have been repeatedly bombed at the 
hospitals where they were receiving treatment and in the ``safe zones'' 
where they took refuge; these Tamils need immediate and urgent medical 
treatment.

  <bullet> In light of these events, is it accurate to say that the Sri 
        Lankan Government has failed in its responsibility to protect 
        Tamil civilians? If the government has failed in this 
        responsibility, should the United States seek to have the 
        situation in Sri Lanka placed on the agenda of the United 
        Nations Security Council?

    Answer. The Sri Lankan Government is failing in its responsibility 
to protect Tamil civilians, and the crisis is continuing. Reports from 
the ground by independent observers indicate that civilian casualties 
continue to rise. The seriousness of the situation points to the need 
for the humanitarian situation to be placed on the agenda of the U.N. 
Security Council, and we would urge the U.S. to seek to do so.

    Question. In your view, would the threat of economic sanctions, 
and/or the promise of economic assistance, be effective in shifting Sri 
Lanka's policy on humanitarian assistance, and encouraging a regional 
peace agreement with the Tamils?

    Answer. The need for humanitarian assistance to reach the displaced 
civilian population in the Vanni is extremely urgent. We believe that 
the best way for the United States to encourage rapid assistance to 
this population would be to offer logistical support to the government, 
both in providing assistance and helping civilians leave the combat 
area, particularly by sea.
                                 ______
                                 

 Letter From Ilankai Tamil Sangam, USA, Inc., Association of Tamils of 
                 Sri Lanka in the USA, Chesterfield, NJ

                                                 February 18, 2009.
    memorandum on the protection of tamil civilians in ne sri lanka
    We, the Tamil American community are greatly concerned for the 
safety of the Tamil civilians in the North East of Sri Lanka. We are 
particularly concerned for the more than 250,000 Tamil internally 
displaced persons (IDPs) who are living in areas not controlled by the 
government and are now in the middle of a war zone with almost no 
humanitarian assistance.
    We strongly support Secretary Clinton's call for both the 
Government of Sri Lanka (GoSL) and the Liberation Tigers of Tamil Eelam 
(LTTE) to agree to a temporary no-fire period in order for aid to reach 
the suffering population and for the ICRC to evacuate urgent medical 
cases. We also urge that humanitarian workers be given immediate full 
access to the conflict area in order to get food and medical assistance 
to the trapped civilians. Furthermore, we insist that safe zones be 
negotiated by both parties and that these safe zones involve U.N. 
monitoring mechanisms to provide assurance of compliance.
    Though there is an acute food and medical shortage, in addition to 
continuous shelling and bombing inside the LTTE-controlled areas 
(resulting in scores killed every day), the majority of these 250,000 
civilians are reluctant to cross over to the government-controlled 
areas.
    On January 23, Stephanie Nolen, a journalist from the Globe and 
Mail wrote: ``The assumption is that all the civilians in the north 
would flee if they could . . . [and while] a few have managed to get 
out . . . awaiting a long and unpleasant `security screening' . . . 
they will live behind thick coils of razor wire, forbidden to leave. 
But no one here is talking about the other line in Vavuniya, the one 
five times as long--the line of people desperate to go back the other 
way. No one admits what it says about the chances for real peace in Sri 
Lanka that so many people see more hope for their families in a war 
zone than in the calm of the government-held side.''
    Robert Evans, the chairman of the European Parliament Delegation 
for Relations with South Asia reiterated this on February 14th when he 
noted: ``The Sri Lankan government has urged Tamil civilians to come 
over to their side for protection, but there is a strong reticence and 
fear of such a move. The Tamil people have seen so much death and 
destruction. They are terrified of Sri Lankan troops and their `holding 
camps,' with all the stories of assaults and rape, not to mention the 
different language and religion which divides the Hindu Tamils from the 
Buddhist Sinhalese troops.''
    Most of the civilians at risk have lived in LTTE-controlled areas 
for a generation. Although there have been allegations that it is the 
LTTE which is putting these civilians at risk, it is counter-intuitive 
that the LTTE would be harming some of the very people who have been 
closest to them. In parallel, these civilians are viewed as threats by 
the GoSL and it is in the GoSL's interests to eliminate as many as 
possible away from the eyes of the world.
    The U.N., India, and the GoSL have called for the immediate 
evacuation of Tamil civilians from the conflict zone for their safety, 
yet Tamil civilians are reluctant
to move into the GoSL's territory. Civilians fear entering government 
territory because:
    (1) There are credible reports in the media that numerous civilians 
are being killed or disappeared when they are ``screened'' by the mono-
ethnic armed forces on entering government territory.
    (2) Civilians are placed in internment camps after being screened, 
where they are guarded by the mono-ethnic armed forces and are at 
further risk of human rights abuses and neglect. The GoSL is asking for 
aid to keep these camps open for up to 3 years.
    For the following reasons, the evacuation of Tamil civilians into 
government internment camps would worsen their situation:
    1. Safely evacuating 250,000 civilians will be impossible when the 
GoSL and the LTTE are firing at each other. Hence the primary need for 
a ``no-fire period.''
    2. Evacuation may well turn the 250,000 or more civilians into 
permanent IDPs who will be unable to return to their homes, but who 
will have to live in internment camps, euphemistically termed ``Welfare 
Centres,'' like the 10,000 Tamil civilians who have been detained near 
the northern city of Vavuniya for many years without any freedom of 
movement.
    3. Amnesty International says, ``Given past experience, there are 
credible fears that those confined in transit centers could be 
vulnerable to enforced disappearances or extrajudicial executions, as 
well as increased targeting of persons, including arbitrary detention 
and harassment on an ethnic basis. There have been reports of several 
hundred cases of disappearance in Sri Lanka since 2006, many of them in 
government-controlled areas.'' Tamil civilians have been killed or 
disappeared at the rate of on average six a day for the past year and a 
half.
    4. Though the GoSL says the U.N. and ICRC have access to these 
camps, in practice this has not happened.
    5. Uprooting over 250,000 ethnic Tamil civilians from their areas 
of habitation and livelihood and placing them in internment camps with 
little hope of return is potentially a form of ethnic cleansing.
    6. The vast majority of the civilians of Vanni area have fled from 
the GoSL armed forces into the 100 sq. km. LTTE-occupied area. If these 
civilians are placed in internment camps, much of the ``cleansed'' 
Vanni will be turned into a High Security Zone, similar to many parts 
of the Jaffna Peninsula and the East, which are swept free of civilians 
and are patrolled by the mono-ethnic Sri Lankan armed forces. The fear 
is also that those areas not declared High Security Zones will be 
colonized by Sinhalese with GoSL assistance.
    For these reasons strengthening the safe zone is a much better 
alternative to evacuation.
    We ask the U.S. Government to assure the protection of our 
relatives, friends, and neighbors in the North East of Sri Lanka by 
helping to:

  <bullet> Initiate a cease-fire;
  <bullet> Negotiate a secure civilian safe zone with international 
        monitors;
  <bullet> Provide full immediate access for humanitarian goods, aid 
        workers, and the press;
  <bullet> End the blockade of goods and services to civilian areas;
  <bullet> Provide neutral international monitoring of the 
        ``screening'' process and internment camps;
  <bullet> Dismantle the internment camps in a short period and assure 
        the return of civilians to their lands and homes.
            Yours Sincerely,
                    Americans for Peace in Sri Lanka; Association of 
                            Sri Lankan Tamils in the USA; Federation of 
                            Tamils of North America; HELP Advocates Sri 
                            Lanka; North Carolinians for Peace; People 
                            for Equality and Relief in Lanka; Tamils 
                            Against Genocide; Tamils for Obama; and 
                            World Tamil Organization.
                                 ______
                                 

 Prepared Statement of Miriam A. Young, Coordinator, U.S. NGO Forum on 
                               Sri Lanka

    Thank you for the opportunity to submit my statement to the 
official record of today's hearing on the situation in Sri Lanka. I am 
very pleased that this hearing is taking place. In the 20 years that I 
have been working on the issue I do not recall a time when a full 
hearing was dedicated to Sri Lanka. It is an indication of the 
seriousness of the crisis in the country today.
    I have worked on human rights, humanitarian, and conflict issues in 
South and Southeast Asia for two decades. I have worked with Cambodian 
refugees, directed health programs for Afghans in Peshawar, Pakistan, 
raised awareness about the situation in Burma and West Papua, advocated 
for the rights of the Uighurs in western China and led delegations to 
witness the referendum in East Timor. All of them, including that of 
Sri Lanka, have suffered from a lack of attention by the international 
community because they do not hold strategic interest for the great 
powers.
    Sri Lanka does not have the international profile of Gaza, Sudan, 
Zimbabwe, or the Congo. But the atrocities taking place there are every 
bit as horrible as in any of these countries well covered in the media.
    What is perhaps the most well-known aspect of the war in Sri Lanka 
is the ruthless efficiency of the Liberation Tigers of Tamil Eelam, 
LTTE, who have perfected the use of the suicide bomber. The long 
running conflict developed following successive failures to address 
minority rights through the political process. Unfortunately for Sri 
Lanka's citizens and possibilities of the war's resolution, the roots 
of the conflict have been lost in the rhetoric of the ``war against 
terror,'' to the extent that Sri Lanka's Government has convinced its 
own citizens and much of the international community that it is 
fighting a terrorist war.
                        humanitarian catastrophe
    A decade ago the International Committee of the Red Cross termed 
the conflict in Sri Lanka the ``No Mercy War.'' There is no truer 
description of the tragedy that is taking place now, as the government 
forces are on the verge of victory, squeezing the LTTE into an ever 
smaller section on the northeast coast of the area called the Vanni. A 
quarter of a million Tamil civilians, most of whom have been displaced 
from their homes multiple times, are caught between the two armies. 
Humanitarian agencies, on which these internally displaced persons, or 
IDPs, depended, have been denied access since September. The civilians 
have no where left to run, and are directly in the crossfire. Due to 
growing cries of concern, the government declared safe zones, to which 
some people were able to flee, but then ignored its own promise and 
continued to bomb and shell the areas. Shells have landed on makeshift 
hospitals, killing and maiming those already sick and injured.
    There is no doubt that the LTTE have prevented the civilians from 
leaving, effectively using them as human shields. They have forced 
people to fight, and shot at those trying to escape the battle zone. 
The government on its side, which is a sovereign state and resents 
outside interference, is flouting international humanitarian law with 
abandon--treating Tamil civilians who don't leave the area as LTTE 
supporters and thus legitimate targets, preventing food and medicine 
from reaching the civilians, detaining those who do escape in 
internment camps, etc.
    I would like to share a few anecdotes from my own recent 
experience. I was in Colombo for a short period in January, arriving on 
the day of the funeral of Lasantha Wickremetunge, the courageous editor 
of the Sunday Leader newspaper and a critic of the government's 
prosecution of the war. Lasantha was assassinated in broad daylight 
near a high security zone in the capital. Several days after I left, 
the editor of a Sinhalese newspaper was attacked on his way to work by 
men on motorbikes, beaten and stabbed, and his wife injured while 
trying to protect him. A week after my return I learned that eight 
journalists had either left the country or were in hiding in fear for 
their lives. Several of my Sri Lankan colleagues have received 
threatening letters and phone calls, or been visited at night by masked 
men on motorbikes. Some humanitarian workers have come down from the 
north in tears over their inability to assist or protect anyone.
               journalists and media freedom under siege
    The climate for journalists is one of the most hostile anywhere in 
the world. While foreign journalists are either denied visas to enter 
the country or are denied access to the conflict zone, Sri Lankan 
journalists risk their lives to report anything other than official 
government propaganda. Sri Lanka ranks 165th out of 173 in the World 
Press Freedom Index by Reporters Without Borders. As Sacha Guney, a 
Canadian free lance journalist, puts it, ``Ruthless, effective control 
of the media has meant that one of Asia's longest-running wars has run 
its course out of sight of all but the soldiers, the unreachable 
civilians in the crossfire, and the dead.''
    J.S. Tissanaiyagam, a prominent Tamil journalist, was detained 
almost 1 year ago under the country's Prevention of Terrorism Act and 
held without charge for 5 months. He was then charged under the PTA for 
an article criticizing the government for its failure to protect 
civilians in war zones. Despite international pressure to release him, 
he remains in prison and has been declared a Prisoner of Conscience by 
Amnesty International.
    Because of the difficulty of access for journalists, most tend to 
report the official statements of both warring sides with the caveat 
that the information cannot be verified. A figure of 70,000 killed over 
the course of the war has been used consistently. With large numbers of 
Sinhalese troops being killed (but not reported), tens of LTTE cadre 
reported killed daily by the Defense Ministry, and at least a thousand 
Tamil civilians killed just during the month of January, not to mention 
ongoing disappearances throughout the country, this number indicates 
serious underreporting. Credible firsthand information is available, 
both from religious organizations and Sri Lankan humanitarian workers, 
who are risking their lives to get information out about what is 
happening.
                       the roots of the conflict
    Sri Lanka's troubles are rooted in the practices of its former 
colonial power, Britain, and in unaddressed political and economic 
injustices following independence in 1948. Unlike India, Sri Lanka did 
not wage a violent struggle for independence. But members of the 
Sinhalese majority in particular resented the long years under 
colonialism that had deprived them of their language and culture, and 
diminished the role of Buddhism in their society. Anti-Western 
sentiment drove the development of a Sinhalese Buddhist nationalist 
ideology. However, what began as anti-Western sentiment and a search 
for identity began to take on an anti-Tamil tone as well.
    As in other colonies, the British had practiced a divide-and-rule 
strategy, favoring the Tamil minority in education and positions in 
their civil administration. Successive post independence Sinhalese 
governments tried to reverse this perceived injustice, instituting 
polices that increasingly put Tamils at a disadvantage for government 
and professional positions. Some of the most polarizing moves were the 
institution of the Sinhalese-only language act in 1956, regulations 
that required Tamil students to achieve higher marks to qualify for 
university admissions, and, in 1972, a new constitution which gave the 
``foremost place'' to Buddhism. Tamil political parties tried to 
redress through the political process, but to no avail. Communal 
violence began in the late 1950s but had its worst outbreak in 1983 in 
an anti-Tamil pogram that killed thousands.
    Calls for greater autonomy for the Tamils led to calls for outright 
secession. A number of armed Tamil groups formed, out of which the LTTE 
emerged as the most militarily efficient, and the long war began. 
Successive periods of peace talks foundered and collapsed for a variety 
of reasons, with each party blaming the other. Each collapse led to a 
resumption of hostilities more fierce and deadly than the last and 
compounding the mistrust among the communities. The ruthlessness of the 
LTTE overshadowed the unresolved legitimate grievances of the Tamil 
population and enabled the Colombo government to sell its war as one to 
rid the country of terrorists. The rights of the Muslim minority are 
seldom even recognized.
    The international community, focused on abuses of the LTTE, such as 
conscription of children, came late to the realization that Sri Lanka's 
security force had become a mirror image of its foe, engaging in 
equally outrageous acts of violence such as killings, disappearances, 
aerial bombing and shelling of civilian areas, and withholding of food 
and medical supplies. The government also used the excuse of war to 
limit democratic freedoms in all parts of the country.
                          the need of the hour
    Over the past months the world has witnessed the increasing 
humanitarian crisis in Sri Lanka. The diplomatic community has 
expressed its concern for civilians caught up in the conflict, but the 
time for expressions of concern is past as lives are literally being 
blown apart each day. There are a variety of figures on the number of 
civilian deaths, averaging 40-100 per day, but this seems very low. The 
critical need of the hour must be to allow access by the U.N. and ICRC 
to the civilians in order to provide the necessary space and to monitor 
their passage away from the war zone. While some civilians have now 
begun coming out, hundreds of thousands remain. Again, there are a 
variety of figures on the number, from 350,000 estimated by aid 
agencies last September, to 250,000 quoted by the U.N., to a mere 
70,000 by the Sri Lanka Government.
    Those civilians coming out are put through two screening processes, 
and then brought to hospitals (severely under-staffed and -supplied) or 
to so-called welfare camps where they have no freedom of movement. It 
is imperative that the United Nations, the ICRC, and international aid 
agencies have full access at all stages, both to assist with 
humanitarian needs and also to provide protection for people who have 
been terrorized by both of the combatants. Sustained vigilance and 
pressure are needed to ensure that the displaced civilians are not 
treated as prisoners and that they are allowed to return to their homes 
as soon as possible.
              political and institutional reform essential
    Attention must also be paid to the aftermath of the war's outcome 
for, as I made clear, this conflict is at its roots a political one, 
and as such requires a political solution. The Rajapakse government has 
made few concrete indications of its commitment to address the 
political grievances of the Tamil minority. Statements by the army 
commander, for example, that Sri Lanka is a Sinhalese country, without 
repudiation from the government, do not inspire confidence. Without 
outside pressure, the danger exists that the government in Colombo will 
not feel the need to genuinely work toward the institutional and 
political reforms necessary if Sri Lanka is ever to enjoy a sustained 
peace.
    Reforms should include protection of minority rights, an end to 
human rights violations including assassinations, disappearances, and 
violence against the media, and an end to impunity. At present no 
domestic institution can guarantee this, which means that some form of 
international monitoring will be urgently required.
                             the u.s. role
    Our Embassy in Colombo has been dedicated to helping find a 
solution to the current crisis and should be applauded. But we need 
active and sustained leadership from the top. Despite the Sri Lankan 
Government's apparent disregard for diplomatic protocol--it has no 
compunction in calling top U.N. officials terrorists and threatening to 
expel foreign diplomats--it is a fact that the U.S. is one of the few 
countries that still retains influence.
     As a leading member of the U.N. Security Council, the U.S. has the 
leverage to demand action on an international level. It must use its 
leadership to bring about a discussion in the Security Council that 
will create the moral and political authority necessary to exert full 
diplomatic pressure on the Government of Sri Lanka to ensure the 
protection of the internally displaced persons and all its citizens.
    Whether or not a country is of strategic interest on the global 
stage, its citizens are no less entitled to the rights and protections 
enshrined in the Universal Declaration of Human Rights, including the 
right to life. This is an opportunity for the new administration to 
reassert this country's moral leadership on behalf of desperately 
vulnerable people.
                    recommendations for u.s. policy
    The United States should:

  <bullet> Call for an immediate cease-fire and insist on full access 
        to the internally displaced people by the U.N., ICRC, and 
        international humanitarian organizations to provide safe 
        passage out of the war zone and throughout the process of 
        assistance and resettlement.
  <bullet> Immediately call for a discussion of the situation in Sri 
        Lanka at the United Nations Security Council.
  <bullet> Press for a U.N. humanitarian assessment mission to the 
        north and for a Special Envoy of the Secretary General.
  <bullet> Support a special session of the Human Rights Council in 
        Geneva.
  <bullet> Use its good offices with India, Japan, China and other 
        nations to encourage the Government of Sri Lanka to adhere to 
        its commitments as a responsible member of the international 
        community.
  <bullet> Consider bilateral action such as withdrawal of IMET if the 
        Government of Sri Lanka continues to violate international 
        humanitarian law.
  <bullet> Review U.S. development assistance to ensure that it is 
        ``conflict sensitive'' and does not contribute to government 
        policies that reassert existing power structures based on 
        violence and military or paramilitary rule or exacerbate deep 
        seated intercommunal tension.
                                 ______
                                 

              Prepared Statement of Karen Parker, Attorney

    Chairman Casey and members of the subcommittee, I am pleased that 
you are concerned about the situation in Sri Lanka and have given me 
this opportunity to provide the subcommittee with information regarding 
this situation and my views on what United States might usefully do. By 
way of introduction I am an attorney specializing in international 
humanitarian (armed conflict) law and human rights. I have participated 
in United Nations human rights forums since 1982, and have addressed 
the situation in Sri Lanka since 1983 on behalf of a number of 
nongovernmental organizations, most recently with the Association of 
Humanitarian Lawyers (AHL) and International Educational Development 
(IED). In 1987 I presented a statement to the House of Representatives 
on the situation in Sri Lanka.\1\ The views expressed in this statement 
are my own and do not necessarily reflect the views of IED or AHL.
---------------------------------------------------------------------------
    \1\ Application of Human Rights and Humanitarian Law to the 
Situation in Sri Lanka: Hearings on Sri Lanka before the Subcomm. on 
Asian and Pacific Affairs of the House Comm. on Foreign Affairs, 100th 
Cong., 1st Sess. (1987).
---------------------------------------------------------------------------
                    brief overview of current crisis
    The 26-year-old armed conflict between the armed forces of the 
Government of Sri Lanka and the Liberation Tigers of Tamil Eelam has 
reached a phase that can only be called genocide-like and catastrophic 
for the Tamil people in the north and east of the island.\2\ As there 
are many incidents on a daily basis and the situation is extremely 
volatile, it is not possible to be either timely or even accurate as 
far as facts and figures. Accordingly, this overview should be accepted 
as snapshots indicating the urgency of the situation. Even so, they 
clearly indicate genocidal acts.\3\
---------------------------------------------------------------------------
    \2\ This is not to say that there are not serious abuses of Tamils 
in other areas, which, as they are taking place in the context of the 
armed conflict, also indicate serious violations of humanitarian law.
    \3\ Former United Nations Secretary General Kofi Annan stated many 
times that whenever there is an ethnic conflict, the question of 
genocide arises. In this situation there are elements such as direct 
killings; imposing impossible conditions of life by severe restrictions 
of food, water, medicines; killing humanitarian aid workers or driving 
them out; and continuous anti-Tamil rhetoric at home and abroad.
---------------------------------------------------------------------------
A. Civilian casualties
    While numbers vary substantially about the number of Tamil 
civilians killed, the most reliable estimates indicate at least more 
than 2,000 in the past several weeks alone. There are many thousands 
with life-threatening injuries and the casualty figures can be expected 
to rise dramatically in the next few weeks due to lack of medical care. 
Casualty figures released in June 2008 for the war indicated more than 
100,000 persons had died, the vast majority of them Tamil civilians.\4\ 
Recently, the health officer for Mullaitivu district indicated at least 
40 Tamil civilians killed and 100 injured per day.\5\
---------------------------------------------------------------------------
    \4\ See British Medical Journal, vol. 336, p1482-1486 (19 June 
2008) (Zaid Obermeyer, et al.).
    \5\ Randeep Ramesh, ``Sri Lanka Casualty Toll Rises,'' The 
Guardian, Feb.14, 2009.
---------------------------------------------------------------------------
B. Illegal military operations
    It is clear that hospitals, safety zones and civilian locales have 
been targeted and the number of casualties indicate blatant disregard 
for humanitarian law standards.\6\ In defending military actions 
against hospitals, Defense Secretary Gotabaya Rajapakse was filmed 
stating: ``No hospitals should operate outside the safety zone . . . 
everything beyond the safety zone is a legitimate target.'' \7\ This is 
an egregious misstatement of the humanitarian law rules. In addition to 
targeting hospitals outside the safety zone, there is also reliable 
evidence that the government's forces continue to targeting hospitals, 
schools and civilian dwellings inside the safety zones and in other 
undefended civilian areas that under humanitarian law rules may not be 
attacked.
---------------------------------------------------------------------------
    \6\ The protection of hospitals and medical care in general is the 
foundation issue of the Geneva Conventions, beginning with the Geneva 
Convention of 1864. Hospitals and other health facilities of both 
combatants and civilians ``may in no circumstances be the object of 
attack.'' Geneva Convention I, Art. 1; Geneva Convention IV, Art. 18. 
Under current rules, parties to conflicts may establish safety zones, 
which then become off-limits for military actions.
    \7\ Interview on Skynet, Feb. 3, 2009.
---------------------------------------------------------------------------
C. Status of relief providers
    Because of fears of attacks as well as because of express orders to 
leave, most relief agencies have left the LTTE-controlled areas and 
much of the area newly under government control as well. It appears 
that Tamils Rehabilitation Organization is the sole-remaining 
international NGO in the LTTE-controlled area. The International 
Committee of the Red Cross (ICRC) was ordered out of the LTTE-
controlled areas by the government and its capacity to attend to the 
needs of Tamil civilians not in the LTTE-controlled areas has been 
dramatically reduced. Its last act was to transport several hundred 
severely wounded out of the area by ship.
D. Shortages of food, water, and medical supplies
    Tamil civilians both inside and outside of the LTTE-controlled 
areas suffer severe shortages of food, water, and basic medical care. 
The primary supplier of food
has been the World Food Programme. WFP's access to the Tamil-controlled 
was curtailed some weeks ago, but after much international pressure on 
the government, a food caravan was allowed into the LTTE-controlled 
area (the Vanni) on February 19 containing 30 tons or an estimated 100 
grams per person/per day, which is grossly inadequate. At the same 
time, the available food and water at the government's IDP camps is 
also grossly inadequate. UNICEF has had emergency feeding centers for 
children who are grossly underweight and facing death by starvation, 
but it is uncertain if they also have been cut back by government 
edict. Tamils in the whole of the north and east have had their 
subsistence farming and fishing severely curtailed for some time due to 
the government's establishment of high security zones (HSZ) which 
effectively remove prime farming and fishing areas from use. In this 
manner, the Tamils in the North especially have already faced serious 
food shortages--many Tamil children are developmentally delayed due to 
lack of food. In any case, all evidence shows that the government is 
denying food, water, and medicine to the Tamil civilian population, 
prohibited by humanitarian law norms and an element of the crime of 
extermination under the Statute and Elements of the International 
Criminal Court.\8\
---------------------------------------------------------------------------
    \8\ See ICC, Rome Statute, Articles 7(1)(b) and 7(2)(b); ICC 
Elements, Article 7(1)(b).
---------------------------------------------------------------------------
E. Status of Tamil civilians
    There has been considerable controversy about the status of Tamil 
civilians both in the LTTE-controlled areas and in the government 
controlled areas. Estimates about the numbers of Tamils in the LTTE 
area vary from 150,000 to over 300,000. At this point, with no 
monitoring of the situation, it is impossible to tell, but given the 
fact that fewer than 60,000 or so have crossed to the government side 
according to the government's figures, the higher number is the more 
likely one. Another controversy is that there are accusations that the 
LTTE is not letting civilians flee and that the government is 
preventing people from entering into its area. Again, with no 
witnesses, it is not possible to verify this accusation. However, it is 
highly likely that many of Tamil civilians in the LTTE-controlled areas 
would be hesitant to turn themselves over to what they consider an 
enemy government.\9\ Many of those in the Vanni had come there the past 
few years after abuses in the government-controlled areas such as 
Jaffna and Trincomalee. Prior to the recent upheaval, monitors who 
surveyed check points both ways found that many entering the Vanni had 
lost relatives to the ``white vans,'' the vehicles that roam the street 
and seize people who are rarely seen again.\10\ Others had been 
arrested and tortured at government police stations. The war began, of 
course, after the Tamil people lost faith in the national government to 
protect their rights, and has been fueled by continued human rights and 
humanitarian law violations against them. Indeed, more than one-third 
of the Tamil civilian population on the island now forms the more than 
1.3 million persons in the burgeoning Tamil diaspora.\11\ Those in the 
LTTE-controlled area also are aware of the IDP camps, and know that 
when they cross the line, that they will be sent to a camp. What is 
apparent is that those crossing into the government-controlled area are 
in severe need of both food and water.
---------------------------------------------------------------------------
    \9\ See, i.e., Robert Evans, MEP, ``Who Can Protect Tamil 
Civilians,'' The Independent, Feb. 14, 2009: ``Whilst the Sri Lankans 
claim that they are merely trying to eliminate terrorism, the real 
victims are, as ever, the civilians trapped by the fighting. All the 
evidence suggests that unless the international community acts very 
soon, about a quarter of a million people could be caught in a ghastly 
bloodbath. The Sri Lankan government has urged Tamil civilians to come 
over to their side for protection, but there is a strong reticence and 
fear of such a move. The Tamil people have seen so much death and 
destruction. They are terrified of Sri Lankan troops and their `holding 
camps,' with all the stories of assaults and rape, not to mention the 
different language and religion which divides the Hindu Tamils from the 
Buddhist Sinhalese troops.''
    \10\ According to United Nations figures, Sri Lanka has one the 
highest numbers of disappeared persons, the vast majority of which are 
Tamils.
    \11\ These Tamils are what are called ``Eelam'' Tamils--Tamils who 
have lived and governed themselves in the north and east of Sri Lanka 
for nearly two thousand years. There are also Tamils in Sri Lanka who 
were brought by the British from India's Tamil Nadu. Usually referred 
to as the plantation Tamils, they are not part of the conflict, 
although they may sympathize with the Eelam Tamils, as do the Tamil 
people in India's Tamil Nadu.
---------------------------------------------------------------------------
    There is also controversy over the government's plans for Tamils 
leaving the Tamil-controlled areas. The government originally announced 
that they would be kept in detention camps for 3 years, but after a 
rather strong reaction from the international community, especially 
from certain U.N. officials and the U.K., the government is now 
claiming that Tamil civilians would be in camps for a shorter, 
unspecified time. Obviously, those crossing the line would be very 
nervous to express their opinion freely while in camps, and are likely 
to say whatever will
keep them the safest under the circumstances, as commonly occurs in 
this type of situation.
F. Weaponry
    There is strong evidence that the government forces may be using 
either illegal weapons or legal weapons in an illegal manner. A recent 
charge was made that 30 families in a safety zone were killed by 
``bunker buster'' bombs. Without proper investigation, it is not 
possible to verify this or to know, if used, the bunker busters are 
B61-11s or the older B61-7s from the United States arsenals, or whether 
they are of different origin. The photographic evidence of cluster bomb 
casings against civilians is inconclusive--it is obvious that the 
markings on the cases is in Russian, but less clear whether the 
photographed casings were from cluster bombs or some other munitions. 
It is unknown if the Russian Federation supplied these munitions or if 
another county did. There appears to be reliable evidence of the use of 
white phosphorus as weapons rather than tracers, or that white 
phosphorus was used with disregard for possible civilian casualties. 
There is also photographic evidence of the use of fire bombs against 
Tamils in camps for internally displaced persons (IDPs). The Government 
of Sri Lanka has received Dvora patrol/attack boats from Israel, MIG-
27s from Ukraine, military assistance and arms from Pakistan and 
military assistance (and possibly weaponry) from Iran and possibly the 
Russian Federation.
G. Monitoring
    The government has refused any monitoring of the conflict by 
international actors and organizations and has prevented the media from 
going to the war area. Note that former President Clinton and former 
U.N. Secretary General Annan were not allowed to the Tamil-controlled 
areas following the tsunami, and, except for the ICRC, now forced out, 
and one or two U.N. officials, no other U.N. mandate holders have been 
allowed to that area. Former U.N. High Commissioner for Human Rights 
Louise Arbour was allowed to travel to the North in 2007, but not to 
Tamil-controlled areas. Her visit to Jaffna was heavily controlled by 
Sri Lanka authorities, and she apparently was not able to meet with 
Tamil civilians in private. There is a clear intent to prevent anyone 
is a position to act from meeting with the LTTE leaders or the people 
who live in the LTTE areas. The head of the U.N. Office for the 
Coordination of Humanitarian Affairs (OCHA), John Holes, was allowed to 
visit several of the IDP camps in Vavuniya during his just-finished 
trip, but he was not allowed to circulate freely and was accompanied by 
the President's brother. In the best of circumstances, this would not 
be conducive to a fair evaluation of the situation. Further, he was 
called a ``terrorist'' by Sinhala politicians following his previous 
visit in August 2007 when he commented on the high number of killings 
of humanitarian workers aiding the Tamil population, so he is apt to be 
cautious. A significant concern is that the interpreter from Tamil to 
English during Mr. Holmes visit to persons in IDP camps was a senior 
minister in the Rajapakse administration, and there is no way to verify 
what interviewees actually said.\12\
---------------------------------------------------------------------------
    \12\ At the time of that visit, more than 60 aid workers had been 
killed in about 1\1/2\ years, the highest in any current conflict.
---------------------------------------------------------------------------
H. Attacks on media
    In the past few years there have been assassinations of many of the 
major Tamil journalists, or journalists that are considered 
``friendly'' to Tamils by the government. The most recent victim of 
this was Lasantha Wickrematunge, killed on January 8, 2009. Mr. 
Wickrematunge, a Time Magazine freelancer and the editor of The Sunday 
Leader, was an outspoken critic of the Government of Sri Lanka. In an 
interview with the BBC's Chris Morris about Mr. Wickrematunge's death, 
Defense Secretary Gotabaya Rajapakse stated that dissent or criticism 
in time of war is treason. Chris Morris fled Sri Lanka on February 2, 
2009, after being called an LTTE supporter by the Defense Secretary. 
Dozens more have fled since then, many receiving aid from international 
media NGOs. In 2008, 12 journalists were killed in Sri Lanka. Sri Lanka 
was identified by Time Magazine as No. 3 on the list of underreported 
stories in 2008 and claimed the war was deadlier than Afghanistan.
                 international responses to the crisis
    There have been a number of actions by both governments and 
international officials since the crisis began in January, although 
since the Rajapakse administration began, there has been increased 
scrutiny of the long war, especially since January 2008 when President 
Rajapakse announced that he was suspending the then-5-year-old cease-
fire agreement. For example, there was a special debate on the Tamil 
genocide in the House of Commons U.K. in October, followed by an 
adjournment debate in the House of Commons on December 18, 2008.\13\ On 
January 23, 2009, Germany called for a cease-fire. Australia has 
indicated that it will provide an additional 4 million Australian 
dollars. The EU issued a call for a cease-fire on February 23, 2009.
---------------------------------------------------------------------------
    \13\ A brief summary of some recent actions undertaken by the U.K. 
was transmitted by Andrew Dinsmore MP (Hendon) to one of his 
constituents, including U.K. actions urging a cease-fire, and pressing 
the Sri Lankan authorities on access for organizations delivering 
humanitarian relief to be both improved and more predictable. There has 
been direct communication by Prime Minister Brown, with follow up by 
David Milliband, to President Rajapakse encouraging cooperation with 
the ICRC and U.N. The U.K. Government is doubling its recent 
humanitarian aid, and cooperating with the U.N. in the Emergency 
Response Fund.
---------------------------------------------------------------------------
    A number of international personages have also called for a cease-
fire and a settlement of the conflict through negotiations. Recently 
Nobel Laureate Jose Ramos Horta offered to mediate. Nobel Laureates 
Desmond Tutu and Martti Ahtisaari have recently spoken out about the 
need for a negotiated political settlement.
    Within the U.N. system, Walter Kalin, the U.N. Independent Expert 
on Internally Displaced Persons issued a statement of concern on 
December 23, 2008. Radhika Coomaraswamy, the Special Advisor to the 
Secretary General on Children and Armed Conflict issued a statement on 
January 21, 2009, and another on February 20, 2009. Navi Pillay, the 
High Commissioner for Human Rights issued a statement on January 29, 
2009. On February 9, 2009, ten mandate holders under the U.N. Human 
Rights Council issued a statement.\14\ OCHA posted a special report on 
February 10, 2009, in which it indicated that the Office of the U.N. 
High Commissioner for Human Rights was preparing to address the needs 
of up to 100,000 IDP and others. UNICEF and the World Food Programme 
are actively involved with providing relief in Sri Lanka, although the 
two specialized agencies cannot operate freely in the Tamil areas and 
the Tamil-controlled areas.
---------------------------------------------------------------------------
    \14\ The statement was issued by experts Sehaggya (human rights 
defenders), La Rue (freedom of expression on opinion, Corcuera Cabezul 
(involuntary disappearances), Castrillo (arbitrary detention), Grover 
(the right to health), Despouy (the independence of justice), 
deSchutter (the right to food), Alston (the right to life), Nowak 
(torture), and Rolnik (housing).
---------------------------------------------------------------------------
    A recent request by Mexico to address Sri Lanka in the Security 
Council was rebuffed by the Russian Federation. Secretary General Ban 
Ki-moon claimed that he could not ask the Security Council to address 
the issue because it was not on the agenda, although Article 99 of the 
U.N. Charter clearly gives him the authority to do so and he has acted 
under Article 99 authority in the past.
    The Tamil diaspora has responded to the crisis with many 
demonstrations. For example, there have been recent demonstrations in 
South Africa, Australia, New Zealand, Washington, DC, New York, San 
Francisco, London, Paris, and Geneva. In Canada there have been several 
massive demonstrations, including a ``human chain'' that surrounded a 
large part of downtown Toronto.
                         united states policies
    United States had little interest and involvement in post-colonial 
Sri Lanka until the Reagan administration, even though there were many 
disturbances between Sinhalas and Tamils from the beginning of that 
period, including four or five widespread massacres of Tamils by 
Sinhala mobs. Regretfully, United States policies that began under the 
Reagan administration have been unhelpful in resolving this situation. 
In 1987 India found out about President Reason's interest in developing 
Trincomalee Harbor to accommodate the United States Navy: a deal had 
been nearly worked out with President Jeyewardene. Wanting to prevent 
this, India entered into the Indo-Sri Lanka Accord (1987) and attached 
a letter of annexure indicating that nothing would transpire with 
Trincomalee that was against the wishes of India. There was perhaps a 
tactical pause under the Clinton administration. After the events of 
September 11, the Bush administration looked again at Trincolamee and 
there are suggestions that Palaly Airfield was also under 
consideration. Both of these are in the Tamil areas, so in order for 
possible bases to be secure, the Tamil question would have to be 
resolved.\15\ However, instead of taking a leadership role in resolving 
the conflict with cooperation of the cochairs and the Sri Lankan 
Monitoring Mission, the Bush administration converted the armed 
conflict in ``terrorism/counterterrorism.'' Thus the conflict was no 
longer reviewed under prevailing humanitarian law, the result of which 
has substantially prolonged the conflict and has done considerable 
damage to humanitarian law itself. Of course, false labeling of armed 
conflicts as ``terrorism/counterterrorism'' does not make the world any 
safer from actual terrorists and, with the demise of humanitarian law 
protections usually results in many more victims of armed conflicts 
than there would otherwise be. Sadly, this is the case in Sri Lanka.
---------------------------------------------------------------------------
    \15\ The importance of Trincomalee was one of the topics under 
discussion in the Adjournment debate of December 18, 2008. The debate 
is on the U.K. Parliament's webcam. That the Bush administration was 
seeking these military bases may be a reason the Russian Federation has 
made overtures to the Rajapakse administration of late and blocked 
Security Council attention to the matter. There apparently is an MOU 
between the Bush administration and President Rajapakse regarding 
Trincomalee.
---------------------------------------------------------------------------
    It is clear that since 1982 the LTTE has met all criteria for 
combatant status according to humanitarian law norms: They have an 
identifiable chain of command; they are in uniform and use the weapons 
and the materiel of war; they have ground, sea and air forces; they 
have exercised sufficient control over territory to be able to engage 
in sustained and concerted military operations; and in all ways meet 
combatant status criteria. This does not mean that to recognize the 
existence of the armed conflict necessarily means a political approval 
of their aims, which, as the LTTE states, is to ensure sufficient 
autonomy if not separation from Sinhala control so as to enable the 
Tamil people to live in peace and security.\16\ Recognizing a war as a 
war also does not extinguish the terrorism question: there is a rule in 
the Geneva Conventions that prohibits ``measures of intimidation or 
terrorism'' against the civilian population.\17\ However, if such 
measures occur, this does not convert combatant forces to terrorists; 
combatants remain under the protection and obligations of humanitarian 
law as long as the conflict is occurring, and in certain cases, for 
some time after the conclusion of hostilities. Both the LTTE and the 
government forces may carry out any military operation that is not 
prohibited in humanitarian law. Many of the military operations in this 
war are legal, but those occurring now that target the Tamil civilian 
population are not.
---------------------------------------------------------------------------
    \16\ Their aims are identical to those of the Kosovans, who have 
obtained the blessing of the United States to secede from Serbia. One 
wonders, why the Kosovans and not the Tamils?
    \17\ Geneva Convention IV, Art. 33. This is slightly augmented by 
Protocol Additional I to the Geneva Conventions, Art. 36: ``Acts or 
threats of violence the primary purpose of which is to spread terror 
among the civilian population are prohibited.''
---------------------------------------------------------------------------
    The conversion of the war into ``terrorism/counterterrorism'' has 
had a number of other serious consequences, one of which is the 
distressful erosion in basic human rights and far too many ``shades of 
gray'' in situations that are actually quite black and white.\18\ But 
an even more serious consequence is that the Tamil people worldwide 
have been so demonized by the constant inferences that ``Tamil = Tiger 
= terrorist,'' mostly by the constant references to this by Sri Lanka's 
President and other authorities, that Tamils have been intimidated and 
have lost the key support of institutions and groups who ordinarily 
would be sympathetic.\19\ Any public show of sympathy for Tamils is 
fiercely and publicly countered by the government, targeting, inter 
alia, more than a few Members of Congress in the United States and 
members of Parliaments in numerous other countries. Sri Lanka 
representatives try to intimidate NGOs at United Nations human rights 
sessions.\20\ They also pursue Tamils in the diaspora, and even try to 
prevent local authorities from issuing permits for Tamil 
demonstrations. In the United States there is a mood that somehow the 
Tamil people as a whole are an enemy of the United States. In my 27 
years working on humanitarian law issues, I have never encountered a 
situation where an ethnic group that has been the victim of the most 
serious of human rights and humanitarian law violations becomes the 
culprit--and in ways that are overtly racist. Indeed, it is not 
possible for people to discuss any other group in this fashion without 
receiving instant disapproval.
---------------------------------------------------------------------------
    \18\ Treating persons suspected of being terrorists as being 
Prisoners of War (Guantanamo comes to mind) and held under Geneva 
Convention standards when they are clearly not captured combatants, for 
example, is absurd: the ``war on terrorism'' is a rhetorical phrase, 
not a factual one.
    \19\ Note that even M.I.A., the Tamil rap star nominated for a 
Golden Globe and an Oscar, was attacked by some for being proterrorism. 
A college student in Canada told me that after the Harper government 
came to power and ``listed'' the LTTE, a professor announced in one of 
her classes that there was a terrorist in the room.
    \20\ Note that some also raise the ``child soldier'' issue, which 
further demonizes of the Tamil people although the charge is leveled at 
the LTTE and others. However, the international minimum age for 
soldiers as set out in the Geneva Conventions is 15, and those who 
raise the issue are using age 18 as the minimum.
---------------------------------------------------------------------------
    There are some hopeful signs that the new United States 
administration will play an affirmative role in the situation rather 
than a grossly negative one. Both President Obama and Secretary of 
State Clinton have made statements that indicate more careful 
reflection on this and similar situations.
                            recommendations
    1. The first thing that the United States should do is call for an 
immediate cease-fire, and then should most forcefully present this to 
the Rajapakse administration. While the Rajapakse administration has 
stated as recently as a few days ago it would not do so, it is 
difficult to imagine that with the combined force of the U.S., the rest 
of the cochairs and the rest of the ``Western and Other'' bloc at the 
U.N., Sri Lanka's main ``donor'' states, that Sri Lanka would be 
defiant. While Sri Lanka may have received assurances from Iran and the 
Russian Federation, for example, that they would cover Sri Lanka's 
needs, it does not seem likely that they can substitute for the level 
of aid from the Western bloc and Japan.
    2. The United States should ensure that no state that receives 
United States military assistance provides arms to the government 
forces. The United States should also seek to stop arms delivery to the 
Government of Sri Lanka by any other countries.
    3. The United States should take a leadership role in ensuring that 
the humanitarian needs of the Tamil civilians are met, that Tamil 
civilians are not relocated to detention camps but are allowed freely 
to resettle in their own locales, and that the human rights abuses 
against them cease immediately. In particular, the United States should 
ensure that its contribution to the rehabilitation of the Tamil areas 
reflect a genuine desire to assist. The United States should ensure 
that any funds donated by Tamil people to assist Sri Lanka Tamils that 
have been ``frozen'' be made available for the purpose of assisting 
these Tamils.
    4. The United States should most forcefully insist that on-site 
visits to any and all areas of Sri Lanka by U.N. officials or other 
impartial persons take place, and that interpreters for such visits are 
trained and impartial. The United States should also insist that Sri 
Lanka allow the United Nations High Commissioner for Human Rights to 
expand her office in Sri Lanka.
    5. The United States should ask the Government of Sri Lanka what 
proposals they have for the resolution of the Tamil issue. The United 
States should consult regularly with the leadership of the Tamil 
diaspora, both in the United States and in other countries, to invite 
comments and suggestions on proposals. The United States should 
encourage the Government of Sri Lanka to accept the good offices of 
mediators such as those mentioned above.
    6. The United States should ensure that the Government of Sri Lanka 
ceases all anti-Tamil rhetoric at home and abroad and that it finds a 
way to prevent Sinhala political parties (such as the JHU) from also 
engaging in anti-Tamil rhetoric that has so often incited Sinhala mob 
attacks on Tamils and those perceived as ``pro-Tamil.'' The United 
States should ensure that the Government of Sri Lanka ceases all acts 
against Tamil American citizens or residents or anyone else perceived 
as being ``pro-Tamil.''
    7. The United States should reexamine its foreign policy objectives 
in Sri Lanka and the area, and take steps to ensure that United States 
policies do not contribute to human rights and humanitarian law 
violations of any kind, and especially not of the scale and scope of 
those against the Tamil people in Sri Lanka.
                                 ______
                                 

  Prepared Statement of Bruce Fein, Attorney, Tamils Against Genocide

    Dear Mr. Chairman and members of the subcommittee, I welcome the 
opportunity to share my views on the recent violence in Sri Lanka; and, 
to make recommendations as to how the United States should respond to 
diminish or end the daily horrors inflicted on innocent civilians 
outside any conceivable war zone.

I. The Government of Sri Lanka (GOSL) has compounded the difficulty of 
knowing what is happening by an impenetrable media blackout and 
eviction of all outside observers.

    Best estimates from neutral persons in Sri Lanka place the death 
toll of innocent Tamil civilians in the predominantly Tamil northeast 
over the past 2 months at more than 2,000. The number of injured 
probably exceeds 10,000. The number of displaced persons most likely 
approximates 350,000. None of these figures, however, can be confirmed 
at present with direct testimony. The Sinhalese Buddhist GOSL is the 
reason we are reduced to conjecture. It has imposed a media blackout. 
It has evicted all NGOs. It has evicted all humanitarian aid workers. 
It has evicted the Sri Lanka Monitoring Mission. It has evicted the 
International Committee of the Red Cross. No independent news reporter 
or neutral witness may observe the conflict between the all Sinhalese 
``Tamil free'' armed forces and security services of Sri Lanka and the 
Tamil Tigers. Neither are there outside eyewitnesses to the 
indiscriminate violence that rains down daily on innocent Tamil 
civilians whether in hospitals, temples, churches, schools, or ``safe 
zones''--an Orwellian term to describe the forced concentration of 
Tamil civilians into a tiny area to increase the efficiency of their 
physical destruction in whole or in substantial part by the Sinhalese 
majority.
    The GOSL accuses the Tamil Tigers of responsibility for the 
atrocities and worse against Tamil civilians. The LTTE and Tamil 
civilians maintain the opposite. Who is telling the truth? There can be 
no conclusive answer based on direct eyewitness testimony because the 
GOSL has compounded the fog of war with the fog of censorship--making 
the Tamil northeast a virtual black hole. If the GOSL's assertions were 
true about LTTE culpability in the killings of Tamil civilians, it 
would have all the incentive in the world to lift both the censorship 
and the media blackout and place the northeast under a public 
spotlight. It has hundreds of military camps in the north and 
northeast. Its roadblocks are omnipresent. It controls population 
movements more tightly through National Identity Cards and otherwise 
than South Africa did during apartheid. It could easily create safe 
passage for foreign reporters and NGOs to testify about responsibility 
for the grim Tamil civilian casualties and conditions of life.
    From the circumstance that the Sinhalese Buddhist GOSL has drawn a 
figurative iron curtain around the northeast and the so-called ``safety 
zone,'' a persuasive inference can be drawn that it is hiding something 
terrible: its primary or complete responsibility for the recent ongoing 
murders and sister atrocities against Tamil civilians.

II. A page of history is worth volumes of logic.

    Accordingly, to understand Sri Lanka's contemporary ethnic 
conflict, the history of Sinhalese Buddhist persecution of Tamil Hindu/
Christians must be briefly recounted.
    Sri Lanka's Tamils in the Jaffna Peninsula and in the North-East 
have been victims of Sinhalese Buddhist persecution and genocide since 
independence 61 years ago. Sri Lanka uniquely sports a culture of 
genocide. But for a few quislings and Tamils willing to accept 
vassalage or serfdom, every living Tamil in the Jaffna Peninsula and 
the North-East has been displaced, physically injured, or persecuted by 
the Sinhalese Buddhist majority--an unprecedented victimization rate 
approaching 100 percent.
    A genocidal culture seeks to destroy a minority racial, ethnic, or 
religious group not only by extrajudicial killings, but also by 
disintegrating their political and social institutions, language, 
national identity, religion, and economic existence; undermining their 
personal security, liberty, health, education, communications, mobility 
and dignity; and, creating a permanent state of psychological or 
emotional trauma or anxiety through never-ending displacements or 
otherwise.
    Sri Lanka's culture of genocide was born in part from a paranoid 
imagination that more than 50 million Tamils from Tamil Nadu state in 
India would be perpetually plotting to overrun Sri Lanka's Sinhalese 
Buddhists by sheer numbers. Building on that fear, three elements 
combined. The first was the Mahavamsa, the Sinhalese Buddhist 
equivalent of the Christian New Testament or the Muslim Holy Koran. The 
Mahavamsa myths teach that Sinhalese Buddhists are the sole rightful 
occupiers of Sri Lanka; and, that Tamils and all others are inferior 
interlopers who must be destroyed to honor Buddha.
    The second was the Buddhist monk dogma that religion and state were 
indivisible; and, that Sinhalese Buddhism and politics on the island 
should merge.
    The third was the Sinhalese Buddhist racial supremacist doctrines 
of the venerated Sinhalese Buddhist monk Dharmapala. They exalted a 
pure Sinhalese Buddhist race in Sri Lanka to the exclusion of all 
others. The race purity creed surfaced contemporaneously with Hitler's 
goal of making Nazi Germany pure Aryan.
    Reminiscent of white racist politicians in the South during Jim 
Crow in the United States, Sri Lankan prime ministerial or Presidential 
candidates routinely pledge to be more genocidal toward Tamils than 
their campaign rivals to win Sinhalese Buddhist votes. Each political 
contest culminates in higher plateaus of Tamil genocide than had been 
set by its predecessor.
    At independence, Sri Lanka's population was then generally divided 
into two ethnic-religious groups. The commanding majority were 
Sinhalese Buddhists with a smattering of Sinhalese Christians. They 
constituted an approximately 77 percent voting majority, and resided 
predominately in the west and south. Tamil Hindus with a small 
percentage of Tamil Christians comprised approximately 18 percent of 
the population. They resided primarily in the north and east. The 
remainder consisted of Tamil-speaking Muslims who largely resided in 
the east.
    Like Jews in Nazi Germany, Tamils are excluded from service in the 
Sri Lankan armed forces, security services, or law enforcement 
agencies. In the Jaffna Peninsula and the North-East, Tamils are 
exposed to conditions of life intended to lead to their physical 
destruction in whole or in substantial part. Those conditions include, 
but are not limited to, starvation; malnutrition; disease; chronic 
displacements; lack of housing, medical care, education, and 
communications; abject poverty, and permanent physical and economic 
insecurity.
    Since Sri Lanka's birth, only one nontrivial crime perpetrated by a 
Sinhalese Buddhist against a Tamil has ever been prosecuted and 
seriously punished; and, no Tamil has ever been compensated for 
injuries inflicted by the GOSL for its orchestrated riots or crimes.
    Long before the LTTE came into being, Tamils had been viciously 
persecuted and slaughtered by Sri Lanka's Sinhalese Buddhist majority 
with impunity. Mahatma Gandhi-like peaceful protests by Tamils against 
subjugation were answered with brutality.
    In 1956, the Sinhalese-Buddhist majority enacted the ``Sinhala Only 
Act.'' It made Sinhalese the exclusive official language of Sri Lanka 
and stripped the Tamil language of equal dignity or respect. The 
exaltation of Sinhalese severely compromised the ability of Tamils to 
compete professionally, academically, and politically, and handicapped 
their legal protection because all complaints or testimonies must be in 
Sinhalese.
    Two hundred Tamils peacefully assembled on Galle Face Green, which 
faces the Sri Lankan Parliament, to protest the Sinhala Only Act on 
June 5, 1956. Led by junior minister Rajaratna, Sinhalese mobsters 
attacked the Tamils and pelted the protestors with stones while the 
Sinhala police gazed on in amusement. Rioting against Tamils soon 
spread nationwide, including the major cities of Colombo, Batticaloa, 
Trincomalee, and Gal Oya. When the rioting ended, approximately 150 
Tamils were dead. The GOSL neither attempted to prosecute the Sinhalese 
attackers nor compensated the Tamil victims. No apology for the rioting 
was offered.
    After the conflict with the LTTE commenced, the Sinhalese Buddhist 
GOSL routinely responded to military attacks by massacring the Tamil 
civilian population, like Hitler's destruction of Lidice in World War 
II. ``Black July'' of 1983 was emblematic.
    In response to an LTTE attack in the Jaffna Peninsula on Sri 
Lanka's Army that killed 13 soldiers, the GOSL orchestrated the mass 
murder of Tamil civilians and destruction of their properties. They 
were removed from buses and cars to be hacked and burned alive. In 
Colombo alone, more than 2,000 were slaughtered and 70,000 displaced. 
Elsewhere, more than 1,000 were slain and 150,000 were displaced and 
driven into refugee camps. When the rioting concluded, 18,000 homes had 
been damaged, 20,000 Tamil shops had been ravaged, and more than 100 
Tamil industrial plants had been destroyed. In Jaffna alone, 175 homes 
had been set ablaze by policemen. Thirty-nine Hindu and Tamil places of 
worship were destroyed. No Sinhalese Buddhist culprit was prosecuted, 
and, no Tamil victim was compensated. Then GOSL President Jaywardene 
sneered to a British reporter in an interview republished in the 
government-run Sunday Observer on July 17: ``I am not worried about the 
opinion of the Jaffna [Tamil] people now . . . Now we can't think of 
them. Not about their lives or their opinion about us.''

III. Violence perpetrated by the incumbent Sinhalese Buddhist 
Government of Sri Lanka against Tamil civilians has crossed the line 
into genocide, which justified a criminal investigation under United 
States laws.

    The crime of genocide under the United States Genocide 
Accountability Act of 2007 (GAA) is defined as physically destroying or 
attempting to destroy in whole or in substantial part a racial, ethnic, 
religious or national group, as such, through extrajudicial killings, 
serious bodily injury, or the creation of conditions of life intended 
to cause the physical destruction of the targeted group.
    In spearheading the enactment of the GAA, Senator Richard Durbin 
(D-IL), had in mind the cases of U.S. dual citizen Gotabaya Rajapaksa, 
Sri Lanka's Defense Secretary, and U.S. permanent resident Sarath 
Fonseka, Sri Lanka's Army Commander. The Senator elaborated: ``What we 
are saying to those around the world who are engaged in uncivilized and 
barbaric conduct is do not even consider coming to the United States as 
your retirement home . . . There is no place for you to hide.'' Then 
Senators Barack Obama (D-IL), Joseph Biden (D-DE), and Hillary Clinton 
(D-NY) supported Senator Durbin and the GAA.
    On February 5, 2009, I had delivered to U.S. Attorney General Eric 
H. Holder a three-volume, 1,000-page model 12-count genocide indictment 
against Rajapaksa and Fonseka charging violations of the GAA. (An 
executive summary is attached as Exhibit 1). Derived from affidavits, 
court documents, and contemporaneous media reporting, the indictment 
chronicles a tale of Sinhalese Buddhists attempting to make Sri Lanka 
``Tamil free.'' Rajapaksa and Fonseka assumed their current offices in 
December 2005. They exercise command responsibility over Sri Lanka's 
mono-ethnic Sinhalese security forces. On their watch, they have 
attempted to physically destroy Tamils in whole or in substantial part 
through more than 3,800 extrajudicial killings or disappearances; the 
infliction of serious bodily injury on tens of thousands; and, the 
creation of conditions of life intended to lead to the physical 
destruction of Tamil civilians, including starvation, withholding 
medicines and hospital care, humanitarian aid embargoes, bombing and 
artillery shelling of schools, hospitals, churches, temples; and, the 
displacements of more than 1.3 million civilians into camps, which were 
then bombed and shelled. This degree of mayhem inflicted on the Tamil 
civilian population because of ethnicity or religion ranks with the 
atrocities in Bosnia and Kosovo that occasioned genocide indictments 
against Serbs by the International Tribunal for the Former Yugoslavia.
    During the past 2 months, a virtual reenactment of the Bosnian 
Srebrenica genocide of more than 7,000 Muslims has unfolded. Sri 
Lanka's armed forces employed indiscriminate bombing and shelling to 
herd 350,000 Tamil civilians into a government-prescribed ``safe 
zone,'' a euphemism for Tamil killing fields. There, more than 2,000 
have been slaughtered and a greater number have been injured by 
continued bombing and shelling. As a preliminary to the horror, roads 
and medical aid were blocked and humanitarian workers and all media 
were expelled. During a BBC radio interview on February 2, 2009, 
Rajapaksa declared that outside the ``safe zone'' nothing should 
``exist.'' A hospital was repeatedly bombed killing scores of patients. 
Rajapaksa further proclaimed that in Sri Lanka any person not involved 
in fighting on behalf of the Government of Sri Lanka was a terrorist, 
and that any person who criticized the GOSL should anticipate a death 
squad. General Fonseka is no less definitive that Sri Lanka is 
Sinhalese Buddhist (not a multiethnic) nation. In a September 23, 2008, 
interview with Stewart Bell of the Canadian National Post, Fonseka 
conceded: ``I strongly believe that this country belongs to the 
Sinhalese. . . . ''
    Under Article 5 of the Genocide Convention of 1948, ratified by the 
United States Senate in 1986, the United States is obligated to provide 
``effective penalties'' for genocide. That imposes an obligation on 
signatory parties to investigate and to prosecute credible charges.
    The predictable GOSL defense of counterterrorism will not wash. Not 
a single Tamil victim identified in the genocide indictment was 
involved in the longstanding ethnic civil war between the Government of 
Sri Lanka and the LTTE--including the victims who were attacked in 
hospitals, schools, temples, churches, and displaced person camps.
    Former Secretary of State Madeleine Albright and former Secretary 
of Defense William Cohen recently published a report placing genocide 
on the national security agenda. The State Department lists Sri Lanka 
as an investigatory target in its Office of War Crimes. The New York-
based Genocide Prevention Project last December labeled Sri Lanka as a 
country of ``highest concern.'' President Barack Obama has made the 
case for military intervention in Sudan or elsewhere to stop 
atrocities. The justification for opening a genocide investigation of 
citizen Rajapaksa and permanent resident Fonseka is thus compelling. In 
addition, an investigation or indictment, despite little current 
prospect of extradition from Sri Lanka for trial in the United States, 
would probably deter the GOSL from some of its most gruesome killing 
tactics.

IV. Recommendations for stopping the genocide or slaughter of Tamil 
civilians by the Sinhalese Buddhist GOSL.

    I would suggest the United States consider the following measures:

  <bullet> Seek an international arms embargo on Sri Lanka in the 
        United Nations Security Council under Chapter 7 of the United 
        Nations Charter;
  <bullet> List Sri Lanka (along with Sudan, Iran, Syria, and Cuba) as 
        a state sponsor of terrorism under United States laws, which 
        would trigger various sanctions;
  <bullet> Freeze the United States assets of Gotabhaya Rajapaksa and 
        Sarath Fonseka;
  <bullet> Deny visas to the GOSL leadership, including President 
        Mahinda Rajapaksa;
  <bullet> Vote against economic aid to the GOSL at the World Bank and 
        IMF;
  <bullet> Deny Sri Lankan goods favorable tariff treatment;
  <bullet> List Mahinda Rajapaksa, Gotabhaya Rajapaksa, and Sarath 
        Fonseka as specially designated terrorists under Executive 
        Order 13224;
  <bullet> Support a ``One country, two systems'' political solution to 
        the ethnic conflict in Sri Lanka;
  <bullet> Withdraw the United State Ambassador from Colombo until the 
        genocide and indiscriminate killing of Tamil civilians by the 
        Sinhalese Buddhist GOSL ceases.
                               conclusion
    For decades, the primary horrors in Sri Lanka have been inflicted 
on Tamil civilians by the GOSL. Like triage, their plight should be 
addressed first though genocide prosecutions or otherwise.

                               EXHIBIT 1

                           Executive Summary

model indictment charging u.s. citizen and sri lankan defense secretary 
       and u.s. permanent resident and commander of armed forces
    Bruce Fein, attorney for Tamils Against Genocide (TAG), has 
gathered evidence that the crime of genocide under United States law 
has been committed against the indigenous civilian Tamil population of 
Sri Lanka outside of any conceivable war or conflict zone, for example, 
temples, churches, schools, or hospitals. The evidence is collected in 
a three-volume, 1,000 page prod model indictment which charges U.S. 
citizen and Sri Lankan Defense Secretary, Gotabaya Rajapaksa, and U.S. 
permanent resident and Commander of the Sri Lanka Army, Lt. General 
Saratha Fonseka, with 12 counts of genocide, and 106 counts of war 
crimes and torture, in violation of U.S. domestic statutes 18 U.S.C. 
Sec. 1091, 18 U.S.C. Sec. 2441, and 18 U.S.C. Sec. 2340A.
    TAG submitted the model indictment to the U.S. Department of 
Justice on February 5, 2009, for the U.S. Attorney General to initiate 
a grand jury investigation aimed at filing a federal criminal case in 
the U.S. District Court for the Central District of California.
    A recent U.S. statute now makes it a crime for U.S. citizens and 
permanent residents to be responsible for the crime of genocide 
committed even outside U.S. borders. If filed, this case would be the 
first test of the United States Genocide Accountability Act of 2007 
sponsored by Senator Richard Durbin (D-IL), and supported by then 
Senators Barack Obama (D-IL), Joseph Biden (D-DE) and Hillary Clinton 
(D-NY)
    The Sinhala-dominated government has discriminated against and 
persecuted the civilian Tamils of Sri Lanka since independence in 1948. 
Since the ethnic conflict erupted between the Sri Lankan armed forces 
and Tamil rebels in 1983, the Tamil areas of the North-East have been 
subjected to harrowing destruction. The Tamil people there have been 
indiscriminately killed, disappeared, kidnapped, raped, and otherwise 
persecuted with the intent to destroy Tamil groups in whole or in 
substantial part because they are not Sinhalese Buddhists.
      command responsibility for genocide, war crimes and torture
    The model indictment organizes all relevant crimes committed 
against Tamils in Sri Lanka between December 5, 2005 and January 29, 
2009. By compiling legal evidence, this document intends to prove that 
the defendants are individually criminally responsible for genocide, 
war crimes, and torture as recognized and punishable under U.S. 
domestic law. Genocide is the deliberate and systematic destruction or 
attempted destruction, in whole or in substantial part, of an ethnic, 
racial, religious, or national group, as such. War crimes are the 
violation of the laws and customs of war and include the murder, ill-
treatment or deportation of civilians, the wanton destruction of 
cities, towns, and villages, and any devastation not justified by 
military necessity.
    As detailed in the model indictment, the specific crimes of 
genocide, war crimes, and torture committed against Tamils during the 
period from December 5, 2005 to January 29, 2009 (Eelam War IV), from 
the gang-rape of Tharshini Illayathamby to the Sencholai school 
bombing, were committed under the military command responsibility of 
the defendants through the following nonexhaustive list of methods 
which were systematically employed in Sri Lanka by the Sri Lankan armed 
forces and government-sponsored paramilitaries: Murder, massacre, 
torture, mutilation and maiming, disappearance, abduction, rape, gang-
rape, sexual abuse and assault, arbitrary or indefinite detention, 
indiscriminate aerial bombardment, indiscriminate artillery shelling, a 
permanent cycle of displacement and redisplacement, starvation, 
deprivation of essential goods, medicine, education and public 
services, harassment, intimidation, and other stark conditions of life 
intended to cause the physical destruction of Tamil groups in whole or 
in substantial part.
    These crimes have brought the Sri Lankan Tamil community to 
substantial physical destruction, as the model indictment details:

  <bullet> ``Every living Tamil in the Jaffna Peninsula and the North-
        East has been displaced, physically injured, and/or persecuted 
        by the Sinhalese Buddhist majority--an unprecedented 
        victimization rate approaching 100 percent.''
  <bullet> ``During more than two decades of war, including Eelam War 
        IV, in predominantly Northeastern provincial territories, all 
        Hindu/Christian North-East Sri Lankan Tamil villages have been 
        fully depopulated at least once.'' ``The economic blockade and 
        military attacks worked in tandem with a media blackout, and 
        confinement of Tamil civilians in the North-East intensified. 
        The GOSL continued their genocidal strategy of killing Tamils 
        in concentrated locations and imposing stringent conditions of 
        life with shortages of food, medicine, energy, or housing to 
        destroy Tamils physically through starvation, malnutrition, 
        disease, and exposure to the elements.''
  <bullet> In one 4-year period alone ``Sri Lankan forces destroyed 
        150,000 homes, created 6,000 widows, orphaned 4,000 children in 
        the North-East, damaged 700 temples through bombings, and 
        removed various icons or holy Hindu images from 63 temples.''
  <bullet> ``Poverty, displacement, and garrisoning of entire towns and 
        villages by Sri Lanka's armed forces caused Jaffna's student 
        population to plunge by 100,000 since 1995, the Government 
        Agent for the northern district reported. Before Eelam III, the 
        student population in Jaffna was 240,000. By 2004, it had 
        dropped to 140,000.''
  <bullet> ``Genocide [was also accomplished] in Jaffna and the North-
        East, respectively, in part through colonization, 
        militarization, and Sinhalization.'' A population which had 
        some of the best indicators of civilian well-being in South 
        Asia, including literacy and infant mortality rates has now 
        become one of the poorest areas. For instance, ``In 1991, of 
        the total 148,080 tons of essential foods needed in Jaffna, 
        only 43,080 tons were supplied--a 71-percent shortfall. Paddy 
        production plunged 83 percent.'' ``Before Eelam War II and the 
        blockade, 700-1,000 tons of food was unloaded annually at Point 
        Pedro Port in Jaffna; during Eelam War II, that quantify fell 
        to 100 tons.'' ``The fishing sector provided subsistence and 
        livelihoods for 200,000 Tamils. Annual fish production in this 
        sector fell from 104,300 tons to 1,094 tons, a drop of 98.95 
        percent, occasioned by national security restrictions. Local 
        consumption before the blockade annually required 6,605 tons of 
        fish. Only 16.6 percent of that tonnage was caught after 
        1990.'' In 2002, ``[t]he SLA destroyed 50,000 palmyra trees on 
        the route joining Thalaimannar to Mannar. Approximately 40,000 
        Tamil families depend on palmyra plantations while another 
        25,000 families' livelihood depends on toddy production, 
        handicrafts, as well as other tree products.'' ``In the 10 
        months from June 1990 to April 1991, North-Eastern hospitals 
        required 220 million rupees to operate, but the GOSL only 
        supplied 7 percent--15 million--of the required amount, and did 
        so irregularly.'' During the same period, ``Amparai, whose 
        Sinhala population had risen since independence due to state-
        sponsored colonization, received funding and treatment for 90 
        percent of their needs.'' ``In the Jaffna Peninsula, for 
        example, the SLA's Operation Whirlwind in May 1992 bombed eight 
        hospitals and surrounding infrastructure.''
  <bullet> ``The Mannar Bishop and human rights activists lamented [in 
        1998] that the CSU [Counter Subversive Unit] habitually arrests 
        women such as Sivamani and Wijikala from various parts of the 
        Mannar district to rape and exploit brutally under the pretext 
        of interrogation and extended detention pursuant to the 
        Prevention of Terrorism Act and the Emergency Regulations.''
  <bullet> Colonization of Sinhalese into Tamil areas has continued 
        apace. For instance, ``The GOSL began construction of a 
        Buddhist shrine in Vilankulam, a traditional Tamil village in 
        2002 . . . In a companion act of religious bigotry, [nearby, 2 
        weeks later] the GOSL banned renovation of the historic Hindu 
        temple at Kanniya, in Trincomalee.'' In 2007, ``[w]hile a 
        majority of the 222 Tamil families from the traditionally all 
        Tamil Raalkuli village in Muthur division in Trincomalee 
        District had been displaced due to SLA and SLAF attacks, by 
        this date, a Colombo-based Buddhist organization laid the 
        foundation stone for 138 houses intended for the settlement of 
        Sinhala-Buddhist civilians in the village.''
  <bullet> ``The fact is that not a single member of the security 
        forces had, at the date of the Mission, been convicted of 
        murder . . . A culture of impunity has developed, with 
        perpetrators of grave violations being convicted of minor 
        offenses or, in most cases, not at all.''--Centre for the 
        Independence of Judges and Lawyers in Geneva, 1997. ``Torture 
        has been facilitated by widespread impunity of the 
        perpetrators. To date, no member of the security forces has 
        been brought to justice for committing torture."--Amnesty 
        International, 1998

    The Eelam War IV genocidal motivation can be understood only when 
juxtaposed with the post-independence pattern of facts and historical 
events which show the persistent intent of successive democratically 
elected Sinhala-Buddhist regimes to commit deliberate acts of genocide 
with the intent to destroy in whole or in substantial part the Hindu/
Christian North-East Sri Lankan Tamil national, ethnic, racial, 
religious group, as such, in the North-East provincial territories of 
Sri Lanka, which includes the heavily populated Jaffna Peninsula.
                        genocide and war crimes
    Proof of genocidal motivation is occasionally direct, as with 
Defendant Fonseka's assertion that Sri Lanka is a Sinhalese nation--not 
a multiethnic nation. Other evidence of motivation is circumstantial, 
for example, no Tamils serve in the security forces; and no Sinhalese 
Buddhist perpetrator of extrajudicial killings, torture, rape, and 
other atrocities has ever been both prosecuted and punished in more 
than 60 years, with one minor exception.
    Twelve counts of genocide are charged in the model indictment, 
followed by 106 counts of war crimes and torture. These introduce the 
option of legal action which charges the defendants for acts of war 
crimes and acts of torture where, unlike the counts of genocide, the 
proof of intent to physically destroy on whole or in substantial part a 
Tamil group is not required.
    The indictment charges violations of U.S. criminal laws, not 
international law. The institutions entrusted with enforcing 
international criminal prohibitions, for instance, the International 
Criminal Court or the International Court of Justice, are routinely 
hijacked by big-power politics. China would frustrate any effort to 
call the Defendants to account before international bodies, just as it 
has for its own crimes against Tibetans or Uighurs.
    Recourse is being made to prosecuting these crimes in U.S. courts 
because the Government of Sri Lanka, controlled by the island's 
Sinhala-Buddhist majority, has been an impediment to delivering any 
justice for crimes against Tamils in Sri Lanka. Further, the defendants 
are a U.S. citizen and U.S. permanent resident, whom the United States 
has a special responsibility for prosecuting under the Genocide 
Convention of 1948, which was ratified by the U.S. Senate in 1986. 
United States courts are fiercely independent, and will not be 
distracted in a genocide prosecution about arguments over the listing 
of the LTTE as a terrorist organization or other irrelevancies to the 
crime that the defendants would attempt to interject.
The Counts
            Genocide Counts
    The charges of genocide in the model indictment are separated into 
12 counts as discernable by the differing methods of genocide in 
different territorial areas of North-East Sri Lanka. The 12 counts of 
genocide are comprised of 5 region-level counts and 6 village-cluster 
levels of genocide. The 5 regions are listed below:
            Region-Level Genocide
    1. Non-Government-Controlled Northern Territory (NGNT): Vanni 
Region, which includes Mullaithivu and Kilinochchi districts (as of 
January 2008).
    2. Government-Controlled Northern Territory 1 (GNT-1): Jaffna 
Peninsula that includes the Jaffna district and the Jaffna islets.
    3. Government-Controlled Northern Territory 2 (GNT-2): Vavuniya 
District, Mullaithivu District and Mannar District.
    4. Eastern Territory (ET): Trincomalee District, Batticaloa 
District, Amparai District.
    5. Southern Territory (ST): Western Province, Central Province, 
Sabaragumuwa Province, and the Southern Province.
            Village Cluster-Level Genocide
    The 6 village clusters of the village-cluster level genocide counts 
6-11, whose villages where acts of genocide occurred are listed in the 
charging section of the model indictment are
          a. Sampoor village cluster;
          b. Mannar/Manthai village cluster;
          c. Vavuniya North village cluster;
          d. Mullaithivu South village cluster;
          e. Poonakari village cluster;
          f. Pallai-Vadamaradchi East village cluster.
                         war crimes and torture
    The war crimes under the War Crimes Act of 1996 and the U.S. 
criminal prohibition of torture in fulfillment of the Convention 
Against Torture listed in this model indictment are not comprehensive. 
They will be supplemented with new evidence that TAG expects to be 
generated by the model indictment example. In U.S law, the new charges 
would be contained in what is called a ``superseding indictment.''
    In this model indictment, there are 106 counts of war crimes and 
torture. Each act of torture, murder, rape, mutilation or maiming, 
sexual abuse or abuse, is charged separately by individual.
    The 106 counts include, in no particular order, all Tamil civilian 
victims of the following:

  <bullet> Separate acts of torture in the areas of Jaffna, Batticaloa, 
        and Colombo carried out through a nonexhaustive list of torture 
        methods used by the Sri Lankan armed forces and government-
        sponsored paramilitaries;
  <bullet> Murder of Tamil civilian male Joseph Pararajasingam;
  <bullet> Trinco-5 massacre;
  <bullet> Allaipitti massacre;
  <bullet> ACF-17 massacre;
  <bullet> Sencholai bombing;
  <bullet> Rape of Tharshini Illayathamby;
  <bullet> Murder, decapitation, and body mutilation by dismemberment 
        of Tamil civilian male Fr. Jim Brown;
  <bullet> Murder and decapitation of a 5-month-old Tamil male infant 
        by an indiscriminate aerial bombardment of a Tamil civilian 
        area; and,
  <bullet> Sexual assault of 51 Tamils in Boosa Detention Camp.
                       explaining tamil genocide
    All previous well-known genocides which have occurred since the end 
of World War II have been characterized by a massive number of murders 
in a small defined locality occurring in a short time period and 
carried out by an actor seeking the total physical extermination of a 
particular ethnic group. The post-1945 genocide cases often cited are: 
the Holocaust, the Kurds in Iraq, the Srebrenica massacre, and Rwanda.
    By contrast, Sri Lanka's genocide against Tamils has taken place 
over a number of years and is more characterized by widespread, 
prolonged displacement and destruction of the community's physical and 
cultural base than murder. For this and also wider geopolitical 
reasons, the destruction of the Sri Lankan Tamils is less well 
understood in the world at large as a case of genocide.
    The 2007 U.S. Genocide Accountability Act defines genocide as an 
attempt to physically destroy a group in whole or in substantial part 
because of race, religion, ethnicity, or nationality, as such, by 
employing the following tactics: Extrajudicial killings or 
disappearances; the infliction of serious bodily harm; or, the creation 
of conditions of life intended to cause the physical destruction of a 
racial, religious, ethnical, or national group in whole or in 
substantial part. The evidence collected and organized in the model 
indictment establishes a prima facie case that Eelam War IV is genocide 
masquerading as counterinsurgency. Every incident of genocide 
chronicled in the indictment was inflicted on Tamil civilians outside 
any conceivable war zone and uninvolved in the ethnic conflict between 
the LTTE and the government.
    The central difference between the Tamil genocide and other post-
1945 genocides is that in Sri Lanka the culture of genocide seeks to 
physically destroy Tamils in substantial part, not in whole, if the 
Tamil survivors are willing to accept vassalage or serfdom to Sinhalese 
Buddhists.
    Eelam War IV, and the Tamil genocide between December 6, 2005 and 
January 29, 2009, as detailed and alleged in the model indictment, 
inherits and continues a post-1948 Sinhala-Buddhist culture of genocide 
against Sri Lankan Tamils which fundamentally seeks to create a 
racially pure Sinhala-Buddhist state as prophesied in the 13th century 
pseudo-historical text of Sri Lankan Sinhala-Buddhism, the 
``Mahavamsa.'' It is widely taught, read, and revered today among 
Sinhalese Buddhists as incontrovertible truth.
    From the first to the last page of the model indictment, the 
evidence is mountainous that the ascendant Sinhalese Buddhist power 
structure has invariably acted on the conviction that Sri Lanka is a 
mono-ethnic-religious nation and that all other groups are aliens or 
interlopers whose physical existence (when it is tolerated) is at the 
grace of the government.

                                  <all>

</pre></body></html>
